<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, MAY 11, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Murray, Cochran, Graham, 
and Coats.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF GENERAL CRAIG R. McKINLEY, CHIEF, NATIONAL 
            GUARD BUREAU

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. Before proceeding with the hearing, I 
would like to make an announcement of some good news.
    Last evening, the National Lupus Foundation presented their 
highest award to the senior Senator from Mississippi, Senator 
Thad Cochran, the vice chair of this committee. It was an award 
for his tireless leadership in providing funds for biomedical 
research to find a cure for lupus.
    And at the same time, the Food and Drug Administration 
announced the approval of the first drug that can be used for 
the cure of lupus. So I would like to publicly congratulate my 
colleague.
    Senator Cochran. Mr. Chairman, thank you very much for 
those very generous comments. But without your leadership, I 
don't think it would have been possible for us to get the 
funding that is necessary to do what is being done in the 
research and treatment field of this very troubling, dangerous 
disease.
    So thank you for your continued support for all of those 
efforts.
    Chairman Inouye. This morning, the subcommittee meets to 
receive testimony on the fiscal year 2012 budget of the 
National Guard and Reserve components.
    From the National Guard, we are pleased to have the Chief 
of the National Guard Bureau, General Craig McKinley; and the 
Director the Army National Guard, General Raymond Carpenter; 
and the Director of the Air National Guard, General Harry 
Wyatt.
    And from the Reserve, we will welcome the Chief of the Army 
Reserve, General Jack Stultz; the Chief of the Naval Reserve, 
Admiral Dirk Debbink; the Acting Commander, Marine Forces 
Reserve, General Darrell Moore, who is appearing before this 
subcommittee for the first time; and the Chief of the Air Force 
Reserve, General Charles Stenner.
    And I thank all of you for joining us this morning as the 
subcommittee reviews the fiscal year 2012 budget for the 
Reserve components.
    Over the last several years, the Guard and Reserve have 
made important changes as they transition from a strategic to 
an operational reserve. This shift requires them to have 
deployment-ready units available at all times.
    The Department has improved this resourcing with the Guard 
and Reserve, and the services have made significant strides in 
integrating the Reserve components in an effort to create one 
total force. The subcommittee is interested in hearing your 
views on how best to utilize this new operational reserve as we 
draw down our military involvement in Iraq and Afghanistan.
    The Guard and Reserve have also recovered from the 
recruiting and retention difficulty they confronted over the 
last several years. Although retaining personnel in certain 
high-demand career fields remains a challenge, the significant 
personnel shortages seen a few years ago have been eliminated, 
and the Reserve components now have the opportunity to focus on 
refining their personnel mix to get the right person in the 
right position.
    However, many challenges remain. The Guard and Reserves 
must continue to improve reintegration and family support 
programs. Reservists and their families lack the support 
network provided at active duty installations. So it is 
essential that we do everything we can to support Reserve 
families during deployment and as reservists transition back to 
civilian life.
    The Yellow Ribbon program is a step in the right direction, 
but I encourage you to continue improving the program to better 
fit the needs of service members. So I look forward to hearing 
today what each component is doing to improve support to our 
reservists and their families.
    The Guard and Reserves still face significant equipment 
shortfalls. For this reason, last year Congress provided $850 
million for the National Guard and Reserve equipment account to 
allow the Reserve components to purchase additional equipment 
they need for pre-deployment training and operation at home and 
abroad.
    Congress has provided additional equipment funding for the 
Guard and Reserve in each of the last 31 years because, year 
after year, the President's budget fails to sufficiently fund 
the Reserve components. Some critics decry the additional funds 
by this subcommittee as unnecessary earmarks. But I am certain 
that the witnesses here today agree that without this 
additional funding, our Reserve components would be woefully 
underequipped.
    We owe it to the men and women of the Guard and Reserve who 
are called on, just like their active duty counterparts, to 
deploy in harm's way to make certain they are adequately 
trained and equipped.
    As citizen warriors, members of the Guard and Reserve rely 
heavily on the support of their civilian employers. The 
commitment, dependability, and discipline that they learn and 
exhibit in their military capacity are all valuable skills that 
they can contribute to the civilian workforce. We must continue 
to promote this concept to ensure that we maintain the support 
of the business community in hiring and supporting reservists.
    So I look forward to hearing your perspective on these 
issues and working with you this year in support of our 
guardsmen and reservists. And I thank all of you for your 
testimony this morning. And may I assure you that your full 
statements will be included in the record.
    And we will begin this hearing with the panel from the 
National Guard, but first, I would like to turn to the vice 
chairman, Senator Cochran, for his remarks.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I am pleased to join you in 
welcoming the leaders of the National Guard and Reserve 
components to today's hearing.
    I have a prepared statement, which I will ask unanimous 
consent be printed at this point in the record.
    Chairman Inouye. Without objection.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming the 
leaders of the National Guard and Reserve Components to today's 
hearing.
    The Guard and Reserve components are an essential element 
to the success of our military forces. They contribute at home 
as citizens and serve our Nation in uniform to help protect our 
freedom and liberty. They must always be ready, trained and 
equipped to help defend our homeland, and be ready to deploy 
overseas in support of our national security interests. Our 
successes overseas and in response to natural disasters would 
not be possible without these dedicated men and women.
    We appreciate the efforts and unselfish service of those 
who are keeping this Reserve force ready to protect our 
national security interests.

    Chairman Inouye. And now may I call upon General McKinley.
    General McKinley. Chairman Inouye, Vice Chairman Cochran, 
Senator Coats, Senator Murray, thank you very much for the 
opportunity to be here today.
    I am obviously joined by my colleagues in the National 
Guard, Bud Wyatt, former Adjutant General of Oklahoma; Ray 
Carpenter, South Dakota guardsman. I have also got Randy Manner 
in the room with me, who is our Director of our Joint Staff, a 
significant new contribution that the National Guard has made 
to homeland security.
    Today, we have about 460,000 members of the Army and the 
Air National Guard on duty, serving here at home and abroad. 
Our strength, as you said, Mr. Chairman, is good, and our 
retention is even better. As the United States Armed Forces 
continue to conduct operations in Iraq, Afghanistan, and 
elsewhere around the world, the National Guard participates as 
a full partner with our United States Army and our United 
States Air Force.
    As a member of the total force, the National Guard has 
successfully transformed into an operational force. This 
transformation would not be possible without the significant 
investments this subcommittee has made in the National Guard 
and Reserve, and we thank you all very much for that support.
    We must continue to be utilized as a part of the 
operational force, so that this significant investment is not 
squandered. We are in the midst of a transition, bordering on 
transformation, and must maintain readiness and continue to be 
part of the national security framework.
    I would say that during the past 10 years, the Department 
of Defense has initiated a series of fundamental changes in 
both culture and operational capability in order to better 
protect the United States homeland from catastrophic events, 
natural and man-made.
    The citizen soldiers and airmen of the National Guard are a 
great value for America, as are our colleagues in the Reserve. 
The citizen soldiers who work side-by-side with our active duty 
do bring that unique blend of civilian skills, Senator, 
enabling them to conduct smart power missions with exceptional 
effectiveness.
    We have demonstrated that unique capability through a 
number of National Guard specific missions, including our 
support to the combatant commanders around the world through 
the State Partnership Program, which I know you all are very 
familiar with; the agribusiness development teams in 
Afghanistan; and as a critical partner in the Department of 
Defense CBRNE Enterprise.
    None of these missions would succeed without the dedication 
of our National Guard men and women. Today's men and women 
volunteer to join or stay in the National Guard fully expecting 
to be deployed. This shift in expectation is a central aspect 
of the National Guard shift from strategic reserve to 
operational force.
    Overall, we can say that the budget request for fiscal year 
2012 meets the critical needs of the Army and the Air National 
Guard. In this era of persistent conflict overseas and dealing 
with the ongoing threats to American lives and property here in 
the homeland, of particular importance to us is continued 
funding to sustain the National Guard as an operational force.
    As the fiscal year 2012 budget was developed, we worked 
closely with the Office of the Secretary of Defense to ensure 
adequate funding for the entire CBRNE Enterprise, including 
standing up the remaining eight new Homeland Response Forces. I 
am especially proud of Ohio and Washington State, who have 
taken on this very daunting challenge to be the first two 
States to stand up our Homeland Response Force units.
    The transformation to an operational force has increased 
stress on families, as you stated, Chairman. And that is why it 
is critical that family programs within the fiscal year 2012 
request are fully funded.
    All of us in the National Guard are highly mindful and 
deeply grateful for the strong support this subcommittee has 
shown to us in the past. We are particularly grateful for the 
additional funds which this subcommittee has provided to the 
National Guard and Reserve equipment account.
    We have used those funds to fill critical shortages in the 
Army National Guard and to provide technological modernization 
and enhancements in our Air National Guard capabilities.
    We are proud to have increased our obligation rates and our 
efficient use of those funds, and we are working closely with 
the services to improve these obligation rates. And we will 
continue to work with the subcommittee to ensure we are good 
stewards of the funds and to make your National Guard stronger 
than ever.
    A top priority during my tenure as Chief is to ensure the 
organization of the National Guard Bureau supports our new role 
as an operational force and fosters the development and 
mentorship for future general officers to serve in my current 
position. I will continue to work within the Pentagon to 
validate and fund the necessary general officer positions 
required to support the National Guard Bureau.
    In order to move quickly to your questions, Senators, I 
would like to ask the two Directors to make brief statements.
    [The statement follows:]
            Prepared Statement of General Craig R. McKinley
                            opening remarks
    Chairman Inouye, Ranking Member Cochran, distinguished members of 
the subcommittee; I am honored to appear before you today, representing 
465,000 Citizen-Soldiers and Airmen in the Army and Air National Guard, 
an organization that is historically part of the foundation of our 
great democracy.
    America's National Guard remains ready, reliable, and accessible. 
As members of an operational force, regularly used by the President and 
State Governors, the Soldiers and Airmen of the National Guard 
contribute daily to our Nation's overseas and domestic security 
objectives.
                        national guard overview
    The National Guard is at a crossroads. As we approach fiscal year 
2012, a national debate is addressing the most cost-effective way to 
run the Nation, the Federal Government, and the Department of Defense. 
One of the main issues concerning our military forces involves 
determining the appropriate mix of active duty and reserve forces. To 
that end, we need to ascertain the correct balance of utilization 
rates--somewhere between the current National Guard operations tempo 
and what is sustainable over the long term.
    On average, 63,000 National Guard members are either deployed or 
mobilized at any given time for Federal missions and about 5,800 are 
activated for domestic missions. I believe that this utilization rate 
of National Guard personnel is appropriate and that we can sustain this 
level of activation providing the deployments are programmed as far in 
advance as reasonably possible.
    In the coming months, the Department of Defense, the 
administration, and Congress will analyze the current status of the 
National Guard. I am confident they will conclude that our organization 
is as strong as it has ever been. The investment made in the National 
Guard over the past decade must be capitalized upon and leveraged for 
the future.
    The National Guard has effectively used its appropriated funds over 
the past year, and we as an organization, intend to continue being good 
stewards of the taxpayers' dollars entrusted to us in fiscal year 2012. 
As we embark upon this new fiscal year, we plan to make the National 
Guard stronger, more capable, and more ready.
    The National Guard Bureau's Army, Air, and Joint Directorates each 
work with the Adjutants General of the 50 States, three territories, 
and the District of Columbia to execute the strategies set forth by 
National and State leaders. This synergistic effort is at the heart of 
our success. The National Guard fosters and nurtures a deep-rooted 
connection to the more than 3,300 communities across our country that 
allows the men and women of the National Guard to be an accessible, 
strong, and capable asset--one that is always ready, always there.
    The Army National Guard and Air National Guard are full partners 
with their respective services in providing combat resources and 
enabling units for the overseas fight. However, the National Guard also 
makes ground and air forces available to the Governors when needed. The 
National Guard Bureau team works closely with the Army and Air staffs 
to:
  --Maintain endstrength at or above 358,200 for the Army National 
        Guard (ARNG) and 106,700 for the Air National Guard (ANG), with 
        a primary focus on caring for the Guard members and their 
        Families.
  --Modernize and re-capitalize the ARNG and ANG equipment. This means 
        equip the ARNG to no less than 80 percent of its equipment 
        requirements, ensuring that the ARNG always has the level of 
        equipment needed to meet domestic operational requirements 
        regardless of a unit's status.
  --Ensure the ANG is equipped concurrently and in balance with the 
        Total Air Force.
  --Stabilize the force to build readiness and train forces to the 
        ARFORGEN level of proficiency and to support the Air 
        Expeditionary Force.
    Since the National Guard Bureau's official designation as a joint 
activity of the Department of Defense (DOD), we have been forging ahead 
to develop our dual-mission capabilities, both domestic and overseas. 
We have focused on developing strategic relationships within DOD and 
other Federal agencies to implement efficient and effective response 
capabilities. The goal is to ensure the American people have ready 
access to the essential capabilities of homeland response. To support 
our domestic response priorities, the National Guard Bureau is:
  --Enhancing Chemical, Biological, Radiological, Nuclear, and high-
        yield Explosive (CBRNE) Enterprise response capability at the 
        State level;
  --Establishing a Homeland Response Force (HRF) in each FEMA region; 
        and
  --Documenting the State Joint Force Headquarters requirements to 
        further improve command and control capacity during the 
        response.
    The tremendous value that the National Guard provides can be 
effectively described through our four broad mission areas--our core 
competencies: Overseas defense mission; support to global engagements; 
domestic response mission; and Soldier, Airman, and Family support 
programs.
                        overseas defense mission
    Overseas, the National Guard will continue its full engagement in 
current operations. As of September 30, 2010, the National Guard have 
mobilized nearly 650,000 Soldiers and Airmen in support of Overseas 
Contingency Operations since the attacks of September 11, 2001. In many 
cases, these men and women have mobilized for combat multiple times. 
Most Americans know that the Army and Air National Guard provide many 
of the forces in Afghanistan and Iraq, but few are aware that the vast 
majority of the forces in Bosnia, Kosovo, the Sinai, and Guantanamo 
Bay, Cuba are National Guard members. These missions are critical to 
our National security and garner significant international support in 
keeping peace across the globe.
                     support to global engagements
    Global engagement is another National Guard core competency. Since 
the end of the cold war the National Guard, through its State 
Partnership Program (SPP), has established enduring and mutually 
beneficial relationships between American States and more than 60 
foreign nations. Working with the Department of State, military 
commands, and other agencies, the State Partnership Program is an 
integral component of the Defense Department's global security 
cooperation strategy, the geographic Combatant Commanders' theater 
engagement programs, and the U.S. Ambassadors' Mission Strategic 
Resource Plans. These partnerships work to advance regional security, 
stability, and prosperity. By fostering relationships with other 
countries, we develop more understanding and familiarity with each 
other, thereby creating a foundation of trust, appreciation, and 
burgeoning global security.
    Furthermore, as the demand for Overseas Contingency Operations 
forces declines, there is opportunity to preserve operational National 
Guard capability by expanding the experience gained through the SPP. 
Using contingency forces in its 1 year of rotational availability 
permits it to prepare for 5 years with personnel costs that are a small 
fraction of the active component. National Guard units that are used 
for these purposes can offer the Combatant Commander the predictability 
and stability inherent in the operational RC, which in turn provides 
the benefit of continuity in sourcing and building long-term 
relationships.
    The National Guard is ideally suited for providing support to 
Combatant Commanders. Soldiers with valuable civilian skills and 
expertise from professional, technical, and managerial fields in the 
private sector make up the National Guard. Moreover, retaining specific 
skill sets within particular units is possible because National Guard 
Soldiers characteristically spend their entire career in the same unit. 
Skill sets not only apply to those that are civilian acquired, but also 
military investments made in language training and cultural awareness. 
The National Guard's proven track record in recruiting and retaining 
prior service personnel preserves the training expense already invested 
while on active duty.
    The Afghanistan Agribusiness Development Program is a unique 
engagement program of the National Guard. The Agribusiness Development 
Teams provide training and advice to Afghan agricultural universities, 
provincial ministries, and local farmers, leading to increased 
stability and improved opportunities for Afghanistan's reemerging 
agribusiness realm. Thanks to the National Guard, Afghanistan reports 
declines in poppy production and increases in harvests of apples, 
grapes, pomegranates, cherries, almonds, wheat, corn, alfalfa, and 
saffron.
                       domestic response mission
    Domestically, the National Guard is ready to respond on a moment's 
notice to any emergency, manmade or natural. The National Guard will 
have 10 Homeland Response Force units that are either dedicated to or 
dual-hatted for this critical homeland mission. These units will 
complement and enhance the existing civil-support structure in National 
Guard units across the Nation.
             soldiers, airmen, and family support programs
    The National Guard seeks to provide exemplary support to our 
Soldiers, Airmen, and their Families. Programs, such as the Army's 
Warrior Transition Units (WTUs) and Community-Based Warrior Transition 
Units (CBWTUs), focus on caring for wounded warriors from across the 
Army. The Army National Guard supports the Army's WTUs and CBWTUs at 
all levels of the organization from squad leader to battalion 
commander.
    The Yellow Ribbon Reintegration Program provides information, 
services, referrals, and proactive outreach to Soldiers, spouses, 
employers, and youth throughout the different stages of mobilization: 
pre-alert, alert, pre-deployment, deployment, post-deployment, and 
reintegration.
    Our Citizen-Soldiers, who in their civilian lives are in positions 
of influence across the spectrum of business, education, and 
Government, make up the backbone of the National Guard Youth ChalleNGe 
Program (NGYCP). This award-winning, community-based program leads, 
trains, and mentors high school dropouts to become productive citizens 
in America's future. ChalleNGe has 32 sites in 28 States and Puerto 
Rico, offering a 5-month ``military style'' residential phase and a 1-
year post-residential mentoring phase for unemployed youth ages 16-18. 
ChalleNGe saves States approximately $175 million annually in juvenile 
corrections costs, while keeping youths off Federal assistance.
                       a great value for america
    Investment in the National Guard is a great value for America. 
These brief examples display only a fraction of what we currently 
accomplish and I am confident that we can provide more in the years to 
come.
    We must sustain the National Guard as a ready and accessible force. 
We must find a sustainable balance between operational utilization and 
overuse of these dedicated Citizen-Soldiers and Citizen-Airmen. The 
National Guard currently provides 35-40 percent of the Army and Air 
Force operational force for less than 7 percent of the base defense 
budget--precisely the type of efficiency the Department of Defense is 
seeking. With the proper disbursement of scarce defense dollars, the 
National Guard is an investment with a very high return.
    Today and in the future, the National Guard will continue to 
simultaneously defend the Nation's interests overseas, support the 
homeland, and serve as an indispensable, cost-effective military option 
for the United States. For 375 years, our National Guard has proven 
itself a great value for America. With a deliberate decision to support 
the Reserve Component as an operational force, and the discovery of the 
critical balance between funding and use, the National Guard will be 
successful in fiscal year 2012, and emerge as an even greater value in 
the future.
                            closing remarks
    Thank you for the opportunity to be here today, I look forward to 
your questions.

    Chairman Inouye. Bud. General Wyatt.
STATEMENT OF LIEUTENANT GENERAL HARRY M. WYATT III, 
            DIRECTOR, AIR NATIONAL GUARD
    General Wyatt. Chairman Inouye and Vice Chairman Cochran, 
Senator Murray, Senator Coats, I also want to thank the 
subcommittee for its support for the extraordinary men and 
women who serve in America's Air National Guard, some 106,700 
strong.
    I am privileged to have with me today the Command Chief 
Master Sergeant of the Air National Guard, my senior enlisted 
adviser, Chris Muncy from Ohio, who is seated behind me in the 
audience.
    Before I get into the future of the Air National Guard, I 
would like to open with a brief review of 2010 before looking 
to the future of the Air National Guard.
    Your Air Guard airmen continue to make a significant 
contribution to the Nation's defense, both here at home and 
around the globe. Last year, Guard airmen filled 52,372 
requests for manpower. Eighty-nine percent of these requests 
were filled by volunteers. Forty-eight thousand five hundred 
thirty-eight served in Federal or title X status primarily 
overseas, with the bulk of those serving in Iraq and 
Afghanistan and surrounding areas.
    But Air Guard members also served in Central and South 
America, Asia, Europe, Africa, and Antarctica. The Air National 
Guard is currently providing nine remotely piloted aircraft 
combat air patrols over Afghanistan and has been asked to do a 
10th, which we will accept and take on.
    And the Air Guard airmen serving in harm's way are not just 
flying airplanes. In fact, some of the skills in greatest 
demand are not in flight operations, but rather security 
forces, intelligence, computer support, and vehicle 
maintenance.
    Domestically, your Guard airmen are helping with Southwest 
border security, the counterdrug program, and guarding the 
skies above our Nation in the Air Sovereignty Alert Mission. In 
addition, Guard airmen almost daily are in our communities 
protecting property and saving lives.
    Guard combat search and rescue personnel in Alaska, 
California, and New York are frequently called upon to help 
search for lost hikers or rescue stranded climbers. The Air 
National Guard modular air firefighting units have supported 
the Forest Service in numerous missions and, in fact, have just 
returned from missions in western Texas.
    Guard airmen also made significant contributions to 
earthquake relief in Haiti, the oil clean-up in the gulf, 
floods and tornadoes in the Midwest, and recently, the Hawaii 
Air Guard airmen even helped with the State flu vaccination 
program in public schools.
    Every day, somewhere in America, there are Air Guard 
members supporting civil authorities and protecting our 
citizens. Congress' investment has created the greatest Air 
National Guard in the organization's history, but continued 
investment in the Air National Guard is critical for national 
security, and the Air National Guard continues to be a great 
value to America.
    As we prepare for the future, the Air National Guard wants 
to build upon the lessons of the past. Today's Air National 
Guard integrates seamlessly into Air Force global operations 
because we have the same equipment with similar capabilities. 
And our Air Guard airmen maintain the same standards of 
training and education.
    Our goal is to continue to be an equal partner through the 
Air Force's recapitalization and modernization process. Since 
9/11, the Air National Guard has increased its role in domestic 
operations, including participation in joint domestic response 
teams such as the new Homeland Response Forces that General 
McKinley referenced.
    With continued support from Congress, we will continue to 
improve and enhance our ability to support civil authorities 
through prudent investment in dual-use capabilities.
    Mr. Chairman, thank you and the members of the 
subcommittee. I am grateful for the opportunity to be here, 
look forward to your questions.
    Thank you, sir.
    Chairman Inouye. Thank you, General Wyatt.
    [The statement follows:]
      Prepared Statement of Lieutenant General Harry M. Wyatt III
                            opening remarks
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the subcommittee; I am honored to appear before you today on behalf 
of the outstanding men and women serving in our Nation's Air National 
Guard. I would like to begin by expressing my sincere appreciation to 
the Committee for its tremendous support to the Air National Guard. 
Your work ensures America continues to have a ready, reliable, and 
accessible Air National Guard, responsive to our domestic needs as well 
as providing operational capabilities critical to the success of our 
Total Force. As we face increasingly limited resources and tight or 
declining defense budgets, we must accentuate the strength of the Air 
National Guard--our cost effectiveness.
                 air national guard in national defense
    Facing a need to reduce the Defense budget in response to domestic 
priorities and the need to sustain defense capabilities in light of 
growing foreign challenges, Secretary of Defense Melvin B. Laird put 
his faith in the Reserve Components. Secretary Laird wrote, ``Within 
the Department of Defense . . . economics will require reductions in 
overall strengths and capabilities of the active forces, and increased 
reliance on the combat and the combat support units of the Guard and 
Reserves.'' \1\ He understood that by increasing the readiness of the 
Guard and Reserves and then relying upon them ``to be the initial and 
primary source for augmentation of the active forces in any future 
emergency'' \2\ the Nation would maintain its defense capability and 
capacity while decreasing the overall costs.
---------------------------------------------------------------------------
    \1\ Melvin B. Laird, Memorandum to the Secretaries of the Military 
Departments, Subj: Support for Guard and Reserve Forces, August 21, 
1970.
    \2\ Ibid.
---------------------------------------------------------------------------
    The U.S. Air Force leadership recognized that as the Nation's first 
military responder, increased reliance on the Reserve Components meant 
the Air Force Reserve and Air National Guard must be able to respond 
quickly and integrate seamlessly into any operation; they would require 
equipment and training comparable to the regular, active duty Air 
Force. The ANG, with significant help from Congress, began trading in 
its obsolete Korean War vintage equipment for newer, and in some cases 
brand new aircraft. The ANG also received additional funds for 
training, including modern flight simulators, and full-time Guard 
Airmen (Active Guard and Reserve (AGR) and Technicians) to oversee the 
increased training regimen.
    Improved operational readiness brought with it a rejuvenated desire 
by Guard Airmen to do more than just train--to demonstrate their 
capabilities. ANG units began volunteering to augment the Regular Air 
Force by participating in ongoing operational missions around the 
world. To the customer, the Air National Guard became indistinguishable 
from the Regular Air Force. This was done within the fundamental 
framework of a part-time professional force.
    Today's National Guard Airmen have been fighting alongside our 
regular, active duty and Air Force Reserve brothers and sisters since 
Operation Desert Shield in 1991, and they have proven to be equal 
partners in our Nation's defense. Last year (CY2010), Guard Airmen 
filled 48,538 manpower requests, and 89 percent of these Guard Airmen 
responded to the call voluntarily, without the need for ``involuntary 
mobilization.'' They have served honorably in Iraq and Afghanistan, but 
also in Bosnia, throughout Africa, South America, Europe (including 
countries of the former Soviet Union), Korea, and, under Operation Deep 
Freeze, New Zealand and Antarctica.
    The world is a very different place today than when Secretary Laird 
established the Total Force, but the underlying principle of the Total 
Force remains true: the Nation can maintain defense capabilities at 
less total cost through careful balance of Active Component and Reserve 
Component forces.
    Secretary Gates has charged the Department ``to generate efficiency 
savings by reducing overhead costs, improving business practices, or 
culling excess or troubled programs.'' \3\ While our leadership is 
making tough decisions, we know the Air National Guard is well situated 
as a cost-effective answer in both our defense and domestic response 
roles.
---------------------------------------------------------------------------
    \3\ Robert M. Gates, Statement on Department Budget and 
Efficiencies, January 6, 2011.
---------------------------------------------------------------------------
    The Air Guard provides a trained, disciplined, and ready force for 
a fraction of the cost. The Air National Guard savings are due to our 
part-time business model. Approximately 70 percent of our Guard Airman 
are traditional part-time professionals, meaning that they are only 
paid when serving or on active duty for training. Also, the Air 
National Guard seldom pays subsistence or housing allowances, or for 
permanent change of station moves for the members and their families.
    Another key factor to our cost effectiveness is the infrastructure 
savings inherent in the Air National Guard basing model that not only 
allows us to operate efficiently, but also allows us to be a part of, 
and contribute to, communities across the country. With some of our 
leases costing as little as $1 annually, the Air Guard is able to 
realize even more cost savings through its supporting infrastructure. 
In fact, for less than $4 million annually through Joint Use 
Agreements, the Air National Guard provides stewardship to 
approximately $12 billion in infrastructure.
                          domestic operations
    This year the Air National Guard began a process to better define 
and prepare for its role in domestic operations. In CY2010, 3,739 
National Guard Airmen performed domestic missions under Title 32 
including U.S. air defense, border security, counterdrug operations, 
and search and rescue. Many other Guard Airmen were called to State 
Active Duty by their governors to augment local police forces and help 
with disaster relief.
    Many are unaware of the contributions and skills our Guard Airmen 
provide to domestic support. The Air National Guard has particular core 
capabilities for which we are uniquely trained and equipped. Many have 
been used in the past year alone, to include: Air Defense (Air 
Sovereignty Alert); Air Traffic Control; Airlift (transportation, 
supply, and evacuation); Civil engineering; Specialized medical care; 
Law enforcement; Aerial firefighting; Mortuary affairs; Urban search 
and rescue; and Communications.
    The Air National Guard's support to civil authorities is based upon 
the concept of ``dual use,'' i.e., equipment purchased by the Air Force 
for the Air National Guard's Federal, combat mission, can be adapted 
and used domestically when not needed overseas. For example, an Air 
National Guard F-16 wing contains not only F-16 fighter aircraft but 
fire trucks, forklifts, portable light carts, emergency medical 
equipment including ambulances, air traffic control equipment, 
explosives ordinance equipment, etc., as well as well trained experts--
all extremely valuable in response to civil emergencies. If the F-16 
wing converts to a non-flying mission or even a Remotely Piloted 
Aircraft mission, much of this equipment may leave with the F-16 
aircraft. As the Air Force proceeds with its recapitalization and 
modernization plans, we need to ensure our citizens are not left 
without essential disaster response capabilities.
    Looking to the future, the Air National Guard recognizes the 
growing importance of its domestic response capabilities and the many 
threats to domestic peace. Our Airmen are working closely with the 
National Guard Bureau, USNORTHCOM, the Department of Homeland Security, 
as well as other local, State, and Federal agencies to help identify 
and fill capability gaps in the U.S. regional response framework.
                            closing remarks
    Our National Guard Airmen have proven themselves to be ready, 
reliable, and accessible in recent actions here at home and overseas. 
Every dollar spent on the Air National Guard provides our Nation an 
unmatched return on investment. Given adequate equipment and training, 
the Air National Guard will continue to fulfill its Total Force 
obligations and seamlessly integrate into the Joint theater operations 
and respond to domestic emergencies.
    We need your help to ensure that the Air National Guard of tomorrow 
is as a ready, reliable, accessible, and cost effective as it is today.
    Thank you for the opportunity to be here today, I look forward to 
your questions.

    Chairman Inouye. General Carpenter.
STATEMENT OF MAJOR GENERAL RAYMOND W. CARPENTER, 
            DIRECTOR, ARMY NATIONAL GUARD
    General Carpenter. Chairman Inouye, Vice Chairman Cochran, 
Senator Murray, Senator Coats, it is my privilege and honor to 
be here today to represent 360,000 plus soldiers in the Army 
National Guard. Of those soldiers, nearly 34,700 are currently 
mobilized, and more than half have had combat experience.
    The sacrifice of these soldiers, their families, and 
employers is something we not only acknowledge, but deeply 
appreciate. Today, I wish to thank you for the opportunity to 
share relevant information about the Army National Guard and 
also thank you for your continued support.
    I am accompanied today by Command Sergeant Major Burch, the 
senior enlisted soldier in the Army National Guard and Nebraska 
guardsman, and Command Chief Warrant Officer Nisker, the Senior 
Command Chief Warrant for the Army National Guard.
    The last decade has seen the Army National Guard transform 
to an operational force. The congressional initiatives and 
investments in the Army National Guard have contributed to our 
transformation and enhanced readiness as we continue to deploy 
in service to our Nation.
    Recent initiatives include soldier and support programs 
that allow us to recruit and retain the best and brightest. You 
have supported the resourcing for equipment modernization for 
our brigade combat teams, including One Stryker Brigade and our 
Combat Aviation Brigades, among other forces inside the Army 
National Guard.
    Through the support of this subcommittee, our Nation has 
invested billions of dollars in equipment for the Army National 
Guard in the past 6 years. The delivery of that equipment has 
nearly doubled our equipment on-hand rates for the critical 
dual-use equipment over the last 5 years.
    I would be remiss if I did not point out how important 
NGREA and, again, the work of this subcommittee have been in 
modernizing and equipping the Guard. This year, we have 
achieved a critical dual-use equipment. That is equipment that 
has utility both in the war fight and homeland. The fill rate 
is 89 percent, 76 percent on-hand in the units available to the 
Governors should they need it tonight.
    The Army National Guard Aviation Program is a great 
example. Both fixed- and rotary-wing aircraft have provided 
huge benefits in support of domestic and overseas operations 
since 9/11. Army Guard aircraft regularly respond by 
transporting emergency supplies and personnel during floods, 
wildfires, during the Deepwater Horizon oil spill, and most 
recently, the tornadoes across the South and flooding we are 
now experiencing from Minnesota to Louisiana.
    Army Guard aviation provides a critical dual-use 
capability, whether in the mountains of Afghanistan or the 
Mississippi Delta. Through your efforts, we have come a long 
way in moving to modernize our aircraft from the venerable Huey 
to the LUH-72, UH-60 Lima and Mike models, CH-47 Delta 
Chinooks, and the AH-64 Delta Apaches. Again, we are well on 
our way in the modernization effort, but there remains work to 
do.
    Turning to our human dimension, we have learned a lot about 
support to our soldiers, their families, and employers over the 
past decade. It is critical that we work to ensure our force is 
employed, that they are physically and mentally fit, and that 
we understand the stresses that we ask them to endure, whether 
deployed or at home.
    It is vital that we continue to fund soldier and family 
outreach programs. In calendar year 2010, the number of 
reported Army Guard suicides nearly doubled--62 in calendar 
year 2009, compared to 113 in calendar year 2010. Within the 
Army Guard, we have set a goal to cut that number by one-half 
to 60 in 2011, knowing full well 1 suicide is too many.
    Most States have developed comprehensive social support and 
mental health initiatives. These programs emerged out of a need 
to strengthen soldier resilience. Several of our States, 
including Michigan, Nevada, Nebraska, California, Wisconsin, 
Kansas, Hawaii, Vermont, and Illinois, have innovative 
resiliency programs. Across the Nation, the adjutant generals 
are committed and actively engaged in this effort. I credit 
them with the current downward trend we are experiencing in 
reported suicides.
    The Nation will benefit from the past investment and 
experience of the Army National Guard in the future. In a 
budget-constrained environment, the operational Army National 
Guard is a cost-effective solution.
    Again, I would like to acknowledge the critical role this 
subcommittee has played in building and sustaining the best 
National Guard I have seen in my career of nearly four decades. 
I look forward to your questions and comments.
    Chairman Inouye. Thank you very much, General.
    [The statement follows:]
        Prepared Statement of Major General Raymond W. Carpenter
                            opening remarks
    Chairman Inouye, Ranking Member Cochran, distinguished members of 
the subcommittee; I am honored to appear before you today, representing 
360,000 plus Citizen-Soldiers in the Army National Guard, an 
organization that is historically part of the foundation of our great 
democracy.
           citizen soldiers as part of the operational force
    Our Army National Guard (ARNG) is approaching a decade of war with 
an all-volunteer force. Our Army National Guard Mobilizations in 
Support of Overseas Contingency Operations in fiscal year 2010, 
including Soldiers who have mobilized multiple times, were 41,744 for 
Operation Enduring Freedom (Afghanistan) and Operations Iraqi Freedom 
and New Dawn, and another 3,054 mobilizations to the Balkans, Sinai, 
and elsewhere around the world. A staggering 477,323 Soldiers have been 
activated since 9/11, and 34,700 Soldiers are currently mobilized as of 
March 5, 2011.
    We are an operational force in a transition mode within the 
ARFORGEN rotational cycle. To the credit of our Soldiers and their 
leaders, we are experiencing huge successes in our homeland defense and 
overseas missions. We continue to see young and not-so-young people who 
want to join and serve in the ARNG. Just as impressive are the 
retention rates of our current serving force; most are combat veterans 
who make the decision to continue to serve at historic rates; they 
clearly understand we are at war. Our reenlistment rate as of EOM 
February 2011 for enlisted Soldiers is 72.4 percent of our total force 
and 73.8 percent of our Soldiers with Mobilization experience. These 
retention numbers are especially impressive when we consider that at 
the end of fiscal year 2010 the average dwell time for our Soldiers 
with mobilization experience was 2.4 years. As a first step, the Army 
goal is to achieve 4 years dwell by 2014, but balancing the force will 
not happen overnight.
    The experience we have gained since 9/11, the modern equipment 
fielded, the training delivered to our Soldiers, and the frequency of 
deployments, have resulted in a highly seasoned, well-equipped combat 
force. As of end of month December 2010, 53 percent of ARNG Soldiers 
are combat veterans; more than half of our force--and we hope to retain 
that level of experience. Our force has truly become an operational 
force. At the end of fiscal year 2010, 84.45 percent of ARNG forces 
were Duty Military Occupational Specialty (MOS) Qualified--an 
escalating increase from 73.27 percent at the end of fiscal year 2008 
and 83.06 percent in fiscal year 2009. The experience of our Army 
National Guard in recent years has strengthened our Soldiers and units 
to the benefit of our Nation like no other time in recent history. 
Several high-level research studies have been commissioned to guide the 
future of our Army National Guard operational force including an OSD-RA 
study and the General Reimer study. Ultimately, these studies agree 
that for a relatively modest investment, an Operational Army National 
Guard can be sustained. In return, the Nation will benefit from the 
past investment and experience of the ARNG. In a budget-constrained 
environment, the Army National Guard is an extremely cost-effective, 
substantially paid-for option that the Nation needs to sustain. It is 
important that we maintain our key force structure elements of 8 
Divisions, 8 Combat Aviation Brigades, and 28 Brigade Combat Teams 
(BCTs).
                    equipment and critical dual use
    Our Nation has invested over $37 billion in equipment for the Army 
National Guard in the past 6 years. That investment was made in both 
Critical Dual Use (CDU) and other required equipment, used for both 
domestic homeland crisis response missions and overseas contingency 
operations. Overseas contingency operations have spurred improvements 
in the capacity of the ARNG to support the war effort, to respond to 
natural and man-made disasters, to provide critical assistance during 
State and national emergencies, and to be prepared to respond to 
potential terrorist attacks in defense of the homeland. Our homeland 
response enterprise includes 10 Homeland Response Forces (HRFs)--2 
validated in fiscal year 2011 and 8 in fiscal year 2012, 17 Chemical, 
Biological, Radiological, Nuclear and High Yield Explosive (CBRNE) 
Enhanced Response Force Packages (CERFPs), and 57 Civil Support Teams 
(CSTs).
    CDU equipment includes tactical radios, rotary aircraft, ground 
transportation vehicles, and digital command and control enablers. The 
Army has made significant efforts to improve the ARNG CDU equipment 
posture and remains committed to ensuring the ARNG has the CDU 
equipment required to support Homeland Defense/Homeland Security (HLD/
HLS) and Defense Support to Civil Authorities (DSCA) operations. To 
highlight this level of commitment, ARNG equipment-on-hand rates for 
Critical Dual Use equipment are projected to increase to 94 percent by 
October 2012. That's an increase of 19 percent over the 4 years since 
the ARNG began monitoring CDU rates.
    During fiscal year 2010, the ARNG received over 154,000 pieces of 
new equipment valued at $9.8 billion. With this influx of new 
equipment, the on-hand percentage for all equipment is currently at 92 
percent and continues to be maintained at levels greater than 90 
percent. The Army continues to improve the equipment on hand and 
modernization levels for the Army National Guard. The Army views this 
as critical for the ARNG to be employed as an operational force. The 
Army Equipping Strategy established equipping aim points for units as 
they progress through the Army Force Generation (ARFORGEN) process 
which will help build unit readiness and maintain unit parity in terms 
of both modernization and interoperability.
                           quality facilities
    The Army National Guard is a community based force. As such, our 
facilities are often the foundation for community support of an all-
volunteer force. The ARNG has made some great progress with several 
LEED (Leadership in Environmental and Energy Design) Silver certified 
facilities meeting the qualifying requirements for recycled material 
usage, natural lighting, and energy conservation. We have further 
opened the call for volunteer installations to take part in Army 
IMCOM's Net Zero initiative. The ARNG, however, still has much work to 
do to provide quality facilities to perform our dual mission across the 
54 States and Territories. Quality facilities link directly with 
Soldier readiness, family, youth, and morale programs such as Yellow 
Ribbon and Youth ChalleNGe. The ARFORGEN model requires increased usage 
of ARNG facilities. Forty percent of ARNG readiness centers are more 
than 50 years old and require substantial modernization or total 
replacement to meet the needs of an operational force. To achieve 
quality in facilities, we have thus far executed 99 percent of Milcon 
funds in fiscal year 2010 and estimate we will need $774 million in 
Milcon dollars for fiscal year 2012.
                            aviation support
    The Army National Guard (ARNG) aviation program, both fixed and 
rotary wing aircraft, provided huge benefits in supporting Domestic 
Operations this past year. Every year offers ARNG aviation a new set of 
challenges. Last year, fixed-wing aircraft transported emergency 
supplies and personnel during floods, wildfires, and other emergencies 
across the Nation and throughout the gulf coast during the aftermath of 
the Deepwater Horizon oil spill. During the oil spill recovery effort, 
ARNG aviation crews logged 3,722 hours and moved over 16 million pounds 
of cargo. The Operational Support Airlift Agency provided critical 
combat support by transporting blood donations and Wounded Warriors 
across the United States. Fixed-wing aircraft also transported much-
needed supplies and personnel to Haiti after the January 2010 
earthquake. At home and abroad, these aircraft flew 53,029 hours, 
completed 11,312 missions, transported over 3.5 million pounds of 
cargo, and carried more than 70,000 passengers.
    Rotary wing units and aircraft in fiscal year 2010 flew 
approximately 50,000 hours in civil support. These missions included 
support of disasters and declared emergencies in which Guard aviation 
displayed versatility and flexibility such as responding to the largest 
oil spill to affect the United States, the Deepwater Horizon spill. 
ARNG rotary wing crews flew missions such as sand bag emplacement, 
personnel evacuation, engineer damage assessment, and law enforcement 
agency support. In Haiti the Puerto Rico National Guard flew two UH-60s 
based out of the Dominican Republic in support of the American Embassy 
in Port-au-Prince giving an early signal that help was on the way to 
support the restoration of health services. ARNG Security and Support 
aircraft and crews continue to provide planned support to counterdrug 
operations nation-wide and notably along the Southwest border. Our 
aviation forces responded to floods in Arizona, North Dakota, 
Louisiana, and West Virginia; provided wildfire support in Minnesota; 
and flew search and rescue missions in California, Colorado, New 
Mexico, Nevada, and Oregon. ARNG rotary wing missions crossed the full 
spectrum of domestic support.
    ARNG fixed wing and rotary wing capabilities have been and continue 
to be a critical dual use asset that the Army and Adjutants General 
rely heavily upon. The operational tempo of our ARNG aviation units 
continues to be elevated as overseas commitments and domestic support 
requirements remain steady.
    Army National Guard aviation not only supports Domestic Operations 
such as responses to hurricanes, oil spills, search and rescue 
operations, forest fires, floods, and weather emergencies, in addition, 
we continue to support overseas deployments such as Operation Enduring 
Freedom, Operation New Dawn, and Kosovo. We do so with an aging 
aircraft fleet. Since 2001, the ARNG has retired over 600 legacy 
aircraft and fielded 300 modernized aircraft. The ARNG is 
simultaneously modernizing aircraft to reduce sustainment costs, 
increase readiness, and support interoperability for the deploying 
force. ARNG aviation also includes Unmanned Aircraft Systems and 
related Ground Support Equipment. Aviation and related support systems 
remain persistent items of interest on modernization priority lists.
    The Army needs to continue its modernization plan if the ARNG is to 
meet current and future demands in the Homeland and on missions abroad. 
The ARNG fleet currently has shortfalls in CH-47 Chinook and AH-64D 
Apache airframes.
    The Assistant Secretary of the Army (Acquisitions, Logistics and 
Technology) recently directed the Program Executive Office--Aviation to 
divest the C-23 Sherpa aircraft not later than December 31, 2014. In 
accordance with Army guidance, the ARNG developed a plan to retire the 
42 existing C-23 aircraft in 2011-2015. The 2010 Vice Chief of Staff, 
Army capability portfolio review directed a requirements-based 
assessment on the need for Army utility fixed wing aircraft. The ARNG 
expects more fidelity from HQDA in the coming months on the number of 
utility fixed wing aircraft the ARNG will continue to retain and 
operate to meet Army fixed wing requirements.
           national guard and reserve equipment appropriation
    The National Guard and Reserve Equipment Appropriation (NGREA) is a 
special Defense Appropriation that complements each Service's base 
appropriation. NGREA is intended to procure critical modernization 
items of equipment that the base appropriation is not able to fund.
    The Army's goal is to ensure that ARNG units are equipped properly 
with Critical Dual Use (CDU) capabilities to execute Homeland Defense 
and Defense Support to Civil Authorities (HLD/DSCA) missions 
effectively. These missions include Federal such as overseas 
deployments and state such as disaster relief in support of the 
governors. Our specific ARNG goal is to equip the ARNG with over 80 
percent of the CDU requirement. The Army has committed to keeping CDU 
equipment levels above 80 percent on hand. According to the National 
Guard and Reserve Equipment Report (NGRER) 2010 report, the ARNG has 
the following key equipping challenges: Achieving full transparency for 
procurement and distribution; equipping units for pre-mobilization 
training and deployment; equipping units for their Homeland Missions; 
modernizing our helicopter fleet; and modernizing our Tactical Wheeled 
Vehicle (TWV) fleet.
    The above challenges involve obtaining a full complement of ``heavy 
tactical vehicles, small arms, communications systems, field artillery 
systems, and combat systems'' (NGRER, 2010, p. 1-8)
                     military construction (milcon)
    Currently, 40 percent of or Readiness Centers are over 50 years 
old. Not only do many of these facilities fail to meet the needs of a 
21st century operational force, many fall short of DOD, Federal, or 
State building standards and requirements to include: anti-terrorism/
force protection, energy efficiencies, and Americans with Disabilities 
Act (ACT) requirements. The Army National Guard fiscal year 2012 
military construction request for $774 million is focused on improving 
this situation and making additional Milcon improvements in the 
categories of Grow the Army, Modernization, Transformation, Training 
Support, and Planning and Design and Unspecified Minor Military 
Construction. Under the Grow the Army category, we are submitting a 
request of $101 million for 11 Readiness Centers. These new Readiness 
Centers will be implementing the energy efficiencies. For 
Modernization, our budget request includes $197.7 million for 11 
projects including readiness centers and aviation support centers in 
support of our modern missions. For Transformation, we are requesting 
$197.9 million for 10 projects which include 3 Tactical Unmanned 
Aircraft System Facilities (TUAS), 5 Readiness Centers, 1 Army Aviation 
Support Facility, and 1 Field Maintenance Shop. For Training Support: 
In fiscal year 2012, the Army National Guard is requesting $245 million 
for 16 projects which will support the training of our operational 
force. These funds will provide the facilities our Soldiers require as 
they train, mobilize, and deploy. Included are five Operations 
Readiness and Training Complexes (ORTC), seven range projects, one 
Maneuver Area Training and Equipment Site (MATES), one railhead 
expansion and container facility, and two deployment processing 
facilities. For Other Support Programs, our fiscal year 2012 Army 
National Guard budget contains $20 million for planning and design of 
future projects and $12 million for unspecified minor military 
construction to address unforeseen critical needs or emergent mission 
requirements.
    Lack of a fully funded Milcon request creates a significant backlog 
for construction projects. Deficiencies primarily exist in four main 
areas within ARNG facilities: readiness centers, training facilities, 
maintenance facilities, and infrastructure. The funding backlog for 
readiness centers is $30.3 billion; the majority of these facilities 
cannot meet anti-terrorism/force protection (AT/FP) requirements.
                            arng resilience
    People are our most precious resource. The quality of the Citizen-
Soldiers of the Army National Guard is unprecedented. However, we are 
experiencing a troubling increase in the incidence of suicides. In 
calendar year 2010, the ARNG suicide rate nearly doubled; the number of 
ARNG suicides for calendar year 2009 and calendar year 2010 were 62 and 
112, respectively. Ninety-one percent of the ARNG Soldiers who 
committed suicide were Traditional Drilling Guardsmen vs. full-time 
Army National Guard and are not eligible for many of the support 
services available to the AC or our Title 32 Active Guard and Reserve 
Soldiers. Some had deployed in support of Army operations and over half 
had not deployed or were still in the process of being indoctrinated 
into the ARNG. While we do not know what triggers their decisions, we 
do know that the stressors that may affect their outlook such as 
employment, relationship issues and previous behavioral health issues 
must be identified and mitigated to promote their welfare and well-
being. Subsequently, the ARNG is teaming with DOD and the Army to 
incorporate Traditional Drilling Guardsmen into future studies such as 
the Study to Access Risk and Resilience in Our Service Members 
(STARRS).
    The ARNG has made the promotion of Resilience and Risk Reduction 
with a corresponding decrease in suicidal behavior our top priority. 
The ARNG has developed a holistic approach to enhance the resilience 
and coping skills of our Soldiers, Families, and Civilians by promoting 
risk reduction through leadership awareness, training and intervention 
programs. The ARNG Resilience, Risk Reduction and Suicide Prevention 
Campaign Plan was developed to promote an integrated program of 
prevention, intervention and mitigation at all levels. This document 
nested all other collaborative efforts within DOD, Army and NGB to 
promote unity of effort and synchronize our objectives. The plan was 
also distributed to State Leadership to shape and focus their efforts 
on improving the mental, physical, and spiritual health of their 
Soldiers and Families throughout our formations.
    Since our Citizen-Soldiers are reflective of society as a whole, it 
comes as no surprise that in-depth analysis indicates the increased 
ARNG suicide rate may correspond to an increasing national trend in at-
risk and suicidal ideations and attempts. In addition to our efforts to 
promote Soldier resilience, the ARNG leadership also recognizes the 
role of ARNG Families, Peers, and Employers as providing the foundation 
of each Soldier's support network. These groups are present in the 
Soldier's life between their traditional drill periods and have the 
ability to identify and address negative behaviors before they lead to 
functional impairment or at-risk behaviors. The ARNG provided the 
States with training programs for both family members and employers to 
assist in identifying those that should be referred to unit leadership 
for assistance and the applicable support services available in their 
community. States have capitalized on community based resources and 
solutions to provide services beyond the installation.
    The ARNG resourced 54 Suicide Prevention Program Managers in the 
States in fiscal year 2010 and trained over 200 Master Resiliency 
Trainers assigned to brigades and battalions. We are striving to help 
each of our Soldiers become ready and resilient. For instance, the ARNG 
Leader's Guide to Soldier Resilience was developed to provide ``battle 
drills'' for common Soldier issues; this publication complements the 
ARNG CSM's Soldier to Soldier Peer Support program promoting ``Buddy 
Aid'' including basic intervention skills and trigger points for 
referrals or emergent care. The ARNG CSM has emphasized the roles and 
responsibilities of leadership during his two national CSM conferences 
this past year. Our Soldiers and families are encouraged to take the 
Global Assessment Tool, which identifies individual resilience levels 
and uses the self developmental modules to increase self awareness and 
resilience. Additionally, we increased collaboration with the Army 
Center for Substance Abuse in order to address substance abuse 
prevention, outreach and treatment for Soldiers, as well as Leaders and 
Families, so they understand their roles. Our efforts to increase 
assets available to Commanders to improve Soldier resilience include 
partnerships with national and community organizations such as the 
American Red Cross, Substance Abuse and Mental Health Services Agency, 
counselors and clergy, and use of the Army's Comprehensive Soldier 
Fitness Program.
    Within the Army National Guard, we have set an ultimate goal of 
zero suicides. Our current count is 12 suicides so far this calendar 
year versus 22 this time last year. At this time it is too early to 
determine State level trends but we will continue to monitor them. 
Several States have developed comprehensive social support and mental 
health initiatives. These programs emerged out of a need to promote 
Soldier and family resilience and reduce potential stressors including 
employment and financial issues, domestic strife and promoting 
reintegration following deployment. Several of our States including 
Michigan, Nevada, Nebraska, California, Wisconsin, Kansas, and Illinois 
have innovative resilience programs and the National Guard Bureau is 
encouraging the exchange and expansion of best practices. The Army 
National Guard, in conjunction with the Active Army, the Department of 
Defense, the Department of Veterans Affairs, and each of the States, 
territories, and District of Columbia has made turning this trend 
around a priority. Many more efforts too numerous to cover here are 
ongoing and I am confident that, as a team we will turn this trend 
around. In the end, I believe the Soldiers and Families of the Army 
National Guard will be more resilient and ready in the service to the 
communities, States and the Nation.
    While the ARNG is making great strides within States to integrate 
suicide prevention, intervention, and risk mitigation at all levels, 
more work needs to be done in this area. Desired ARNG capabilities, in 
terms of resilience, risk reduction, and suicide prevention, include 
emergent care and treatment for ARNG Soldiers regardless of status; 
behavioral health and substance abuse treatment for Soldiers, 
regardless of status; resources to train and support State Resilience 
and Crisis Intervention personnel; and embedded behavioral health 
capability at the brigade level to promote healthy lifestyles and 
provide early identification of the potential at-risk Soldiers. After a 
nearly decade-long era of ``persistent engagement,'' ARNG families have 
been truly remarkable and their health and well-being are absolutely 
critical to the security of the Nation. The services are vital to 
sustain our role as an operational force as well as promoting the 
continuum of care for those AC Soldiers who will transition to the RC 
during the upcoming reduction in the Army's end strength.
    Acknowledging unemployment as a stressful challenge affecting our 
Soldiers and Families, the Army National Guard implemented employment 
outreach as a necessary step in building resilience. The Job Connection 
Education Program is an employment initiative designed to help improve 
quality of life for unemployed or underemployed Soldiers. This program 
focuses on how Soldiers seek, obtain, and retain civilian employment.
    In 2009, the Army Reserve and the Army National Guard became 
partners in a collaborative effort to build relationships with 
employers. In 2010, the employment program was renamed to the Employer 
Partnership Office (EPO). The goal of the EPO program is to create 
employment opportunities for Soldiers by establishing a good working 
relationship with the private sector. The program, in 2011, is known as 
the Employer Partnership of the Armed Forces. Members from all the 
Reserve components, their Families, and Veterans have access to the 
tools and benefits of this program.
    Of most importance is the effort to build resilience in our 
Soldiers. We are training ``Master Resilience Trainers'' and 
``Resilience Training Assistants'' both of whom are Soldiers with 
acquired resources and insights. They will be assigned to every 
Company-size unit and will be responsible for teaching Soldiers coping 
skills. There are many more efforts too numerous to cover here that are 
ongoing and I am confident that, as a team we will turn this trend 
around. In the end, I believe the Soldiers and Families of the Army 
National Guard will not just be physically strong, but will be an 
emotionally and spiritually stronger force in service to our States, 
territories, District and Nation.
                           medical readiness
    Medical readiness of the Army National Guard is one of our highest 
priorities and as such we have provided the States with additional 
resources in support of the medical readiness mission. A national Case 
Manager/Care Coordinator contract has been in place since 2006 to 
assist in supporting the management of Soldiers identified with medical 
conditions that prevent deployment. Currently 100 Nurse Case Managers 
and 328 Care Coordinators are supporting all medical issues to ensure 
Soldiers have the best opportunity to regain medical deployability 
status.
    In the past 2 years we have added full-time Medical Readiness NCOs 
(Non-Commissioned Officers) located in Battalion and above 
organizations. Medical Readiness NCOs are responsible for the 
identification of medical conditions which may require some action by 
the case management team and serve as the medical readiness advisor to 
the commander.
    Medical care has always been in place to support any Soldier in the 
ARNG with an injury or illness proven to be in the Line of Duty (LOD). 
The care is coordinated with the Military Medical Support Office 
through our Joint Force Headquarter Health Systems Specialist (HSS). 
Medical care provided based on an LOD is limited to the condition that 
occurred while in a duty status.
    Additional efforts have been made administratively to provide 
assistance to those Soldiers identified that have certain medical 
conditions. The ARNG Medical Management Processing System was 
introduced this past December and provides a framework to manage 
Soldiers identified with medical conditions through the complexities of 
our healthcare systems. Effective use of this framework can assist in 
the return of Soldiers into our formations or into the Physical 
Disability Evaluation System (PDES).
    In an effort to assist reserve component Soldiers who were having 
difficulty in negotiating through the Army PDES, the Army established 
the Reserve Component Soldier Medical Support Center. The purpose of 
the RC SMSC is to expedite and assist Soldiers with PDES processing and 
ensure packets going through this system are complete, validated and 
tracked through the Electronic Medical Board system (eMEB). We are 
currently validating our numbers, however, it appears up to 12,000 
Soldiers in the ARNG may require processing through the Medical 
Evaluation board/Physical Evaluation Board (MEB/PEB).
    When preparing our Soldiers for mobilization much time and effort 
is taken to ensure all Soldiers meet the medical standards as outlined 
by the theater of operation. Today, units arrive at mobilization 
stations with over 90 percent of all Soldiers in the ARNG arriving at 
the mobilization station ready for deployment. The other 10 percent 
have minimal medical actions required in order to clear them for 
deployment. With that said less than 1 percent of the ARNG Soldiers 
sent to mobilize come back to the State with an identified medical 
concern that prevents them from deploying into their theater of 
operation.
    Since September 2001, 640 ARNG Soldiers have paid the ultimate 
sacrifice in combat operations while 5,152 were wounded in action. As 
of March 7, 2011 the ARNG has 1,795 Soldiers assigned to the Warrior 
Transition Unit (WTU), 1,481 assigned to the Community Based Warrior 
Transition Unit (CBWTU) with a combined population of 3,276 Soldiers 
currently assigned. The cumulative numbers of Soldiers assigned since 
September 2001 is 29,007. Additionally, 5,164 Soldiers have been 
wounded in action and 10,702 suffered from disease or non-battle 
injuries while deployed in support of contingency operations.
    Soldiers who have deployed in support of a contingency operation 
have additional medical resources to call upon when the need arises. 
All Soldiers who deploy are eligible for TRICARE Early Eligibility 180 
days prior to mobilization and 180 days post mobilization through the 
Transitional Assistance Management Program (TAMP). Eligible family 
members are also able to participate in TRICARE during the Soldiers 
mobilization. Soldiers can also enroll in the Department of Veterans 
Affairs (VA) healthcare system during demobilization. Recently 
discharged combat Veterans are eligible to take advantage of an 
enhanced healthcare enrollment opportunity for 5 years after discharge. 
After the 5 year period, these Veterans will still be able to apply for 
health benefits with VA, but will have their status for receiving VA 
healthcare determined under normal VA procedures that base healthcare 
priority status on the severity of a service-connected disability or 
other eligibility factors. This would mean some Veterans could face 
income or asset-based restrictions, as well as delays in establishing 
their VA healthcare eligibility while their disability status is 
determined.
    Providing care for our Soldiers who have never deployed has 
improved since Congress passed legislation in 2008 to support 
participation in the TRICARE network via TRICARE Reserve Select (TRS). 
TRS is a premium based health plan available for members of the Ready 
Reserve and their family members. Current premiums are $53.16 per month 
for member only coverage and $197.76 a month for member and family 
coverage. Although that might not seem like a lot of money, for a 
junior enlisted Soldier that could mean his or her entire monthly drill 
check going to pay for healthcare premiums. As of January 2011, 15,769 
Soldiers are currently enrolled in TRS in the Army National Guard. The 
ARNG is focusing on reducing the number of medically non-deployable 
Soldiers within our formations, but without a full-time healthcare 
benefit medical readiness remains a challenge.
                            closing remarks
    I appreciate the opportunity to be here today and invite your 
questions and comments.

    Chairman Inouye. And now, may we begin the questioning?
    General McKinley, as we noted, the equipment levels of the 
Army and Air Guard have improved significantly, and I think it 
is due partly to the funding provided by Congress. The Army 
Guard now is 77 percent of the equipment requirements, up from 
40.
    Now, I have two questions, General. Have these increases 
improved readiness? And second, what additional equipment 
challenges remain?
    General McKinley. Chairman Inouye, I agree explicitly with 
your comment. We have really had a marvelous turnabout in our 
equipment fill rates. And I say that because your adjutants 
general tell me that. And my predecessors, our predecessors, 
working with your subcommittee, you know, put a line in the 
sand and said we need your help.
    And through the National Guard and Reserve equipment 
account, we have been able to fill out most of our critical 
needs. For us, the dual-use critical needs that can be used 
overseas and here at home to protect lives and property.
    I can assure you that it has improved readiness, and I will 
turn to my two colleagues to give you specific examples. But we 
cannot rest on our laurels. And that is the key for this 
operational force. This operational force did not just happen. 
It came on the backs of the taxpayers in this great country and 
by the fact that this subcommittee watched out for its National 
Guard and Reserve so carefully.
    After every major conflict that our country has faced and 
finished, the Guard and Reserve have been put back on a shelf 
to allow to deteriorate and go back to a state of unreadiness. 
And I think that my colleagues here at this table would ask 
that we not squander those gains because it has come at a great 
price. And we do have a magnificent National Guard today that 
all of you have seen, as you have gone home to visit.
    Ray, can you comment on the specific readiness 
improvements?
    General Carpenter. Senator, I would tell you, in the Army 
National Guard over the last 6 years what we have witnessed is 
fill rates inside of the organization that we never experienced 
before. We were short when we started into this global war on 
terrorism about 10,000 Humvees. We have all those Humvees now.
    The task now is modernization of equipment. We have nearly 
60 percent of our UH-60 Alpha model fleet that needs to be 
modernized over the next 7 years, and we have a plan, along 
with the Army, to make sure that that happens.
    We are still in the business of modernization in terms of 
our wheeled vehicle fleet, both in terms of medium trucks and 
heavy trucks. We have got shortfalls in communications 
equipment, night vision goggles, and some of the weapons 
systems. So even though we have the fill of the equipment, much 
of it is legacy, and the work left to do is modernization in 
the Army National Guard.
    General Wyatt. The Air National Guard has been fortunate in 
the past, oh, 10, 15 years in that the Air Force has relied 
upon us to be that operational force and has funded us 
adequately to do that. The issues today, however, are twofold 
for the Air National Guard, very similar to the issues that the 
United States Air Force faces, and that is we have a lot of old 
equipment.
    We have a recapitalization plan that we are working with 
the United States Air Force. We, to remain an operational 
force, need to be recapitalized concurrently at the same time 
as our active brothers and sisters and in a balanced fashion 
across all three of the components.
    To the extent that we must continue to rely upon legacy 
equipment--and we will continue to do that--modernization 
becomes the key. And this is where the NGREA account and the 
support that we have gotten from Congress has been significant 
and will be critical in the out-years. Because we know we are 
going to have to rely upon some of these legacy aircraft, some 
of these legacy systems, to remain that operational force that 
the country needs and that the Air Force needs.
    Right now, our equipment on hand is around 88 percent. 
Historically, it has been a little bit higher than that. With 
the current funding in the out-years, unfortunately we see that 
percentage dropping 1 to 2 percent per year through the next 4 
or 5 years without any additional support.
    So that is where the key support from Congress that we rely 
upon is to make sure that we use those monies smartly to make 
sure that our legacy systems are modernized for not only the 
overseas fight, but for the domestic protection of our citizens 
here at home.
    Chairman Inouye. Gentlemen, it has been suggested that in 
order to maintain effectiveness and readiness, family support 
services are absolutely essential. We have heard a lot about 
Yellow Ribbon. Can you tell us the present status of it?
    General McKinley. I think from my perspective, Senator 
Inouye, these last 10 years have been a challenge for the 
National Guard that they have met, in that our force was never 
designed in the 20th century for what it has been asked to do 
in the 21st century. A huge burden of that redesign has come on 
the backs of our employers and our families.
    Our traditional strategic force very rarely took employees 
in large numbers out of our local businesses, industry, police 
forces, firemen. That has changed dramatically. Our employers 
deserve a great deal of credit for that.
    Most importantly, and to your question, Yellow Ribbon. How 
do we bring our returning airmen and soldiers home, reintegrate 
them with their families, give them the care, and the necessary 
outreach that brings them back here, to treat their medical 
issues, to treat the issues that they experienced while they 
were deployed, and then to have those families come back 
together as a unit?
    I think Yellow Ribbon, and through the support of this 
subcommittee, has done a great deal to bring us back together 
as a family and a team. Our communities have done a great job. 
Our Governors in our States, territories, and the District have 
done exceedingly well. But we are still on the leading edge of 
this, and we will have decades to go to make sure we do not 
leave any guardsman or woman behind.
    Ray, would you like to comment on Yellow Ribbon?
    General Carpenter. Yes, sir.
    Senator, as you well know, the structure of the Reserve 
component is a geographically dispersed force that we only see 
in most cases once a month. And so, the challenge is how do we 
provide the same kind of service that our soldiers or the 
soldiers in the active component get from their installations? 
And Yellow Ribbon has been critical in that effort.
    In fiscal year 2011, we have conducted over 500 events. We 
have touched over 34,000 soldiers and families in that process. 
And it has been critical for us not only to maintain contact 
with those families and with those soldiers, but to provide the 
support and care that is necessary for them to sustain 
themselves and to make sure that we can maintain the Army 
National Guard that I described in my opening statement.
    General Wyatt. The Yellow Ribbon has been critical, I 
think, for the support of our airmen, both pre-deployment, 
during deployment, and post deployment. I have gone out to the 
States on several occasions and helped to present some of those 
programs to our airmen in the field.
    And the thing I want to do is take my hat off to the 
adjutants general because I think they have done a marvelous 
job of leveraging the resources provided through the Yellow 
Ribbon program with volunteers within their States, with some 
of the resources provided by some of the State agencies to take 
care of our airmen.
    I can give you a practical example of how we in the Air 
National Guard have specifically relied upon the Yellow Ribbon 
program to address the suicide issue that General Carpenter 
mentioned on the Army National Guard side of the house. We have 
the same issues in the Air National Guard side of the house, 
and we feel the strength of our organization is at the wing 
level.
    We have 89 wings in all 50 States, Guam, Puerto Rico, 
Virgin Islands, and the District of Columbia. And we made a 
decision this last year when funding was not available for 
embedded mental health professionals in each of the wings to 
use some of the Yellow Ribbon program to access the mental 
health professionals and place them at the wing locations. Had 
it not been for the Yellow Ribbon program, we would probably 
have not been able to do that.
    We are seeing significant improvements this year versus 
last year. We had 19 suicides in the Air National Guard last 
year, an all-time high. At this point in time last year, we had 
seven. So far this year, we have two. Some of the credit to 
that I am sure belongs to the Yellow Ribbon program and the 
health professionals that we have at each of the wings.
    Thank you.
    General McKinley. Senator, I am a little concerned--if I 
could just put something on the table for discussion--that most 
of the funds for our family programs are in overseas 
contingency operations (OCO) funding, supplemental funding. And 
had it not been for this subcommittee to provide monies that 
the Army and the Air National Guard could redirect to Yellow 
Ribbon and other things, we would not have that money in the 
budgets.
    And our Army and our Air Force realize that, and they are 
working hard with us to try to build these family programs into 
the base budget. But as you know, that will be a challenge in 
the future. So we continually depend on your help to make sure 
that the National Guard doesn't get left behind in the critical 
programs that I said will take decades to overcome. And we 
thank you.
    Chairman Inouye. I can assure you that this subcommittee, 
if we are to send men and women into harm's way, make certain 
they are properly equipped and properly trained. That is our 
promise.
    I have many other questions relating to suicides and the 
Southwest border mission and equipment shortfalls, but I will 
submit them to you, if I may?
    And now may I call upon the vice chairman?
    Senator Cochran. Mr. Chairman, thank you.
    I am curious to know what the status is between the panel 
we have here and the assessment of the need to cooperate with 
State and local governments when they are confronted with 
natural disaster challenges, such as the Lower Mississippi 
River Valley flooding situation right now.
    Is there a protocol or a regime for communication? Have you 
been called on to provide any additional resources to the 
States in that general area because of the Mississippi River 
flooding? Would that be something that you are authorized or 
required to respond to under the current state.
    General McKinley. Senator Cochran, by statute, the National 
Guard Bureau, the colleagues that are here in front of you 
today, are the channel of communications between the Department 
of Defense and the States, territories.
    I have talked to General Freeman, your adjutant general in 
Mississippi, on numerous occasions as the flood waters have 
increased. I have offered the services of our directorates here 
in Washington. He and Governor Barbour have asked for 
additional resources. They have sent those requests for 
additional funds to the Secretary of Defense, and the Secretary 
of Defense is working those on a case-by-case basis.
    But as you know, we are dealing with a crisis, multiple 
States, multiple jurisdictions. And it is our role to make sure 
that the adjutants general in those States communicate directly 
with us so that we can convey their issues and concerns to 
Secretary Gates through Secretary Paul Stockton, Secretary for 
Homeland Defense.
    Senator Cochran. Well, I think the good news is, from what 
I understand the facts to be, that the protection system of 
levees and preparation that have been undertaken over the last 
several years have worked to protect against flooding from the 
main stem, the Mississippi River itself, into those States that 
I mentioned.
    But what we are seeing develop is a backing up of waters 
outside the main levee system in the lower reaches of the river 
and backing up against the levees from the outside in and 
thereby causing a lot of farm land and other lands to be 
flooded at a very serious and dangerous level right now.
    That is one concern that I have. And I wonder if that is 
being discussed or your team is assessing all aspects of the 
situation there?
    General McKinley. Our team is more involved in the 
resourcing, providing resources to the National Guard in 
support of the Governor. The Army Corp of Engineers is doing a 
great job looking at those structural issues which you talk 
about. This is a centuries-long process. This flood is going to 
cause issues for months, maybe a year ahead of time.
    And I know it starts up in Indiana. I visited Marty 
Umbarger here last week. All the way down the Mississippi River 
basin, we are seeing the effects of this. So it is going to 
challenge all the Governors, all the States. It is going to 
require the National Guard to be there to support. And I pledge 
my firm commitment to you, Senator, to all of the States along 
the Mississippi River, our full support.
    Senator Cochran. We thank you very much for that 
commitment.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Coats.
    Senator Coats. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service to the country. 
I appreciate that, as we all do.
    General McKinley, you just mentioned our Adjutant General 
Umbarger. It is my understanding you will be in Indiana next 
week. I wish I could be with you because we have a little 
treasure down there in central-southern Indiana that has turned 
into a pretty remarkable training site for any number of 
functions.
    You know, one minute you are--you would swear you are in 
the middle of an Iraqi war zone city. Next moment you are in a 
place where our uniformed personnel are interrogating an Afghan 
tribal leader. The flexibility and the capability of that 
facility down there at Muscatatuck is something that you can 
only appreciate when you see it.
    So I really thank you for taking the time to go down and 
look at that. I think it is somewhat unique. And it is 
adaptable to just any number of situations. You can crawl 
through tunnels. You can storm buildings. You can, as I say, do 
interrogations and be in the simulated war zones, all on the 
same piece of property. So thank you for doing that. Trust you 
have a successful trip.
    General Wyatt, I would like to just ask you a question 
about the 122nd Fighter Wing in Fort Wayne, Indiana. There has 
been a successful conversion from F-16s to A-10s. I don't know 
what your future plans are relative to the A-10 mission, but I 
don't want to put you on the spot here.
    But I would be happy to work with you in terms of whatever 
issues that you might have as we go forward to ultimately, 
hopefully, a transition to the F-35s. But that has been a unit 
up there that has been part of base relocations, and it is a 
facility that I think meets the needs. And again, I would like 
to continue to work with you on that.
    I have been asking this question of just about everybody 
that comes before the Appropriations Committee. So I will ask 
it to you. Each group that comes forward expresses legitimate 
needs, and yet we are facing a serious deficit, debt problem. 
And it looks as if in order to address it we might have to have 
some shared sacrifice on a number of things and swallow hard on 
some decisions.
    And so, I have been urging anyone on the receiving end of 
appropriations going forward to in a sense have at least some 
thoughts about a plan B on the shelf. If the numbers don't come 
in where we would like them to come in, how do we prioritize 
the essential--I mean, the absolute essential from the ``like 
to have but not absolutely essential,'' from the, you know, 
``if we were king and could have everything'' categories?
    So I just encourage you to be thinking along those lines 
because we face some hard realities in terms of the numbers, 
which is going to force all of us, I think, to think smarter, 
work harder, try to do more with less.
    And in that regard, I don't know if any of you want to 
comment on that. I know that you think about this all the time. 
I know that you have been going through these exercises. But is 
this something that is a priority, recognizing the reality of 
our budget situation?
    General McKinley. Senator Coats, let me just start, and 
then I will let my colleagues jump in from their perspectives 
from the Air Force and the Army. First of all, thanks for your 
acknowledgment of the National Level Exercise 11 (NLE 11) that 
will take place along the Mississippi River. It is a New Madrid 
Fault scenario that the Federal Emergency Management Agency 
(FEMA) has put in place for next week.
    They didn't expect to be dealing with real-world 
operations, but we are going to continue with NLE 11. And a 
major part of that will be conducted in Indiana at the Camp 
Atterbury training site and at Muscatatuck. It is hard to learn 
to say that name, but we have finally got it down.
    Senator Coats. It is. It took me a while also.
    General McKinley. Yes, sir. But it is a world-class 
training facility, one of several that the Army National Guard 
and the Air National Guard have around the Nation. And we thank 
you for your support. It is one of a kind.
    Facing hard realities. Obviously, being in the Department 
of Defense, Secretary Gates has set the bar very high for all 
of us to find efficiencies, to drill down and make sure 
everything we do comports with what we believe will be a 
declining budget.
    I am here to say, and I am sure my Reserve colleague chiefs 
will say, that the Reserve and the Guard provide a great value 
to America. About 7 cents of the dollar funds the National 
Guard, the Army and the Air. And our budgets are relatively 
spartan compared to some other budgets that we see.
    But that does not mean we should be immune from any of the 
discussions, the decisions, and the efficiency drills that are 
going on out there. And I can pledge to you that we are doing 
exactly that.
    Bud.
    General Wyatt. On the Air National Guard side of the house, 
you know, the point that you bring to the forefront, Senator, 
when we take a look at whether we will be able to fully 
recapitalize the United States Air Force I think remains to be 
seen.
    And you talked about the fighter wing at Fort Wayne. I had 
the privilege of visiting Fort Wayne in the first year that I 
was in the seat. They were just in that transition period from 
the F-16 to the A-10. And you are correct. They have made that 
transition very smoothly and are combat ready as we speak. That 
unit is a good example of what we are faced with, and I will 
talk about the fighter force in general.
    We have some of the oldest airplanes in the United States 
Air Force. And our challenge is to make sure that they remain 
combat capable, that our people are trained at the operational 
standards that they currently are at, as we take a look to see 
what the final recapitalization decisions will be.
    I don't think that we have the luxury of assuming that the 
recapitalization, as envisioned by the Air Force, will take 
place on time, on schedule, on budget. I think we have to be 
realistic to recognize that some of our legacy platforms are 
going to be around for a while. And the sooner we start--and we 
have started on all of our fighter aircraft and large airplanes 
also to make investments in the modernization of those 
aircraft.
    For example, in the C-130 fleet, we are making investments 
in the AMP program, which Congress has supported, to make sure 
that those aircraft can continue to fly while we wait for C-
130J recapitalization, if and when that might come.
    In the fighter fleet, we are investing in structural 
enhancements through service life extension programs. In the 
Block 30 F-16 fleet, we have done the same thing. In the A-10 
fleet, trying to modernize situational awareness, a fusion of 
intel and sensors across all the platforms. And we will 
continue to do that.
    I think the key, though, is we have a tendency to focus on 
the equipment. But I think our real focus should be on our 
people. Because we have the most experienced, the most mature 
air crew maintenance crews in the Air National Guard that we 
have ever had. And if we don't focus on our people, we will 
find out one of these days that we have allowed our 
capabilities to atrophy.
    We have got to take a look at prioritization and maybe take 
a look at some of the lesser important jobs and capabilities, 
not doing that any more, to make sure that our front-line 
military capability remains what it is. Those are the tough 
decisions that you have talked about.
    As most of the members of the subcommittee know, the 
Quadrennial Defense Review (QDR) requirements for the fighter 
force set forth certain numbers of total aircraft inventory and 
primary aircraft inventory, and that plan is at a moderate risk 
assumption. And we are at that point right now. So we have got 
to be very judicious as we go out in the future, whether it is 
acquisition of new airplanes or modernizing our old ones.
    Senator Coats. Yes, thank you.
    General Carpenter. Senator, I am a veteran of being dragged 
through the tunnels of Muscatatuck by General Umbarger also. 
But it is a great training site, and it provides value not just 
to DOD, but also for the other Government agencies.
    With regard to your comment about looking forward to the 
budget challenges, the reference point for us is we are still 
at two wars. And the Army and the ground forces and marines are 
fully engaged in that.
    Between General Stultz, my Army Reserve partner, we are 
working with the Army to ensure that we make the right 
decisions about where we make reductions and to sustain this 
operational force. Because, frankly, the huge investment that 
has been made in terms of equipment, training, and manpower, if 
we don't take advantage of the Guard and Reserve in that 
particular perspective, we will be poorer, and we will have 
slighted the taxpayer.
    Senator Coats. Thank you.
    Mr. Chairman, thank you.
    Chairman Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman, and 
thank you to all of you.
    General McKinley, it is really disheartening to hear the 
stories from our National Guard members who are coming home 
from deployment into a poor economy and joblessness, no health 
insurance, financial hardship. And after all they have done for 
us, we want them to come home and be able to have good jobs and 
not feel like the ground is shifting underneath them.
    We have to, I believe, work really hard to help them 
assimilate back into the civilian world and be productive 
members in our workforce. It is my understanding that the 
demobilization process has to be done rapidly because the 
service members' deployment orders are cut for a specific 
length of time, and I wanted to ask you what recommendations 
you have to better maximize that transition assistance during 
that very abbreviated process.
    General McKinley. Thanks, Senator Murray.
    Obviously, General Lowenberg in Washington State has done 
some very creative things in working with Chambers of Commerce 
and other organizations to help alleviate some of the 
unemployment problems that we are seeing with some of our 
returning Army Guardsmen.
    That cannot stop. We have to continue and redouble our 
efforts in that area. And I, like you, am concerned about 
assimilation and will continue to focus on it.
    I would like to turn to Ray and talk about the mobilization 
process because it affects mostly the Army National Guard and 
some of my colleagues who will be on the next panel.
    General Carpenter. Senator, I think you are well aware of 
the discussions inside the Army in support of the 41st Brigade 
as they came through Joint Base Lewis-McChord. And the Army 
took that on as a challenge, and what we have done now is 
extended the timeframe that these soldiers spend at the 
demobilization site, as well as their entry into warrior 
transition units, if necessary.
    I think that, you know, your personal experience in the 
State of Washington with the 81st Brigade here almost 1\1/2\ 
years ago, where that brigade came back with almost 33 percent 
unemployment, over 800 soldiers unemployed. And through the 
Joint Services Support program initiated in the State of 
Washington, we now see that number around 250, if my statistics 
are correct.
    But by and large, I just came from Iraq and Afghanistan in 
the last couple of months. And as I talked to the commanders in 
theater, they have already identified the people who are 
unemployed. And they are working with the States and with their 
communities to ensure that when they come back that they will 
have a job or they will be entered into the program to ensure 
that we take action to support them.
    And inside of those discussions, we have one State that has 
recently held a job fair, where 100 employers showed up. Nine 
hundred jobs were found for Guardsmen in that particular 
effort.
    And so, we are being innovative. We are arranging for 
soldiers to go to school there. The new GI bill, which has been 
supported by this subcommittee, is paying huge dividends in 
terms of retraining our soldiers for a job that they could 
access or one that they can get when they get back home.
    But the behavioral health piece is a big deal for us. And 
what we have told soldiers is you need to take the time when 
you go through the demobilization site. There are behavioral 
health specialists. They will counsel every soldier that goes 
through that site.
    It is going to cause them to be at those demob sites 
longer, but it is better to get the service at that point, 
rather than trying to go back and get it later. And we agree 
with you, the soldiers need to get the service equal to the 
service that they have provided to this country.
    Senator Murray. Okay. You have touched on a lot of issues. 
Obviously, the mental health issues, the California model of 
embedding, has been working very well. We are looking at trying 
to make that broader.
    But it is also getting to know what jobs and skills are 
available in the community that you are going back to, not just 
where you go back to your demob site. Are we trying to do a 
better job of actually helping our guardsmen really know what 
jobs are back in their own communities, and not just where they 
are demobilized?
    General Carpenter. Yes, Senator. We have taken that on. The 
53d Brigade that came back to Florida went through Fort Stewart 
in Georgia here about 4 months ago.
    And in conjunction with the employer partnership initiative 
that we have partnered with General Stultz and the Army 
Reserve, we had employers present at Fort Stewart. And in 
conjunction with that, we also had vans there where soldiers 
could get online and look and see what jobs were available in 
their communities through the employment offices there, as well 
as the initiatives for job fairs.
    This is a problem for us. And frankly, some of it is a 
reflection of the unemployment rates in the local populations. 
But we are doing the most innovative things we can to ensure 
that we employ our soldiers because, frankly, if they don't 
have a job, they are not going to stay in the National Guard 
because they won't be able to.
    Senator Murray. Right. And I am introducing legislation 
actually right now, focused on this whole issue of employment 
for all of our service members. And one of the things we are 
going to be looking at is mandating the TAP program for all 
service members, including the Guard, to make sure that our 
unemployed guardsmen are actually able to continue accessing 
some of the resources.
    So that is a critical part of our legislation. I hope to 
share that with all of you because you are right, General 
Carpenter. We have to keep people in the Guard and Reserves. 
And if they go home and can't find a job, they are going to 
abandon us.
    We have spent a lot of money on educating and giving 
training and skills to these service members. We don't want to 
lose that. So you will be hearing more about that.
    General McKinley, I would love for you to look at in-depth 
some of the excellent transition programs that are out there 
and identify some of the elements that have been particularly 
successful so we can consider incorporating them into the 
entire DOD effort.
    General McKinley. Thanks, Senator Murray.
    I will be meeting with the adjutants general in 
Indianapolis first week of June. If I could work with you and 
your staff and we could put out some best practices to all of 
our States, territories, and the District, I think that would 
be very helpful for all of us.
    Senator Murray. Great. Look forward to working with all of 
you on that. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you all for your service. And like you say, the Guard 
and Reserve is a great bang for the buck when it comes to the 
American taxpayer and defending the Nation.
    In recruiting and retention terms, do you have the 
flexibility, in terms of bonuses, focusing on key areas, where 
there is a lot of pressure in terms of OPTEMPO?
    Anything we could do here to give you more flexibility to 
recruit and retain key specialty areas in the Army or the Air 
Force?
    General McKinley. Senator Graham, I will let my colleagues 
talk from their specific service vantages. But I will tell you 
that the Army and the Air Force generally have been very 
supportive during these last 8 years to target bonuses to those 
critical skills that we are losing.
    Obviously, in high cost-of-living areas around the country, 
we have to target certain critical skills so that we can keep 
those guardsmen and women located in those areas.
    I will let General Carpenter start, because the Army has a 
wide range of activities. I think, to your question, can we do 
better? Will we need to be more efficient?
    Senator Graham. I guess my question is, is there anything 
lacking that comes to mind that you would like to have?
    General McKinley. Ray.
    General Carpenter. Senator, at this point, we have got a 
lot of flexibility. The only limitation is the budget, for the 
most part.
    Beyond that, we are experiencing, you know, some difficult 
economic times, which, frankly, has yielded some increases in 
recruiting production and also, you know, an increased 
retention rate that we didn't experience 4 or 5 years ago.
    But when we see the economy turn around, we are going to be 
back probably looking at the bonuses programs and see where we 
go with that. And so, I would say the limiting factor in the 
out-years will be, as you might suspect, the budget.
    Senator Graham. General Wyatt, what percentage of the 
refueling fleet, at any given time, is manned by Guard and 
reservists?
    General Wyatt. Together, we comprise about 45 percent of 
the total air refueling capability across the United States Air 
Force, sir.
    Senator Leahy. What percentage?
    General Wyatt. Forty-five percent, sir.
    Senator Graham. Is there anything you would like to have on 
the Air Force side for critical skills that you don't have, in 
terms of flexibility?
    General Wyatt. Sir, you hit the nail on the head. Our 
actual end strength is right on par with our authorized end 
strength.
    But the issues that we have are getting the right people 
with the right skills in the right place. For example, even 
though our end strength is okay, we are short 1,300 officers.
    Senator Graham. Right.
    General Wyatt. And this comes at a time when the Air Force 
has an abundance of officers and, in fact, has some voluntary 
separation programs to help them leave active duty.
    I would like to see an easier transition from active duty 
to the Guard. We have some policies that we need to address 
inside the United States Air Force that I think would ease that 
transition.
    But some of the hurdles that we have to overcome, I think, 
were appropriately designed for a different time and a 
different era. We need to be able to move people through a 
continuum of service and make it easier for them, for example, 
if they want to come off active duty and serve a period in the 
Guard or the Reserve, to be able to do that. And then if there 
are life opportunities presented and they can go back on active 
duty, that would be great, too.
    We have a tendency to once a person separates, they are 
separated. And I would like to address it more in a transition 
mode, as opposed to separation mode.
    But from a dollar standpoint, the Air Force has been very 
helpful, giving us the flexibility we need to target recruit, 
which is what we are doing right now.
    Senator Graham. And I may not be here for the next panel, 
but I will have the same question, if you could give us any 
ideas about more flexibility? Two quick questions, and I will 
let you go.
    Any recommended changes in the mobilization statutes to 
make life easier for those mobilized and more flexibility for 
the commander to be able to shape the force? And the other 
question is on the budget side, how do we deal with the 
escalating cost of healthcare within DOD's budget? It affects 
you in the sense it absorbs dollars.
    We are talking about 16 percent of the budget in the next 
20 years being spent on DOD healthcare. We haven't had a 
premium increase in TRICARE since 1989. Is that sustainable, 
and what would be your recommendation to the subcommittee as to 
how to address that issue?
    General McKinley. I will let General Carpenter talk on the 
mobilization process question because I think the Army National 
Guard and, obviously, the Army Reserve will have the most 
comments on that.
    On healthcare costs, obviously, Secretary Gates has told us 
all to think about new ways of doing business better. It is a 
huge chunk of our appropriation, and we don't see a lot of 
guardsmen, young guardsmen taking the TRICARE program. They 
must feel like they don't need it. They may not be expected to 
do it.
    But over time, we are going to need to work the healthcare 
budget for Guard equally as hard as the active component, sir. 
So I will work with Secretary Gates and his team to make sure 
that is on our high-priority list.
    But if I could ask Ray to talk about the mobilization 
issues?
    General Carpenter. Senator, very quickly, I think probably 
the best thing that happened to us in mobilization was the 1-
year mobilization for the Reserve component. Because we had 
seen some units go down range, do 1 year boots on the ground, 
extend it for 3 months, end up with 15 months, and by the time 
you put the 6 months in front of that that they had at 
mobilization station, it was almost 2 years away from home. And 
you can't sustain a reserve component with that. And so, the 1-
year mob was terrific for us.
    The other side issue is, is when we get done with what we 
are doing in Iraq and Afghanistan, we think that the Guard and 
Reserve should be engaged in theater cooperation and security-
building in terms of other combatant commands around the world. 
And inside of the Department, we are looking at some provisions 
for involuntary mobilization for doing those kinds of things on 
a lot shorter basis, maybe 60 days or 90 days or something like 
that.
    So we can continue to use, again, the investment we have 
made in the Reserve component to do preventive things out 
there, so we don't end up where we are at right now in the 
current world environment.
    Chairman Inouye. I thank you very much.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    I want to compliment Senator Murray on her legislation, 
which she is introducing today. I will cosponsor and support it 
again.
    And General McKinley, of course, always a pleasure to see 
you, and I want you to know that Senator Graham and I are 
determined to keep empowering the Guard, as Senator Bond and I 
did in the past as the co-chairmen of the National Guard 
Caucus.
    I know you have been without a deputy at the National Guard 
Bureau for some time, and I believe I can speak for both of us 
that we believe it would help you further if your staff 
director was replaced by a vice chief position at the three-
star level. Now what do you think of that proposal?
    General McKinley. That is a rhetorical question, I am sure, 
Senator. But quite frankly, I think for us in the National 
Guard to function as a full-spectrum bureau--because we are not 
a headquarters. We uniquely serve the States. So we are a 
bureau. Without that position filled, we can't represent the 
States and the territories at the critical meetings and the 
junctures that we have to attend.
    And as you know, in our building, if you are not wearing 
the proper grade or rank, you are not going to be offered a 
seat at that table. So we fully support that. We know it is in 
an era of diminished resources and our rank structure is coming 
down, but we appreciate all the support we can get.
    Senator Leahy. Well, both Senator Graham and I have had 
discussions at the highest levels on this, and it will happen, 
I think, at some point. Just like your own position was one 
that Senator Bond and I pushed hard for with the support of 
each of the Senators who are here.
    Now, for a long time earlier, I worked with Senator Bond to 
include funds for the National Guard and Reserve equipment 
account, and we want to continue to do this. We pursued a 
separate funding for the Guard and Reserve components because I 
was concerned they never seemed to get a concurrent and 
proportional amount of equipment.
    And I am just wondering, do you face these kind of 
shortages, and have they been exacerbated by the needs of the 
Guard and Reserve in Iraq and Afghanistan?
    General McKinley. I think it is a very relevant question 
because, as you know, the funding does come through to us 
through the Army and the Air Force, and we do diligence with 
their staffs to obtain the proper amounts of funding. I don't 
think any program gets the full amount, but we have been 
adequately financed by our services over time.
    What concerns me, Senator Leahy, is the fact that the 
domestic operation, the taking care of the homeland, the 
equipping of our units to handle large-scale natural disaster, 
man-made disaster, we have got to make sure, as National Guard 
Bureau staff, that the States get their fair share of that.
    And as we have talked about with Senator Cochran, this 
historic flooding along the Mississippi River, multiple States, 
the States are going to need some resources. FEMA is doing a 
great job. Administrator Fugate doing that exceedingly well, 
but we want to make sure the National Guard is able to do their 
job, too.
    Senator Leahy. Well, let me talk about that because when 
you watch the news--certainly Senator Cochran knows this far 
better than I because he has talked to his constituents along 
there--but just looking at the horrific news and what is 
happening, we know the Guard has got to be called out.
    And I always worry when we have these natural disasters, 
the Pentagon has to shift money around instead of having money 
prepared for it. In my own State, we have had unprecedented 
water this spring from snow runoff. Lake Champlain is at the 
historic high of 102 or 103 feet above sea level.
    I flew up there Friday, and just looking out the windows as 
I flew up, I could see areas that normally have small rivers, 
small streams are now flooding fields, farm land, roads, 
bridges.
    Governor Shumlin has called out the Guard to respond. Of 
course, the Guard responds immediately, as they do, whether it 
is in Vermont or Mississippi or Hawaii, or anywhere else. And 
shouldn't we have special funding for such domestic disasters? 
We would like to think there never will be any, but every year 
there is something.
    General McKinley. It is really my role, and I have tried to 
assume this mantle of working with FEMA, Department of Homeland 
Security, Department of Defense through Secretary Stockton in 
homeland defense and DOD, we feel the adequate funds are there, 
but they are difficult to get.
    The Governors have got to meet certain criteria for what we 
call 502(f) funding sourcing through the department. It is 
cumbersome, and my job has been to try to make this more 
seamless, more easily accessible, and get the funding to the 
States and the Governors when they need it in a timely manner.
    We are not there yet, in my opinion. We have got to 
continue to do a much better job.
    Senator Leahy. Well, let us work on that because the key is 
responding in a timely manner. When the Mississippi is flooding 
or when there is an ice storm, which happened a few years ago 
in the province of Quebec, and it knocks out power to a large 
portion of my State, if it had not been for the Guard, it would 
have been a total disaster. And they were the only ones able to 
move in immediately before commercial entities could go in.
    And General Carpenter, I will work with Senator Murray on 
the issues that she talked about, and I appreciate what you 
said.
    Last, General Wyatt, I don't have to tell you that many of 
the Air Guard wings are already experiencing a drawdown of 
their fighter aircraft. You and I have talked about this 
before. In Vermont, the 158th Fighter Wing is going to have 
three F-16s shifted into back-up inventory, and we assume that 
is just the beginning.
    This was the fighter wing that flew air cover for a long 
period of time over New York City after 9/11. Now some Air 
Guard wings will eventually receive replacement F-35s, but the 
overall number suggests some Air Guard wings don't have any 
planned replacements.
    So what is the Air Force telling you about the future of 
these air wings? There are those back--I don't want to seem too 
parochial, but there are those back home who have some interest 
in your answer.
    General Wyatt. I imagine so, sir. No, I think you see in 
Vermont the issue that faces not just Vermont, but a lot of our 
fighter force and lift force, too, when you take a look at the 
age of our C-130 fleets. And we have only two units with C-130J 
models and one other unit that has some.
    The issue in the fighter fleet is that we are already at 
that number, that QDR number for national security on the 
numbers of total jets, combat fleet in the entire United States 
Air Force, and a lot of those reside in the Air National Guard. 
There are six States, including Vermont, who face what you just 
mentioned with a reduction of 3 of the 18 jets that they have 
on the ramp from primary aircraft inventory to back-up aircraft 
status.
    The good news is that there is weapons system sustainment 
for those monies. The bad news is that there are no flying 
hours for those airplanes that come along. So I am concerned 
about their readiness and the ability to train the pilots and 
the air crews in those particular units.
    Because the Air Force, I think, intends to rely upon the 
capabilities in the Air National Guard for a significant 
portion of the combat fleet. We fly about 33 percent of all the 
combat Air Force sorties. We are currently working with the Air 
Force. We have a few more processes inside the United States 
Air Force to accomplish, but we are working a plan that, if 
successful and depending upon budgets and everything else that 
we are faced with, trying to get those three aircraft back up 
on PAA status at all six of the units.
    Air Combat Command has been particularly helpful in helping 
us through that process and very supportive. And we should know 
here in the next few months whether we are successful or not. 
But the idea is that we cannot afford as a country to lose that 
capability, and we need to preserve the life of those airplanes 
as long as we can with the capabilities that our Air guardsmen 
provide until that point in time when recapitalization does, in 
fact, take place.
    Senator Leahy. Well, please keep me posted.
    Mr. Chairman, I was impressed--if I could just brag a 
little bit? After 9/11, I got a call from our adjutant general 
that we were flying air cover over New York City around the 
clock with our F-16s. And I said, ``Well, where are you basing 
them?'' He said, ``We are doing it right here in Burlington, 
Vermont,'' which is about 250 miles away.
    He did point out--Senator Graham, you will appreciate 
this--that it took them a lot less time to get to New York City 
than I do flying down commercially. But the thing is we had our 
mechanics, our air crews, everybody, a number of whom were 
heading off on vacation when they heard this.
    One senior crew chief did a U-turn on the interstate, 
headed back, got out of the car. At the gate told his wife, 
``Send some clean clothes, you are not going to see me for a 
while.'' And he slept in the hangar and just kept working. He 
recalibrated all the weapons, all the things in a rather aging 
fleet and kept the planes flying. There wasn't any single 
mission that wasn't fulfilled during that time, around the 
clock.
    My last story, and I think General McKinley has heard this, 
my wife and I went to visit with the Air Guard after 2 or 3 
weeks of this to thank them. And I told the story about 
somebody who had written a letter to my office in August, 
complaining about the noise of F-16s and then called the office 
in early September and asked if I had gotten that letter.
    My staff said, ``Well, yes, but he has been a little bit 
busy. What is going on? He hasn't answered?'' My constituent 
said, ``No, no. Please tear up the letter. I think the planes 
sound wonderful.''
    Thank you.
    General McKinley. Thank you, Senator Leahy.
    And to Senator Graham, you will be pleased to know that the 
McEntire Swamp Fox just assumed alert in South Carolina. They 
joined our fleet of air sovereignty alert aircraft, and we 
thank you for that support.
    Chairman Inouye. General McKinley, General Wyatt, General 
Carpenter, the subcommittee thanks you for your testimony this 
morning. And we would like to indicate our appreciation and 
gratitude for your service to our country.
    Thank you very much.
                                Reserves

STATEMENT OF LIEUTENANT GENERAL JACK STULTZ, CHIEF, 
            ARMY RESERVE
    Chairman Inouye. And now, may I call upon General Stultz, 
Admiral Debbink, General Moore, and General Stenner to come 
forward?
    Gentleman, welcome to the subcommittee. And may I now call 
upon General Stultz for his testimony?
    General Stultz. Mr. Chairman, Mr. Vice Chairman, it is an 
honor to be here today on behalf of 206,000 Army Reserve 
soldiers, men and women serving this Nation in uniform around 
the world.
    And I have submitted my statement for the record. So I will 
try to keep this brief in respect of the time we have got.
    But I would just make one comment. You, in your opening 
comment, sir, said you are interested in seeing the Reserve of 
the future. I am here to report to you today I have seen that 
Reserve of the future.
    Because in the past year, I have traveled around the world 
to 17 different countries, and I have visited Army Reserve 
soldiers in Ethiopia, Uganda, Kenya. Army Reserve soldiers just 
returning from Vietnam and Cambodia on their way to Jakarta. 
Army Reserve soldiers in El Salvador, Guatemala, Costa Rica. 
Army Reserve soldiers in Japan, Italy, Germany, Kosovo, as well 
as, we all know, Iraq and Afghanistan.
    And these Army Reserve soldiers are on-point for our 
Nation, standing side-by-side with Army Guard and active Army 
soldiers, and you can't tell the difference. In some cases, you 
can. In some cases, our Army Reserve and Army Guard soldiers 
are actually higher skill level than their active component, 
only because they have the civilian skill sets that create a 
force multiplier for them.
    And I have seen them in the combat role that we need them 
to be prepared and ready to go, and my formation is mostly in 
the combat support and service support formations. But I have 
also seen them in the humanitarian role--in theater engagement, 
security cooperation, providing medical, engineering, foreign 
army training, logistics, and other support to those nations 
that we aren't in conflict with. We are actually preventing 
those nations and helping them establish democracies and 
winning the hearts and minds of their people.
    And as we move forward as a Nation, confronted with the 
budget issues we are going to have, confronted with how do we 
reduce the deficits, confronted with the where do we get the 
biggest bang for our buck, biggest return on investment, what I 
can report to you and the others today is your Reserve 
component--and I speak for all my colleagues here, as well as 
our Guard colleagues--are a great return on investment. They 
have proven themselves.
    And as we are making decisions about what the structure of 
the military for the future needs to look like, my urging to 
you and others is your Reserve components are key, and we need 
to be resourced as such with the equipment. We need to be 
resourced as such with the funds needed to train, and we need 
to be resourced as such to take care of our families.
    And we give you a heck of a return on the investment. We 
have proven ourselves.
    And I think the other thing we have proven, as we have gone 
through the transition from a strategic to an operational, is 
we have got great men and women, a really national treasure 
that raise their hand, volunteer to serve their Nation, leave 
their civilian jobs, leave their families, leave that American 
dream that they are living, knowing that they may be called 
upon to make an ultimate sacrifice on the battlefield. And they 
are doing that in record numbers.
    Our recruiting, our retention is at all-time highs. So we 
know we have got a force there that is there for us. They love 
their country, and they know their country loves them.
    What we cannot afford to do is go back. We cannot afford to 
go back to that strategic model, that one weekend a month, 2 
weeks in the summer, that is all we are going to use you for, 
because we will lose that national treasure. Because they 
joined our force since 9/11, and they joined our force to be 
utilized.
    And as Ray already mentioned, it doesn't have to be for 12 
months. It can be for 3 months in El Salvador and come back 
home and feel good about what you have done, feel good that you 
have been utilized, but make a positive contribution for this 
Nation.
    So on behalf of that 206,000, sir, I appreciate all the 
support you have given us and all the support you will continue 
to give us. And I look forward to your questions.
    Thank you, sir.
    Chairman Inouye. Thank you very much.
    [The statement follows:]
          Prepared Statement of Lieutenant General Jack Stultz
                              introduction
    Chairman Inouye, Senator Cochran, distinguished members of the 
subcommittee; thank you for the invitation to appear before you today 
to discuss the state of your Army Reserve. It is an honor to testify 
before you on behalf of more than 205,000 Army Reserve Soldiers.
    After nearly 10 years supporting the warfight in Afghanistan and 
Iraq, the Army Reserve is a battle-tested, seasoned, and a trusted part 
of the total force.
    Our formations routinely meet the demand for military capabilities 
that support domestic and expeditionary operations.
    As an operational force, we offer strategic agility and depth as a 
cost-effective solution in a resource-constrained environment.
    I strongly contend it is our obligation to the Nation, and to 
future generations of Army Reserve Soldiers, that we remain 
operational.
                      road map for the next decade
2020 Vision and Strategy
    Details my vision for the Army Reserve as an enduring operational 
force and serves as a broad blueprint for achieving it.
    Establishes the foundations for the operational concepts and 
strategies; organized, modernized, postured, and resourced to provide 
support to the Total Army.
                      initial steps taken to date
    The Army Reserve Enterprise--new management culture where leaders 
function for good of the enterprise.
    Realignment of Army Reserve Headquarters, Legacy and Command and 
Control structure.
    Expanded Outreach to all Service Members and Families through three 
Virtual Installation pilot sites.
    Cultivating positive Soldier-Employer relationships--a must for an 
operational force of the future.
                      priorities for the next year
    Expand Virtual Installation to five pilot sites using fiscal year 
2012 Milcon appropriations.
    Strengthen Total Wellness Programs--improved medical and dental 
care, behavioral health support, and spiritual care.
    Develop a Program Objective Memorandum (POM) 13-17 strategy that 
reflects the resource requirements of an operational force in the Base 
Budget.
                an operational force benefits the nation
    Helps the Army mitigate current capability shortfalls and allows 
for a greater role in the Nation's defense with: Combatant Commander 
Security activities; domestic disasters; Security Cooperation 
Operations; Contingency Operations; and Theater Security Cooperation 
Programs.
    The Army Reserve is a ``best value''--the Nation pays the full cost 
for a reserve component Soldier only when he/she is mobilized.
                               conclusion
    We have built an Army that is dependent on having access to the 
reserve when it needs us.
    Choices made now will determine the Army force mix and capability 
for the future.
    Do we turn back the clock and revert to a strategic reserve, with 
limited readiness capabilities as the current conflicts resolve or do 
we ensure the defense of the Nation with an enduring operational force 
with the readiness levels that provide operational capabilities across 
the full spectrum of conflict.
    Thank you once again for inviting me today to speak before this 
committee and for supporting our Citizen-Warriors.
    I am ready to address your questions.
                                 ______
                                 
           United States Army Reserve 2011 Posture Statement
    The annual Army Reserve Posture Statement is an unclassified 
summary of Army Reserve roles, missions, accomplishments, plans, and 
programs. The 2011 Army Reserve Posture Statement also addresses the 
support required by the Army Reserve to continue its transition to an 
operational force during fiscal year 2012.
    Unless otherwise noted, all statistics and facts are current 
through March 2011.
    This document is available on the Army Reserve website at: 
www.usar.army.mil.

                                                        March 2011.
                     an enduring operational force
    For more than 100 years, the United States Army Reserve has served 
as the Nation's Federal strategic force in reserve, supporting the war 
and peacetime needs of the Regular Army. Since our Nation's involvement 
in Afghanistan and Iraq, combatant commanders have urgently called for 
many of the enabling capabilities resident within the Army Reserve, 
including logistics, engineering, security, medical and civil affairs 
support.
    The steady, consistent, and recurring demand for Army Reserve 
capabilities during this decade has posed significant challenges for a 
force organized and resourced as a strategic reserve. In response, the 
Army Reserve recast itself from the part-time strategic reserve role to 
a fully integrated and critical part of an operational, expeditionary 
Army that supports the Nation's evolving and challenging wartime 
requirements.
    In today's national economic and political climate at home and 
around the world, it makes good business sense to sustain the enabling 
capability provided by the Army Reserve. Compared to the cost of 
expanding the full-time Army force, a relatively smaller investment in 
the Army Reserve provides security at home and supports the fight 
against terrorism abroad. The Army Reserve responds to domestic 
disasters, when authorized by the President of the United States, and 
also participates in security cooperation operations while protecting 
national interests around the world. In support of contingency 
operations, the Army Reserve responds to life-threatening situations 
and fosters stability in underdeveloped nations where conditions are 
ripe for terrorists to gain a foothold. The Army Reserve is a ``best 
value'' in that the Nation pays the full cost for a reserve component 
Soldier only when he/she is mobilized.
    Many companies in private industry use a similar strategy. Firms 
that specialize in tax preparation, for example, hire certified 
accounts/tax preparers to handle the heavier customer demand that 
occurs from the beginning of a new year to the filing deadline of April 
15. They too cannot afford, nor would it make good business sense, to 
maintain a full-time accountant force during off-peak seasons. The 
relatively low cost of hiring seasonal workers adds to their bottom 
line.
    The Army Reserve conducted an analysis that shows over a 15-year 
period, an enduring operational Army Reserve provides key capabilities 
for the Army at significant cost savings. We measure the savings by 
comparing the active component and reserve component costs of building 
readiness, deploying and employing forces.
    The Army Reserve prepares for service by employing the Army Force 
Generation (ARFORGEN) model--a 5 year structured progression of 
increased unit readiness over time resulting in periods of available 
trained, ready, and cohesive units prepared for operational deployment.
    Under the current ARFORGEN process, an active component Army 
Soldier spends 2 years in a non-deployed status at a cost of $140,000 
per year--compared to his/her Army Reserve counterpart who spends 4 
years in a non-mobilized/non-deployed status costing $47,000 per year--
that's about one-third the cost of an active component Soldier for 
train-up. This cost savings is achieved by providing cyclical 
capabilities to the Army and predictability for Soldiers and their 
Families.
    During a 15-year period, an active component Soldier spends 5 years 
deployed with an overall average cost of $143,000 per year compared to 
the Army Reserve Soldier who spends 3 years mobilized/deployed with an 
overall average cost of $68,000--that's about half the cost of an 
active component Soldier.
    An operational Army Reserve not only saves money, it helps the Army 
mitigate current capability shortfalls. For example, the Commander of 
Africa Command, General William E. ``Kip'' Ward, and the Commander of 
European Command, Admiral James G. Stavridis related in testimony 
before the Senate Armed Services Committee on March 9, 2010, that 
employing an operational Army Reserve to support combatant commander 
security activities would provide significantly more capability for the 
mission while maintaining invaluable operational experience, hard-won 
from current operations. Using the Army Reserve in security cooperation 
missions also reduces the demand for active Army capabilities, allows 
the active component to maximize time at home between deployments, and 
provides the Army Reserve with the opportunity to employ and refine its 
multifunctional skills.
    An operational Army Reserve can be key to developing cooperative 
security arrangements (collaboration with regional nations, interagency 
and non-governmental organizations, and regional institutions to 
respond to the broad range of regional contingencies) while building 
Partnership Capacity by strengthening and expanding relationships with 
allies and partners. The Army Reserve could also mitigate the costs 
that an active component unit would require in Korea (family housing, 
child-care, medical, etc.) by providing trained and validated units for 
1-year tours.
    It makes good business sense to sustain the enabling capability 
provided by the Army Reserve for now and into the future. Army Chief of 
Staff, General George W. Casey, Jr., has said there is no viable 
alternative to having a fully operational Army Reserve to sustain 
today's combat support needs and those of the future. As the Army 
evaluates the resource requirements to sustain and improve Reserve 
``operational capabilities,'' decisions on full-time staff, funded 
training days, and sequencing of training (pre-mobilization/post-
mobilization) drive the cost.
    Operationalizing the Army Reserve has thus created a requirement 
for an enduring level of readiness support that cannot be sustained 
with current supplemental funding. The Army Reserve must have 
predictable funding in the base budget to ensure Soldiers are well 
trained, well prepared, and well equipped at all times to respond to 
the Nation's needs. An enduring operational force cannot be fully 
effective if it has to borrow personnel and equipment from one unit to 
shore up another to meet mission requirements. Lending creates 
turbulence within units and diminishes gained efficiencies.
    For now and into the foreseeable future, the Army Reserve will 
function as an operational force. The required institutional, policy, 
and systemic resource processes and procedures are being transformed to 
ensure a sustainable and ready force capable of operating across the 
full spectrum of conflict.
    The Army Reserve is a positive investment for the Nation. We 
provide necessary combat support and combat service support to 
combatant commanders where and when needed, thereby saving limited 
resources. We train Soldiers who accomplish daunting tasks and provide 
critical support on the battlefield. We give back to the Nation highly 
trained, mature and refined Soldiers, who also provide civilian 
employers the kind of talent needed to sustain the local economy.
    America can make no better investment than sustaining an enduring, 
operational Army Reserve.

                         Lieutenant General Jack C. Stultz,
                                 Chief, United States Army Reserve.
                 Command Sergeant Major Michael D. Schultz,
                Command Sergeant Major, United States Army Reserve.

    As America remains a Nation at war, the Army Reserve continues to 
be a cost-effective force as evidenced by what we accomplished with the 
fiscal year 2011 budget Congress appropriated to us. The $7.9 billion 
Army Reserve appropriation represented only 4 percent of the total Army 
budget; yet in 2010, we achieved the following results within the four 
core elements (Human Capital, Materiel, Readiness, and Services and 
Infrastructure) of the Army Reserve Enterprise as outlined below.
Human Capital
    Human Resources.--In fiscal year 2010, the Army Reserve conducted 
525 Yellow Ribbon Reintegration Program events, serving 26,000 Soldiers 
and 28,000 Family members.
    Chaplain.--Army Reserve chaplains conducted over 300 Strong Bonds 
events throughout the country and territories, enhancing Soldier and 
Family communication and relationship skills. Some 12,500 Soldiers and 
Family members participated in these events and received this training.
    Behavioral Health.--Licensed clinicians are following up on the 
urgent referrals generated by the Periodic Health Assessment and Post 
Deployment Health Reassessments. Working on an ``Assess and Refer'' 
model, clinicians conduct bio-psycho-social assessments of each 
individual who is referred and determine the appropriate level of 
follow-up. They do not provide treatment. The major illnesses being 
identified that are Post Traumatic Stress, Major Depression and 
Substance Abuse.
    Medical and Dental.--Army Reserve medical readiness improved from 
23 percent on October 1, 2008 to 60 percent as of September 23, 2010. 
Programs such as the Army Select Reserve Dental Readiness System 
(ASDRS) have been highly successful. Dental readiness, which is 
currently at 74 percent, has improved 21 percent over the last 2 years, 
and is one of the key elements improving medical readiness. We 
converted 168,829 Soldiers' paper records to an electronic Health 
Readiness Record, allowing us to take full advantage of efficiencies in 
time, cost, and services over the continued use of paper treatment 
records. The Army Reserve successfully conducted suicide prevention 
training throughout the force. As a result, we have seen an improvement 
in communication with at-risk Soldiers and proactive involvement on the 
part of our subordinate commands.
    Family Programs.--The Army Reserve Virtual Installation Program 
served some 5,501 military members and their families, from all 
branches of the armed services during fiscal year 2010--bringing the 
resources of active military installations to geographically dispersed 
military Families. Three pilot sites at Army Strong Community Centers 
offer information and assistance on many issues, such as concerns with 
TRICARE, legal matters, retirement, GI Bill, and child and youth 
services.
Materiel
    The Army Reserve established new Equipment Fielding facilities to 
increase throughput of new equipment issues to units. This has allowed 
the Army Reserve to execute the largest distribution of new equipment 
in recent history. Over 23,000 pieces of equipment were provided to 
Army Reserve units, enhancing their readiness. Using near real time 
databases in ``bridging'' logistics information and management systems 
led to an automated process to define manpower requirements in 
equipment maintenance support structure. The Army Reserve is on track 
to successfully implement the Army's initiative for managing 
organizational clothing and individual equipment.
Readiness
    Operations.--Army Reserve continues to provide vital capabilities 
to combatant commanders in support of overseas contingency operations. 
More than 196,711 Army Reserve soldiers have mobilized in support of 
Operation Iraqi Freedom/New Dawn (OIF/OND) and Operation Enduring 
Freedom (OEF) since September 11, 2001. Today, more than 15,584 Warrior 
Citizens are serving in Iraq, Afghanistan and 22 other countries around 
the globe. Army Reserve Aviation continues to lead the way in Air 
Traffic Simulation. Thanks to funds approved by Congress, the Army 
Reserve fielded more than 630 Laser Marksmanship Training Systems to 
346 Army Reserve locations during the past year, while having the means 
to develop and field ``bridging'' logistics management and information 
systems.
Services and Infrastructure
    Facilities Management.--The Army Reserve successfully awarded over 
$432 million in Military Construction (Milcon) projects in 2010. 
Several new Army Reserve Centers will achieve net-zero energy usage 
(self-sufficient without drawing additional power from the electrical 
grid). The Army Reserve has developed innovative passive building 
design techniques to achieve low-technology, low-cost energy 
efficiency. We are installing solar collection fields, wind turbines, 
and geothermal plants at several new facilities. The Army Reserve has 
started a retrofit program, replacing lights, windows, roofs, and other 
components with new energy-efficient technology, resulting in 
substantial savings in utility costs.
    The Army Reserved also realized monetary benefits totaling 
approximately $232 million during the last year through the Office of 
Internal Review, which provides Army Reserve leadership timely, 
independent and professional review/audit, evaluation, and consulting 
services.
                        army reserve priorities
    Continue to transform to an enduring operational force.
    Continue to provide the best trained, best led, best equipped 
Soldiers and units to combatant commanders to achieve U.S. objectives 
and ensure national security.
    Recruit, retain, and reintegrate through a Continuum of Service the 
best and brightest Citizen-Soldiers to sustain a robust and capable 
operational Army Reserve.
    Provide Citizen-Soldiers and their Families with the training, 
support, and recognition to sustain a cohesive, effective fighting 
force.
    Build and maintain a partnership with industry to facilitate 
Citizen-Soldier contributions to both a prosperous economy and a 
skilled, experienced, and capable Army.
    To advance these priorities the Army Reserve must: Obtain from 
Congress full support and necessary authorities, in accordance with the 
Army Reserve fiscal year 2012 budget request
                         the president's budget
    The President's budget will allow the Army Reserve to:
  --Continue Army Reserve internal transformation to an Enduring 
        Operational Force.
  --Shape Army Reserve End-strength by recruiting, retaining, and 
        reintegrating, through a Continuum of Service, the best and 
        brightest Citizen-Soldiers.
  --Equip units and Soldiers to train and fight to achieve U.S. 
        objectives and ensure national security.
  --Provide quality medical and dental services and support to Soldiers 
        and their Families.
  --Sustain Army Reserve installations and facilities.
         the posture of the army reserve: where we stand today
    Today's Army Reserve is uniquely positioned and structured to 
provide operational support in complex security environments. We can 
meet Army requirements for combat support or combat service support 
roles. Many civil affairs, psychological operations, medical, 
transportation, engineer, and information operations capabilities 
reside exclusively, or predominately, within the Army Reserve. Our 
ability to mobilize quickly and responsively makes the Army Reserve 
ideally suited to meet our Nation's future requirements. Army Reserve 
Soldiers will remain a vital part of the Total Army Force facing the 
national security challenges of the next decade and beyond.
    During the Cold War era, the Army Reserve principally operated as a 
force in reserve. The first Gulf War, in 1990-1991, served as a 
catalyst for thinking about using the Army Reserve in a more 
operational capacity when large numbers of Reserve forces were engaged. 
Since the Gulf War, the Nation has employed the Army Reserve in many 
different ways and at unprecedented levels, most significantly after 
September 11, 2001. The demands of persistent conflicts over the past 9 
years were--and continue to be--beyond the ability of the Active 
component to meet alone. As a result, the Nation has relied heavily on 
the Army Reserve to fill operational requirements, fundamentally 
changing the role of the Army Reserve from a strategic to an 
operational force.
    Today, with the drawdown of forces in Iraq nearing completion and 
the proposed drawdown in Afghanistan, we can expect to see declining 
Department of Defense budgets for the near-to-mid term, as well as 
potential end-strength reductions, while still preparing for future 
operations in a volatile, uncertain, complex, and ambiguous security 
environment. A Total Force, maximized for strategic agility at reduced 
cost, provides the necessary capabilities to the combatant commander.
    The Nation and the Department of Defense are now at a strategic 
juncture with respect to the Army Reserve. Choices made now will 
determine the Army force mix and capability for the future. The choice 
can be to return to a strategic Reserve with limited readiness 
capabilities as the current conflicts resolve, or become an enduring 
operational force with the readiness levels that provide operational 
capabilities to meet the Nation's defense requirements across the full 
spectrum of conflict.
    Between 2001 and 2010 the Nation invested $52.7 billion to man, 
equip, train, and employ an operational force. The Department can 
choose to forgo the $52 billion investment, and over the next decade, 
the Army Reserve will revert to a strategic Reserve. This change would 
occur slowly over the first few years and then accelerate, by default, 
as the hard-won operational experience of our Soldiers atrophies and 
further resource constraints are implemented. Alternatively, for an 
estimated annual investment of $652 million, the Army can retain and 
sustain an operational Army Reserve. This will provide the Army 
necessary capability on time and at best value.
    Nine years of mobilization and employment for current contingencies 
has produced the most experienced, ready Army Reserve in history. 
Currently the Army Reserve is used as an operational force resourced 
only through Overseas Contingency Operations funding. With minimal 
recapitalization of readiness funded in the base budget and through 
annual employment of Army Reserve forces for operational missions such 
as Theater Security Cooperation, we can maintain these unprecedented 
readiness levels and support the National Security Strategy. This is 
the most efficient and cost-effective answer to the Nation's national 
security requirements.
    The Army Reserve culture has changed since 2001. Many Soldiers of 
the legacy strategic reserve left service in significant numbers 
between 2004 and 2006. Today, the Army Reserve is fully manned to its 
Congressionally authorized end-strength with Army Reserve Soldiers who 
have joined or re-enlisted to be part of an operational force. 
Reverting to a strategic Reserve would entail a similar significant 
loss of our most operationally experienced force and greatest asset--
today's Army Reserve Soldier.
    Today, we are exploring the Army's Continuum of Service initiatives 
as a way of making the Army Reserve more attractive for Soldiers, 
Families, and Employers. When these initiatives become a program of 
record, they will facilitate a Soldier transfer from one Army component 
(for example from the Army Reserve to active duty) to another in a 
seamless, efficient manner that meets the needs of the Soldier as well 
as the readiness requirements for the Total Force. There is no 
degradation in personnel management, career opportunities or benefits 
for a reserve component Soldier's military and civilian career. 
Continuum of Service will provide choices for Soldiers, their Family 
members and Employers, which is essential in family and career 
planning.
    The Army Reserve Posture Statement lays out our accomplishments, 
our plans, and our continuing challenges in the Era of Persistent 
Conflict and it continues to illustrate through its capabilities and 
affordability that it is a good investment for the Nation. An enduring 
operational Reserve will provide the Army necessary capabilities at 
best value. This is the Army Reserve of today and the future.

    ----------------------------------------------------------------

                              document map
    The 2011 Army Reserve Posture Statement (ARPS) is the Army 
Reserve's Annual Report to Congress of the current posture of the Army 
Reserve to fulfill its Title 10 responsibilities. The Posture Statement 
also serves to educate and inform Congress of Army Reserve resourcing 
priorities in the fiscal year 2012 budget request that will enable the 
Army Reserve to continue its transition in support of an operational 
force. This document is organized to help advise Senate and House 
Committee appropriators in Committee Hearings addressing Personnel, 
Readiness and Equipping of the needs of an operational force.
Programs Addressed in the President's Budget Request
    Personnel.--Shaping the Force, Building Resiliency, Health 
Promotion/Risk Prevention, Yellow Ribbon Reintegration Program, 
Spiritual Care, Behavioral Health, Healthcare, Family Programs, Full 
Time Support, Employer Partnerships of the Armed Forces.
    Readiness.--An Operational Force, Homeland Operations, Training, 
Training Equipment, Physical Security, Anti-Terrorism, Aviation, Army 
Reserve Command, Control, Communication, Computers/Information 
Technology (C\4\/IT), Training Facilities.
    Equipping.--Army Reserve Materiel, Equipment Maintenance, Logistics 
Contract Support.

    ----------------------------------------------------------------

        the fiscal year 2012 budget request: where we are going
                               personnel

    ----------------------------------------------------------------

           critical personnel needs of an operational reserve
    Appropriate resources for Recruitment and Retention of the right 
people and skill sets to sustain the force.
    Provide robust Suicide Prevention support and resources for trained 
caregivers, and training for Applied Suicide Prevention Skills.
    Continue support for the Yellow Ribbon Reintegration Program events 
and Family Member training.
    Resource Army Guard Reserve Family Life chaplain authorizations.
    Align and balance Family Programs capabilities/workforce to serve a 
geographically dispersed population.
    Ensure continuity of support to Army Reserve Soldiers and Families 
in the community where they live through Virtual Installations/Army 
Strong Community Centers.
    Deliver responsive and relevant Family Assistance and Support 
services to mobilized and non-mobilized Soldiers, Civilians, and their 
Families during military operations, emergency activities, and natural 
disasters.
    Improve and Sustain Medical, Dental and Behavioral Health 
Readiness.
    Maintain support levels for Full Time Support.

    ----------------------------------------------------------------

Shaping the Force
    The Army Reserve has undergone its largest ever transformation from 
a strategic reserve to an operational force. Additionally, the Army 
Reserve has exceeded its end-strength objective of 205,000--but has an 
imbalance in skills, in particular at the mid-grade ranks. As a result, 
we have shifted our focus to shaping the force to meet the needs of an 
Operational Army Reserve that actively supports current operations via 
the Army Force Generation model, also known as ARFORGEN.
    Our strategy will focus on proper balance and sustainment of the 
force rather than increasing end-strength. The Human Capital Enterprise 
will manage the accumulated end-strength to build and shape a force 
that best meets the Nation's near- and long-term demands. The Army 
Reserve will recruit, retain and transition the best and brightest and 
position them in the right place, in the right job, and at the right 
time.
    As part of shaping the force we requested and received Army 
approval to reimplement several boards that were previously suspended. 
These boards provide management tools that facilitate better management 
of senior grade positions, allow qualified Soldiers to progress at 
proper intervals in their careers, provide career incentives, and allow 
Soldiers to advance to higher grades at the peak years of their 
effectiveness. These boards include the Active Guard and Reserve (AGR) 
Release from Active Duty (REFRAD) Board (convened in April 2010) and 
the Army Reserve Troop Program Unit (TPU) Enlisted Qualitative 
Retention Board (scheduled to convene in 3rd Qtr fiscal year 2011).
Building Resiliency
    The Army Reserve is continuing to build resiliency in our Soldiers, 
Families and Civilians--all of whom have been affected by the 
cumulative effects of 9 years at war. We have developed a comprehensive 
approach that puts mental fitness on the same level as physical fitness 
to build a resilient force for the future. No one individual program 
builds resiliency; rather, it results from combining the benefits of 
health promotion-risk deduction education, Yellow Ribbon Reintegration 
Program events, spiritual care, behavioral health programs, medical and 
dental readiness, and family program services.
            Health Promotion--Risk Reduction
    The Department of the Army and the Army Reserve have been in the 
forefront of health promotion--risk reduction efforts by using the 
Applied Suicide Intervention Skills Training (ASIST) program. Training 
materials ensure the education of first line supervisors, Army Reserve 
leadership, Army Civilians, and suicide prevention programs managers 
(DAC and other full-time support personnel). The key to suicide 
prevention is trained caregivers. The key requirement to success is to 
ensure that an appropriate number of individuals receive ASIST for 
Trainers across the Army Reserve, as well as having these ASIST 
Trainers conduct the required training to personnel throughout the 
fiscal year. The 2-day ASIST workshop conducted by ASIST Trainers is by 
far the most widely used, acclaimed and researched suicide intervention 
skills training for our Soldiers. The ASIST Training done by qualified 
ASIST Trainers is the best way to increase the number of Gatekeepers 
trained to recognize Soldiers who are at risk and know how to intervene 
to prevent the risk of suicidal thoughts becoming suicidal behaviors. 
Since history has shown that Soldiers are better able to help other 
Soldiers at risk when they receive ASIST Suicide prevention training, 
the Army Reserve is committed to early identification of at-risk 
Soldiers before a serious incident occurs or a Soldier seriously 
contemplates suicide.
            Yellow Ribbon Reintegration Program (YRRP)
    The mission for Yellow Ribbon Reintegration Program (YRRP) simply 
stated is to support Army Reserve Families and their Soldiers with 
sufficient information, resources and services, referral, and proactive 
outreach opportunities throughout the entire deployment cycle. The goal 
is to build self-sufficient and resilient Families and Soldiers. We 
accomplish this by developing skills in each Family member and Soldier 
to assure they are prepared and able to cope with the difficulties of 
extended separation and deployment. We help Families network together, 
and connect with each other, and their unit/command and Family 
Programs' Office. We also attend to both the Family members' and 
Soldiers' physical, behavioral and mental health needs. This requires 
trained professional speakers to come to units and regional venues to 
educate and assist attendees with knowledge, skills and practical 
hands-on participation.
    In fiscal year 2010, the Army Reserve conducted 525 YRRP events, 
serving 26,000 Soldiers and more than 28,000 Family members. These 
events proved successful because of direct support from a caring 
command staff, involvement by a myriad of community agencies, and the 
commitment of volunteers. Providing these services and support to Army 
Reserve Families and Soldiers on par with those for the Active 
component is a challenge since most of our Families do not live near a 
fort, camp, post or station where services are readily available. The 
geographic dispersion and numbers of Army Reserve Soldiers and 
Families, combined with the challenges that may exist with a civilian 
employer or educational pursuits, is unparalleled by any other military 
service or service component.
            Spiritual Care
    While resiliency is the operative word in today's Army concerning 
Soldier and Family well-being, it has always been the end state of a 
chaplain's ministry. Spiritual fitness is vital to maintaining a 
healthy and vibrant force. While chaplains are helpful agents during 
times of crisis, their greater value lies in their ability to enable 
Soldiers and Families to endure and successfully overcome a crisis when 
it does occur.
    As an operational force, it is important that we are properly 
structured and manned. In 2007, the Director of Force Management 
approved and directed the addition of Unit Ministry Team (UMT) force 
structure across all Army components. In order to support enduring 
requirements of an operational Reserve, this additional structure would 
enable the Army Reserve to place the Army Chaplaincy's Family Life 
function into its inventory. Family Life chaplains would oversee our 
successful Strong Bonds' program while also supplementing the Army 
Reserve's religious support capabilities in Family ministries and UMT 
training.
    We appreciate the resources Congress has approved for the Army 
Reserve Strong Bonds program. During fiscal year 2010, over 300 Strong 
Bonds events were conducted throughout the United States and its 
territories, enhancing Soldier and Family communication and 
relationship skills. Some 12,500 Soldiers and Family members 
participated in these events and received this training. Our goal is to 
provide Strong Bonds Relationship training to the maximum number of 
Army Reserve Soldiers and Families.

    ----------------------------------------------------------------

    When Families are supported, Soldier problems are lessened and 
Soldier retention increases. The Army Reserve is committed to providing 
its Soldiers and Families a level of benefits and quality of life that 
is commensurate with their service to the Nation.

    ----------------------------------------------------------------

            Behavioral Health
    The Department of Defense Mental Health Task Force of 2006 
recognized that the existing systems for psychological health were 
insufficient for current and future needs. Task Force recommendation 
5.4.1.16 stated that ``Each Reserve Component should appoint a full 
time director of Psychological Health to the staff of the Reserve 
Component Surgeon.'' It went on to specify that ``Where Reservists are 
organized by region, a full time Regional Psychological Health Director 
should be appointed.'' The Army Reserve has acted on these 
recommendations and has developed a limited Behavioral Health program. 
There is a Deputy Surgeon for Behavioral Health at the Surgeon's 
office, whose responsibilities center on program development. Three of 
the four Regional Support Commands have Directors of Psychological 
Health. The licensed clinicians are responsible for following up on the 
urgent referrals generated by the Periodic Health Assessment and Post 
Deployment Health Reassessments. Working on an ``Assess and Refer'' 
model, they conduct bio-psycho-social assessments of each referred 
individual and determine the appropriate level of follow-up. They do 
not provide treatment. The major illnesses being identified , Post 
Traumatic Stress, Major Depression and Substance Abuse are treatable, 
but require a long-term commitment to care. Even as the current 
conflicts wind down, the psychological injuries sustained will require 
treatment far into the future. Four clinicians cannot adequately 
address the case management and monitoring needs that will be required 
by the growing numbers of Soldiers in the Army Reserve who struggle 
with these difficulties, especially considering the geographical 
dispersion of our units.
    A critical step for the future development of Behavioral Health 
programming within the Army Reserve is for all those who have a stake 
in the emotional well-being of Soldiers to share resources and develop 
multidisciplinary teams in order to most efficiently deal with the 
often complex and multidimensional needs of our Troops. The Army 
Reserve will be working with the other military Service reserve 
components and Congress to continue developing improvements to our 
infrastructure and processes to ensure our Soldiers receive appropriate 
care.
            Health Care
    The Army Reserve has served the Nation well while transforming from 
a strategic to an operational force. Soldiers not medically and 
dentally ready impair our ability to ensure predictability and reliance 
for the combatant commander. Army Reserve medical readiness improved 
from 23 percent on October 1, 2008 to 60 percent as of September 23, 
2010. Programs such as the Army Select Reserve Dental Readiness System 
(ASDRS) have been highly successful. Dental readiness, currently at 74 
percent has improved 21 percent over the last 2 years, and is one of 
the key elements improving medical readiness. Influenza compliance 
within the Army Reserve reached its highest compliance rate ever at 77 
percent, with H1N1 compliance at 79 percent.
    In 2010, we converted the paper records of 168,829 Soldiers to an 
electronic Health Readiness Record, allowing us to take full advantage 
of efficiencies in time, cost, and services over the continued use of 
paper treatment records. To improve data sharing, we obtained view 
capability of medical records stored in the Armed Forces Health 
Longitudinal Application, the active component medical database. We 
implemented the Medical Reserve Ready Response unit program, which 
enables our Army Reserve Physicians to review medical profiles and 
approvals from their home, capitalizing on the unique clinical skills 
found in the Army Reserve.
    Caring for our Wounded Warriors and assessing post deployment 
health issues are part of the Army's efforts to protect the health and 
well-being of Soldiers who have redeployed from combat. The Army 
Reserve tracks completion of the Post Deployment Health Reassessments 
to capture data and monitor the medical and behavioral needs of 
redeployed Soldiers. Soldiers complete these health assessments within 
3 to 6 months after returning from theater. As of September 15, 2010, 
84,419 Army Reserve Soldiers have been screened for post deployment 
health issues--a 95 percent compliance rate.
    As medical screening has improved, so has the identification of 
Soldiers who are not medically ready, and much work remains. There are 
approximately 15,500 Medically Non-deployable (MNDs) Soldiers who 
require a medical board and we are moving out aggressively to improve 
the boarding process.
            Family Support Programs
    Transformation from a strategic reserve to an operational force 
resulted in the need for standardizing programs and services to ensure 
Soldier and Family needs are met with the right resources, at the right 
time. Baseline services and outreach capability that sustain the 
quality of life of our Soldiers and Families are being integrated into 
the cycles of the ARFORGEN model. We employ metrics and administer 
surveys to gauge the quality and integrity of family program services 
for effectiveness and their value to our customers. This allows for the 
investment in high return services and the retirement of those that do 
not meet the needs of an operational force.
    An example of a promising high return service is the Army Reserve 
Virtual Installation Program. Operating at three pilot sites within 
three Army Strong Community Centers around the country, Virtual 
Installation brings the services and resources only found on active 
military installations to geographically dispersed military Families--
of all branches of the armed services. These centers provide hands-on 
problem resolution and follow-up for a myriad of concerns ranging from 
military benefits and entitlements to community resources. The Fort 
Family Support & Outreach Center at Fort McPherson, Georgia is the 
nerve center of the Army Reserve Virtual Installation where the 
Outreach Center staff use cutting-edge technology, mapping programs, 
and resource databases as well as live, personal contact with highly 
skilled subject matter experts to serve and build community-based 
capacity for each pilot site.
Full-Time Support (FTS)
    In July 2010, the Secretary of the Army directed the Assistant 
Secretary of the Army for Manpower and Reserve Affairs (ASA (M&RA)) to 
personally lead a study to determine the correct level of full-time 
support required for the Reserve Components. A memorandum and a term of 
reference will be sent to the reserve component leadership advising of 
the M&RA effort and task. There is also an initiative to have the 
reserve component re-validate the models that will identify/inform 
manpower requirements. These efforts will help the Army to determine 
the appropriate size of the FTS program for managing the reserve 
component as an operational force.
    The Army Reserve is currently funded at 75 percent of its 
requirements. This funding level is based on the requirements of a 
strategic reserve and in accordance with the Headquarters, Department 
of the Army ``HIGH RISK'' funding methodology. Funding must be 
maintained at this level.
    Civilian personnel programs (Military Technician and Army 
Civilians) are currently fully funded (based on 75 percent of FTS 
authorizations against validated requirements) and must remain so in 
order to provide required Army Reserve full-time support. The National 
Defense Authorization Act, Subtitle B--Reserve Forces, requires the 
Army Reserve to meet a Military Technician end-strength floor by 
September 30 each fiscal year. The ability to support an operational 
Army Reserve depends on being able to meet, or exceed within 
established standards, the authorized floor.
    The Army Guard and Reserve (AGR) program must also remain fully 
funded (based on 75 percent of FTS authorizations against validated 
requirements) in order to provide the required Army Reserve full-time 
support. Currently authorized 16,261 Soldiers, this program provides 
the bulk of full-time support at the unit level. They provide day-to-
day operational support needed to ensure Army Reserve units are trained 
and ready to mobilize within the ARFORGEN model. The AGR program is 
absolutely vital to the successful transition to, and sustainment of, 
an operational force.

    ----------------------------------------------------------------

    The Employer Partnership of the Armed Forces has more than 1,300 
employers and the list is growing. These Employer Partners represent 95 
of the 2010 Forbes Fortune 500 companies; they are military-friendly; 
and they value the skills, experiences and work ethic of those who 
serve.

    ----------------------------------------------------------------

Employer Partnership of the Armed Forces
    The Army Reserve's Employer Partnership Initiative has expanded far 
beyond serving only Army Reserve Soldiers. Today the Employer 
Partnership provides career continuum resources for the entire Service 
``Family.'' It serves the civilian employment and career advancement 
needs of members of all seven Reserve Components, their Family members, 
Wounded Warriors and the Nation's veterans. With this fully 
encompassing focus the program is now the Employer Partnership of the 
Armed Forces.
    The Employer Partnership of the Armed Forces has more than 1,300 
participating employers and the list is growing. These Employer 
Partners represent 95 of the 2010 Forbes Fortune 500 companies; they 
are military-friendly; and they value the skills, experiences and work 
ethic of those who serve.
    Army Reserve leadership feels the Employer Partnership is realizing 
success, and that the program supports its Human Capital Strategy. 
Accordingly the Chief of the Army Reserve will spend as much as $5 
million during fiscal year 2011 for the program. This funds operations 
which include program support personnel dispersed across the United 
States, and other resources that help connect seekers to jobs.
    Last fall the Employer Partnership launched a state-of-the-art job 
search resource at the portal: www.EmployerPartnership.org. Through 
strategic partnerships the portal accesses approximately 600,000 jobs 
at any given time. In addition to robust search capabilities, seekers 
can use the resume builder and keep a detailed resume readily available 
within the portal. Employers may then reach in and conduct candidate 
searches based on seeker skills/experiences. This in effect allows 
``jobs'' to actually ``find'' our seekers. The portal's user-friendly 
functionality makes it an efficient tool for both seekers and 
employers.
    The partnerships forged with civilian employers build operational 
capacity for the Army Reserve and the Reserve components; they fortify 
the resilience of our Families; they serve those who have served; and 
they strengthen our Employer Partners. The Army Reserve's underwriting 
of Employer Partnership of the Armed Forces program represents a 
positive investment for America.
 the employer partnership promotes skills and opportunity sharing with 
                             the home front
    program provides advantage to local communities and the military
    Employers realize that it makes sense to hire personnel already 
trained and experienced. Reserve Service members and Veterans fit this 
bill. They are skilled in a wide variety of disciplines including 
healthcare, transportation, logistics, supply chain management, law 
enforcement, public safety, construction, engineering, finance, 
information technology and telecommunications. By providing access to 
talented Service members, the Employer Partnership of the Armed Forces 
saves local employers time and money.
    The military also benefits. Best practices from industry, and 
experience with cutting edge technology and medical procedures flows 
into our Armed Forces through Reserve service. And, as the Employer 
Partnership (EP) helps Service members progress in their civilian 
career fields, increased expertise is brought to military assignments.
    Perhaps most important to the home front are the career 
opportunities the EP brings to Service members, their Families and our 
Veterans. The Employer Partnership program truly exemplifies a positive 
investment in America, and our commitment to taking care of our entire 
Military ``Family.''

    ----------------------------------------------------------------

                  career opportunities across america
    The EP program has written agreements with more than 1,300 Employer 
Partners; with jobs in every U.S. State and territory.
                      strengthens local economies
    Efficient access to trained and qualified work force saves time. 
Hiring costs also lowered by reducing need for duplicate drug and 
aptitude screening.
                      inside track to opportunity
    Provides Service members with an inside track to employers who are 
committed to hiring Reservists and Veterans.
                    a concrete way to support troops
    The EP program gives employers a tangible way to support our troops 
while also strengthening America's economy.

    ----------------------------------------------------------------

    ----------------------------------------------------------------

 the army reserve's core competencies: battle tested, skill rich army 
 reserve soldiers in an operational force provide strength for america 
                            and it's economy
                               logistics
    Logistics is one of the most important capabilities of the Army 
Reserve. From supply-chain management to land, water, and air 
operations, the Nation's defense depends on the efficiency of our 
Expeditionary Sustainment Commands; Transportation, Petroleum, 
Quartermaster and Supply units. Army Reserve Soldiers are skilled and 
experienced in delivering the right product at the right time to our 
customers world-wide.
                               healthcare
    Breakthroughs in trauma techniques and procedures often originate 
from battlefield medicine. The majority of the U.S. Military's medical 
capability resides in the Reserve components. As a result of their 
military service, Army Reserve doctors, nurses, technologists and other 
medical service practitioners are able to bring extraordinary practical 
experience to local care providing institutions across the United 
States.
                       information/communications
    Information is critical to successful operations on the modern 
battlefield. Satellite, microwave, cell and fiber-optic are among the 
many means; code-division multiplexing, time division and frequency 
division multiple access are among the technical methods which enable 
this. Data collection, analysis and reporting activities form the 
information and intelligence that is communicated. The Reserve has 
operators, enablers and trainers in all of these disciplines. Army 
Reserve Communicators are information age proficient.
                               management
    The development of leadership and management skills begins early in 
every service member's career. Military training stresses leadership 
principles, sound decisionmaking and overcoming challenges. This is 
important because Soldiers are responsible for major equipment systems, 
and above all, are responsible for the well-being of those they lead. 
Army Reserve Soldiers are responsible and capable leaders.

    ----------------------------------------------------------------

                               readiness

    ----------------------------------------------------------------

           critical readiness needs of an operational reserve
    Adequate resources to respond to Homeland Defense missions.
    Additional mandays in the last 3 years of the ARFORGEN cycle.
    Provide Simulations and Simulators to enable operationally 
relevant, full spectrum training for Soldiers anytime/anywhere.
    Ensure Home station training capabilities to support critical home 
station pre-deployment training.
    Sustain the availability of training equipment.
    Support for programs to Protect the Force.
    Continue support for a fully integrated operational Aviation force.
    Provide a strong Army Reserve Network Defense.
    Funding for essential and mandatory secure communications.
    Creation of a standardized computing environment.
    Construction and upgrade of Army Reserve Centers, and Training 
Facilities.
    Support for programs to reduce energy usage, conserve natural 
resources, and develop alternate renewable energy.
    Continue the work of Army Reserve Virtual Installation Program.

    ----------------------------------------------------------------

Operations
            An Operational Force
    The Army Reserve continues to provide vital capabilities to 
combatant commanders in support of overseas contingency operations. 
More than 196,711 Army Reserve Soldiers have mobilized in support of 
Operation Iraqi Freedom/New Dawn and Operation Enduring Freedom since 
September 11, 2001. Today, more than 15,584 Warrior Citizens are 
serving in Iraq, Afghanistan and 22 other countries around the globe.
    We execute a pre-mobilization readiness strategy that provides the 
Army ready formations and soldiers on an annual, predictable cycle. 
Through the Army Force Generation (ARFORGEN) model, the Army Reserve 
synchronizes the plans and resources necessary to meet the readiness 
goals for units entering their available year. This maximizes ``boots 
on the ground'' time, builds cohesive teams and provides predictability 
for our Soldiers and Families.
            Homeland Operations (HLO)
    Homeland Operations, which includes Homeland Defense, Homeland 
Security and Defense Support of Civil Authorities, has become an 
increasingly important mission for the Army Reserve and its applicable 
capabilities. The Army Reserve currently provides 37 units in support 
of the Chemical Biological Radiological Nuclear Response Enterprise. 
Properly managing this Army Reserve commitment will necessitate growth 
of full-time manning and Troop Program Unit positions within the 
Homeland Defense Division.
    The Army Reserve has relevant and capable units that we leverage in 
a Defense Support of Civil Authorities environment. This includes, but 
is not limited to, the following types of units: medical aviation, 
transportation, engineering, communications, and Civil Affairs. These 
capabilities can be packaged with the appropriate command and staff 
structure to facilitate assistance to civil authorities. This packaging 
can also provide necessary command and control of Title 10 Department 
of Defense resources in a defined joint environment. When combined with 
legislative efforts to amend existing mobilization authorities, the 
U.S. Army Reserve can provide significant resources to support civil 
authorities in domestic disasters and emergencies.
            Theater Security Cooperation Programs (TSCP)
    As requirements for Deployed Expeditionary Forces decrease as the 
result of planned force drawdowns in Operations New Dawn and Enduring 
Freedom, the Army Reserve is exploring other missions in an effort to 
sustain experience and readiness levels. Combatant commander TSCP 
programs require a wide range of forces, such as military police, for 
missions of varying duration. In many cases, Army Reserve formations 
are ideally suited to conduct these missions. The use of Army Reserve 
units: reduces stress on the active component, preserves the readiness 
gains made in the reserve component over the last decade, and spreads 
the burden of defending American interests across a larger portion of 
the citizenry.
Training
            Mandays to support an Operational Reserve
    Using a progressive training strategy, the Army Reserve is 
committed to providing trained companies and battle staffs to combatant 
commands upon mobilization. With adequate resources that support 
reoccurring operational employments, we can effectively fulfill our 
mission. A sufficient number of training mandays, during the last 3 
years of the ARFORGEN cycle, is imperative to meet established 
readiness aim points, which reduces post-mobilization training time and 
increases Boots on the Ground time for theater operations.
            Simulations and Simulators
    The Army Reserve continues to engage the Army's Training Support 
System Enterprise that provides networked, integrated and interoperable 
training support capabilities that enable operationally relevant, full 
spectrum training for Soldiers anytime/anywhere. The use of simulations 
and simulators minimizes turbulence for Soldiers and their Families 
caused by training demands during the first 2 years of the ARFORGEN 
process by enabling individuals and units to train at their home 
station and during exercises in a safe environment without the 
increased wear and tear on equipment. An example of the simulators used 
to train Soldiers is the fielding of more than 630 Laser Marksmanship 
Training Systems to 346 Army Reserve locations over the past year.
            Home Station Training Capabilities
    The Army Reserve remains dedicated to providing suitable platforms 
to support critical home station training for its units. Home station 
for the Army Reserve includes Reserve Centers, Local Training Areas, 
Regional Training Sites, and installations. Home stations must 
adequately portray the operational environment in training venues, 
facilities, and ranges with a mix of Live, Virtual (Simulators), and 
Constructive (Simulations), including gaming technologies. Modernizing 
our facility infrastructure through additional Military Construction 
and the retrofitting of existing facilities with state of the art 
classrooms and simulator/simulation rooms enhances our ability to 
conduct individual and collective training, such as the inclusion of 
the weapons simulator rooms in our new Army Reserve Centers. Upgrading 
our existing Local Training Areas, and Regional Training Sites with 
ranges and training facilities provides units the capability to master 
critical tasks while training close to home.
            Army Reserve Comprehensive Soldier Fitness
    Comprehensive Soldier Fitness marks a new era for the Army Reserve 
by comprehensively equipping and training our Soldiers, Family members 
and Army Civilians to maximize their potential and face the physical 
and psychological challenges of sustained operations. We are committed 
to Comprehensive Soldier Fitness that will enhance resilience and 
coping skills enabling the Force to grow and thrive in today's Army 
Reserve.
    This year, the Army Reserve trained over 100 Non-Commissioned and 
Commissioned Officers at the Department of the Army's Master Resiliency 
Trainer's Course. These trained leaders form the core of our resiliency 
effort and are currently conducting Resiliency Training at Army Reserve 
units globally. Initial feedback from Soldiers and Civilians that have 
attended this training, has been overwhelmingly positive.
            Training Equipment
    The Army Reserve has been able to meet both the logistics readiness 
requirements for mobilizing its units as an Operational Reserve force 
and the enduring standards outlined in regulations and directives. 
These results have been delivered through effective and intensive 
management, innovative programs, and strict adherence to priorities and 
effective enablers such as contracted maintenance and support to our 
units. We have developed and fielded ``bridging'' logistics management 
and information systems to augment those fielded and programmed by the 
Army. These systems have created a near ``real time'' data warehouse 
and responsive tools for our managers to quickly identify and resolve 
issues, especially in maintenance, property accountability and 
equipment distribution. We continue to find innovative ways to 
accomplish our missions with the resources provided as we move towards 
full implementation of our position as an Operational Reserve within 
the Army Force Generation Model.
Security
    The Office of the Provost Marshall (OPM) manages the Force 
Protection of Army Reserve facilities and personnel. OPM's core 
functions are Antiterrorism, Police Operations, Physical Security and 
Law Enforcement. The Army Reserve has identified three mission 
priorities that OPM is responsible for managing which require funding:
            Installation Access Control
    Army Reserve facilities are distinctive because they are stand-
alone facilities in remote parts of the country. Maintaining positive 
control of access to these facilities is paramount to ensuring that the 
Soldiers and equities inside these facilities remain ready and 
available to combatant commanders. Funding to modernize access to 
Reserve facilities supports the Army Reserve objective of Protecting 
the Force.
            Intrusion Detection System (IDS) Maintenance and Monitoring
    IDS systems monitor arms rooms at Army Reserve facilities 24-hours 
a day. Should an arms room at a remote facility be breached, creating 
the possibility that military weapons could fall into the hands of 
criminals or terrorists, the monitoring program ensures that 
authorities will be notified immediately.
            Antiterrorism Program Management
    Antiterrorism (AT) Assessment Specialists are the key component of 
the Antiterrorism Program. AT Specialists conduct inspections of Army 
Reserve facilities across the Nation to ensure facilities are in 
accordance with Department of Defense and Army standards. The Army 
Reserve spans over 1,100 stand-alone facilities across the continental 
United States. With appropriate funding the Army Reserve can protect 
Soldiers and equipment vulnerable to criminal and domestic terrorist 
threats.
Aviation
    Army Reserve Aviation is a fully integrated, operational force with 
a fleet of more than 198 rotary wing and fixed wing aircraft. The 
diverse fleet provides speed, mobility, flexibility, agility, and 
versatility to the Army in support of full spectrum operations. Army 
Reserve Aviation has recently activated two new MEDEVAC companies. The 
MEDEVAC companies are located in Texas, Colorado, Pennsylvania, and 
Kentucky. Additionally, the Army Reserve aviation fixed wing units will 
accept delivery of six new C12V1 aircraft in 2011. These aircraft will 
fill a critical capability gap to meet Continental United States 
(CONUS) based training requirements in preparation for Overseas 
Contingency Operations. The Army Reserve continues to seek funds for 
the procurement four additional C12V1 aircraft. Lastly, Army Reserve 
Aviation continues to lead the way in Air Traffic Simulation. The first 
unit level Air Traffic Control simulator, located in the Marryman 
Simulation Complex, Fort Rucker, Alabama became operational this year. 
The system meets all Federal Aviation Administration requirements for 
certification. The simulator provides qualification and proficiency 
training for all Army controllers. This simulator is also used in 
aviation training exercises to validate controller skills prior to 
deployment.
Base Realignment and Closure
    The Army Reserve is in its final year of the 6-year execution of 
the BRAC 2005 mandated execution--which officially ends on September 
15, 2011. Upon the conclusion of this BRAC window, the Army Reserve 
will have made significant changes shaping the force for relevant 
contributions well into the future. The year's execution will mark the 
culmination of the largest transformation of the Army Reserve since 
World War II by realigning the command and control structure into an 
operational configuration; realigning six major headquarters including 
Office of the Chief, Army Reserve and United States Army Reserve 
Command to new locations; disestablishing 12 Regional Readiness 
Commands; establishing four Regional Support Commands; activating five 
Sustainment Commands and eight Sustainment Brigades; constructing 125 
Armed Forces Reserve Centers; and closing 190 facilities or activities.
    BRAC provides an opportunity for the Army Reserve to power down to 
our major commands some of the functions that are typically managed at 
the Army Reserve Headquarters. We are implementing the Army's 
enterprise approach within our staff, which includes managing things 
like personnel issues and logistics issues at the lowest possible level 
of organization. When we power down some of these management issues to 
our regional and operational/functional commands during our BRAC move, 
it may make sense for those commands to retain management of some of 
those issues.
    Completing the construction of 61 Armed Forces Reserve Centers and 
relocating units into these new facilities remains the largest priority 
of execution for fiscal year 2011 as all actions must be completed by 
September 15, 2011. The relocation of units into these new facilities 
will facilitate the closure and disposal of the remaining 143 of 176 
Army Reserve Centers identified by BRAC for closure.
    Over the next year the Army Reserve will execute and complete the 
remainder of all Army Reserve BRAC actions. These remaining actions 
will mark the end of the largest transformation efforts the Army 
Reserve has seen in its storied history.
Communication (Information Technology)
            Army Reserve Network
    The Army Reserve Network (ARNET) provides the Command and Control 
(C\2\) enablement in operationalizing the Army Reserve. The ARNET 
provides Army Reserve Leaders and Soldiers the ability to make timely 
informed decisions in the execution of overall C\2\ for all Army 
Reserve units throughout the contiguous United States and Puerto Rico. 
Over the past 2 years, the Army Reserve has worked closely with the 
Army in implementing the Global Network Enterprise Construct (GNEC) 
strategy as the way to grow and improve LandWarNet to an Enterprise 
activity. The ideal end-state is to provide Soldiers a universal email 
address, file storage, telephone number and a standardized 
collaboration tool set.
    The Army Reserve's contributions to GNEC began in 2002 with an Army 
Business Initiative Council approved project. Elements of the project 
re-structured the legacy ARNET into a portion of the LandWarNet and 
developed a consolidated Data Center providing centralized core 
services (i.e., Active Directory, email, collaboration, file storage 
and centralized application hosting) for the entire Army Reserve. With 
approximately 85 percent of the consolidation completed, continued 
funding of the ARNET is integral in maintaining a global warfighting 
C\2\ capability. The Army Reserve's accomplishments and experiences 
have been applicable to the Army as we continue to participate in GNEC 
planning forums in aligning Army initiatives and timelines while 
ensuring Army Reserve Title 10 operational capabilities are met.

    ----------------------------------------------------------------

                            cyber operations
    Army Reserve Soldiers offer current skill-sets and leap-ahead 
capabilities in the cyber environment. Warrior-Citizens employed in 
leading-edge technology companies have critical skills and experience 
in fielding the latest information technology systems, networks, and 
cyber security protocols.

    ----------------------------------------------------------------

            Secure Communication
    Secure communications is essential and mandatory, particularly with 
C\2\ and mobilization (i.e., deployment dates, passing mobilization 
orders, and C\2\ theater assets). Secure Internet Protocol Router 
Network (SIPR) and Secure Video Teleconference (SVTC) for all Battalion 
and above units are vital in meeting all pre-mobilization training/
readiness gates, mobilization training actions and day-to-day secure 
operational planning. The security of the Global Information Grid (GIG) 
is a constant challenge and reflected in DOD's standup of Cyber Command 
and the associated service elements. The same is true in the overall 
security posture of the ARNET in ensuring the uninterrupted flow of 
information to all ARNET authorized users. Continued investment in the 
Army Reserve secure communications and defense of the ARNET supplies 
Army Reserve Leaders, Soldiers and Civilians the capability of 
attacking and exploiting network threats.
Army Reserve Facilities
    Reserve Centers, Training Support and Maintenance facilities are 
designed to meet the unique requirements of our community-based force. 
Our Soldiers, Families, and Civilians are strategically located across 
the country in over 1,100 stand-alone facilities--Army Reserve Centers 
or Armed Forces Reserve Centers (which house other Department of 
Defense components along with Army Reserve). However, the needs of the 
Army Reserve are evolving. The Military Construction Army Reserve 
priorities for the fiscal year 2012-2017 Program Objective Memorandum 
are Army Reserve Centers, training support facilities, and maintenance 
facilities. The Army Reserve Centers are essential to training Reserve 
Soldiers for the full spectrum of operations and the operations of the 
Army Reserve. Training Support Facilities are critical to conducting 
Army Reserve and active-component unit and collective training tasks in 
support of the Army Force Generation Model requirements. These 
facilities also provide the training platform to support The Army 
School System, which is composed of the reserve component, the active 
component Military Occupational Skill reclassification, and Officer and 
Non-Commissioned Officer Professional Military Education. Maintenance 
Facilities are the third priority to the facility strategy required as 
the logistics support to Army Reserve Equipment.
    Base Realignment and Closure and emerging Army requirements for 
modular unit design, force protection, and energy efficiency continue 
to require new facilities or renovations to our existing facilities. 
Quality facilities are critical to the Army Reserve's ability to handle 
the increased training, mobilization, and Family and Soldier care 
activities that today's Army Reserve demands.
Energy Conservation
    The Army Reserve is especially proud that our facilities are at the 
forefront of energy sustainability. In 2010, several new Reserve 
Centers will achieve net-zero energy usage (self-sufficient without 
drawing additional power from the electrical grid). We have established 
a solar energy farm at Fort Hunter Liggett, California, and are 
installing wind turbines and geothermal plants at several new 
facilities. The Army Reserve has started a retrofit program, replacing 
lights, windows, roofs, and other components with new energy-efficient 
technology, resulting in substantial savings in utility costs. The Army 
Reserve was the first Defense component to commission partnerships with 
local utility providers and to solicit third-party energy investors. In 
5 years every State and U.S. territory will have Army Reserve 
facilities that are energy self-sufficient (net-zero), with many 
providing renewable energy back to the electrical grid. To continue 
this progress, the Army Reserve must conduct a sustainability 
evaluation of each facility. This will establish a sustainability 
baseline, which will in turn enable us to create a sustainability 
strategy that addresses the unique characteristics of each site. 
Continuing to invest in sustainable facilities will enable the Army 
Reserve to meet or exceed the Department of Defense requirement for a 
completely net-zero footprint by 2025. More importantly, the Army 
Reserve will save American tax dollars, return a valuable energy 
resource to the community, and assure reliable energy for Army Reserve 
Soldiers and Families.
    Until energy independence is realized, it is imperative that the 
Army Reserve have fully funded utilities. In previous years utility 
costs have risen substantially, requiring the Army Reserve to re-
program funds and accept risk in other areas. The Army's increasing 
emphasis on home-station training, ongoing deployments, and the needs 
of Army families in the community means that the Army Reserve needs 
constant, reliable access to energy in our Reserve Centers and training 
facilities now more than ever.

    ----------------------------------------------------------------

    The Army Reserve was the first Defense component to commission 
partnerships with local utility providers and to solicit third-party 
energy investors.

    ----------------------------------------------------------------

                               equipping

    ----------------------------------------------------------------

           critical equipping needs of an operational reserve
    Resource Modernized equipment for the Army Reserve to improve Army 
Reserve readiness and capabilities within the ARFORGEN Model.
    Maintain Army Reserve equipment at or beyond the Army standard of 
90 percent Fully Mission Capable.
    Provide Contracted Support for logistics operations and information 
systems to sustain logistics readiness.
    Funding for state-of-the-art maintenance facilities.

    ----------------------------------------------------------------

Army Reserve Materiel
    The Army Reserve, thanks to the support of Congress, is at an 
aggregate total of nearly 90 percent of its required equipment on-hand. 
Sixty-five percent of our on-hand equipment is classified as 
``modernized.'' However, we remain short in several areas of critical 
equipment. Around 35 percent of our required equipment lines are at 
less than 65 percent on hand. These shortages include tactical 
communications networks (satellite and terrestrial), command and 
control items and night vision systems. We have been able to sustain 
the pace of operations and training as an Operational Reserve by the 
continuous cross-leveling of available equipment among units. This does 
create an unsustainable level of friction, where a critical amount of 
equipment is not immediately available as the equipment is in transit 
(geographical dispersion of our units across the country), undergoing 
maintenance or awaiting deployment. In addition, some of our equipment 
is already deployed. The Army continues to work with us on identifying 
and filling shortages to improve readiness and capability to act as an 
Operational Reserve force under the Army Forces Generation Model.
Equipment Maintenance
    The Army Reserve maintains its equipment at or beyond the Army 
standard of 90 percent Fully Mission Capable. This ensures the 
availability of equipment for training and mobilization to support the 
operational force within the Army Force Generation Model. Units cannot 
train or mobilize without equipment that is ready to perform. Field 
level maintenance keeps the equipment ready for use. Funding for tools, 
consumables, military technician mechanics and contracted support 
sustains our field level maintenance activities. Good maintenance 
reduces the amount of ``friction'' (equipment in shop, in transit, 
etc.) that removes equipment from use. Depot maintenance is important 
in keeping older equipment operable, relevant and safe to employ. 
Recapitalization of equipment provides a source of modernized and more 
capable items when new procurement is insufficient to meet shortfalls 
or inventory losses. Funding for military construction provides new, 
modernized or expanded facilities to perform maintenance and staging of 
equipment.
Logistics Contract Support
    It is prudent to fund the Army Reserve for contract support for 
logistics operations and information systems to sustain logistics 
readiness. Contract support allows the Army Reserve to execute a 
vigorous assistance program in managing inventory and identifying and 
disposing of excess; providing field level repair and services during 
``surge'' periods when units draw equipment for training or 
mobilization and in sustaining our critical logistics information and 
management systems. Contract support also strengthens our ability to 
meet operational demands and serve as an operational force within the 
Army Force Generation Model, while meeting Homeland Defense and Defense 
Support to Civil Authorities missions.

    ----------------------------------------------------------------

    However, we remain short in several areas of critical equipment. 
Around 35 percent of our required equipment lines are at less than 65 
percent on hand. These shortages include tactical communications 
network (satellite and terrestrial), command and control items and 
night vision systems.

    ----------------------------------------------------------------

    Leveraging contracted support, especially during periods of 
``surge'' in mobilizing units, has supplemented our organizational 
capabilities. This enabler assists us in maintaining and preparing our 
equipment for training, mobilization and deployment, in operating and 
sustaining our logistics management and information systems in support 
of logistics operations and in managing the distribution of our 
equipment and identification and disposal of excess. We continue to 
find innovative ways to accomplish our missions with the resources 
provided as we move towards full implementation of our position as an 
operational force within the Army Force Generation Model.
Equipment Facilities Management
    State-of-the-art maintenance facilities are the cornerstone of the 
Army Reserve's ability to sustain large equipment. The Army Reserve 
uses state-of-the-art environmental control features in maintenance 
facility designs that meet or exceed Federal design standards. Data 
ports at vehicle work bays, fluid distribution systems that eliminate 
spillage, and oil/water separators are examples of proven design 
features. These features improve efficiency and enhance collection of 
fossil fuel waste, further safeguarding surrounding communities' land 
and waterways from contamination and pollution. Fire suppression 
systems and eye wash stations are standard safety design elements. The 
Army Reserve will continue to upgrade our older maintenance facilities, 
because the condition of maintenance facilities is directly related to 
our ability to maintain equipment in acceptable condition. Continued 
deployments and heavy training have taken a toll on both equipment and 
facilities. Facility sustainment is critical--in fact, it is a cost-
saving measure realized over the life-cycle of the facilities, if done 
properly. Facility deficiencies, if left unchecked, tend to worsen 
exponentially over time. The ongoing investment in the facilities we 
build will ultimately reduce repair, renovation, and replacement costs 
in the future.
                 conclusion: the force is in good hands
    As we travel around the United States and the world and witness 
what our Soldiers are doing for their country, it's just inspiring to 
see the quality, the dedication and the professionalism of our Soldiers 
serving in the Army Reserve. These are top-notch individuals that have 
put their civilian careers on hold. They are well educated and have 
very bright futures ahead of them--but they joined our ranks to serve 
their country.
    With more than 170,000 Army Reservists mobilized since the 
September 11, 2001 terrorist attacks on the United States, the force is 
more experienced than ever before and the Troops feel good about what 
they've accomplished and proven about the Army Reserve.
    Today's environment of multiple deployments is telling us, however, 
the Army Reserve will need to keep giving these quality Soldiers 
fulfilling training and missions, a fair benefits package and more 
balance in their lives to keep them on our team. We cannot continue to 
expect them to keep up with a rapid operational pace without more time 
at home with their families and civilian employers between deployments, 
and they need predictability about when they will deploy. Toward that 
end, the Army Reserve is working to give its Citizen-Soldiers a bit 
more time to be ``Citizens.''
    Today's Army Reserve recruits are attracted to an operational force 
because it enables them to serve their country in a meaningful way 
while allowing them to pursue a civilian career. When considering the 
future posture of the Army Reserve, we are convinced that after playing 
key roles in an operational force, they'll never be satisfied reverting 
to their long-abandoned ``weekend warrior'' status. We have 
transitioned our personnel and our mentality to an operational force 
and have created an environment and culture our Soldiers want to be 
part of--and that they feel good about. We have told the Army 
leadership and others there's no turning back. We cannot go back to a 
strategic reserve--one, because the Nation needs us; but two, because 
our Soldiers have proven themselves capable of supporting this role.
    Equally compelling, we as a military have come to the realization 
that we can't fight an extended conflict without the reserve. We have 
built an Army that is dependent on having access to the reserve when it 
needs us; and with the expectation that it is going to be trained and 
ready--a predictable capability that is not possible in a strategic 
posture.
    One thing is certain about the future--while looking for ways to 
cut costs and reap a ``peace dividend'' once the troops draw down in 
Iraq and Afghanistan, there will be the temptation to turn back the 
clock and reinstitute a strategic reserve. Such a plan would deprive 
the United States of an important, battle-tested and cost-effective 
resource.
    Operations Enduring Freedom, Iraqi Freedom and now New Dawn have 
demonstrated the capabilities the reserve components bring to the 
military. Particularly important are the ``enabling capabilities'' 
resident in the Army Reserve: logistical, engineer, military police, 
medical and civil affairs support.
    We are now at a point where current and projected demands for Army 
forces will require continued access to the Army's reserve components, 
making real what has been in policy for some time. This means that 
mobilization and operational use of reserve component Soldiers and 
units will have to continue for the foreseeable future. The Army of the 
21st century will require a versatile mix of tailorable and adaptable 
organizations--both active component and reserve component--
interdependently operating on a rotational cycle.
    Transforming the Army's reserve components into an enduring 
operational force provides a historic opportunity for the Army to 
achieve the most cost-effective use of its Total Force through 
investing in and relying on the Army's reserve components to take on a 
greater role in our Nation's defense.

    ----------------------------------------------------------------

    I am an American Soldier.
    I am a Warrior and a member of a team. I serve the people of the 
United States and live the Army Values.
    I will always place the mission first.
    I will never accept defeat.
    I will never quit.
    I will never leave a fallen comrade.
    I am disciplined, physically and mentally tough, trained and 
proficient in my warrior tasks and drills. I always maintain my arms, 
my equipment and myself.
    I am an expert and I am a professional.
    I stand ready to deploy, engage, and destroy the enemies of the 
United States of America in close combat.
    I am a guardian of freedom and the American way of life.
    I am an American Soldier.

    ----------------------------------------------------------------

                           your army reserve
    The United States Army Reserve provides trained units and qualified 
Soldiers available for active duty in the armed forces in time of war 
or national emergency, and at such other times as the national security 
may require. Throughout the United States, the Army Reserve has four 
Regional Support Commands that provide base support functions, and 13 
Operational and Functional Commands available to respond to homeland 
emergencies and expeditionary missions worldwide.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         army reserve snapshot
    Mission.--The Army Reserve provides trained, equipped, and ready 
Soldiers and cohesive units to meet global requirements across the full 
spectrum of operations.
    Vision.--As an enduring operational force, the Army Reserve is the 
premier force provider of America's Citizen-Soldiers for planned and 
emerging missions at home and abroad. Enhanced by civilian skills that 
serve as a force multiplier, we deliver vital military capabilities 
essential to the Total Force.
Key Leaders
    Secretary of the Army: The Honorable John McHugh
    Army Chief of Staff: General George W. Casey, Jr.
    Chief, Army Reserve and Commanding General, U.S. Army Reserve 
Command: Lieutenant General Jack C. Stultz
    Assistant Chief, Army Reserve: Mr. James Snyder
    Deputy Commanding General, U.S. Army Reserve Command: Major General 
Jon J. Miller
    Deputy Chief Army Reserve, Individual Mobilization AugmenteeMajor 
General Keith L. Thurgood
    Deputy Chief Army Reserve/Human Capital Enterprise: Brigadier 
General Leslie A. Purser
    U.S. Army Reserve Command Chief of Staff: Brigadier General William 
J. Gothard
    Director for Resource Management/Materiel Enterprise: Mr. Stephen 
Austin
    Deputy Chief of Staff, G-3/5/7/Force Programs Division/Readiness 
Enterprise: Colonel (P) Brian J. McKiernan
    Chief Executive Officer/Director, Services and Infrastructure 
Enterprise: Mr. Addison D. Davis
    Command Chief Warrant Officer: Chief Warrant Officer 5 James E. 
Thompson
    Command Sergeant Major: Command Sergeant Major Michael D. Schultz
Army Reserve Basics
    Established: April 23, 1908
    Designated Direct Reporting Unit to Army: October 1, 2007
    2010 Authorized End Strength: 205,000
    Selective Reserve Strength: 205,281
    Accessions for fiscal year 2009: 23,684 (105 percent of actual 
goal)
    Reenlistments for fiscal year 2009: 12,227 (105 percent of annual 
goal)
    Accessions Goal for fiscal year 2010: 20,000
    Soldiers Deployed Around the World: 15,584
    Soldiers Mobilized Since September 11, 2001: 196,711
    Number of Army Reserve Centers: 1,100
Distinctive Capabilities
    The Army Reserve contributes to the Army's Total Force by providing 
100 percent of the:
  --Theater Engineer Commands
  --Civil Affairs Commands
  --Training Divisions
  --Biological Detection Companies
  --Railway Units
  --Replacement Companies
     . . . more than two-thirds of the Army's:
  --Medical Brigades
  --Civil Affairs Brigades
  --PSYOPS Groups
  --Expeditionary Sustainment Commands
  --Dental Companies
  --Combat Support Hospitals
  --Army Water Craft
  --Petroleum Units
  --Mortuary Affairs Units
     . . . and nearly half of the Army's:
  --Military Police Commands
  --Information Operations Groups
  --Medical Units
  --Supply Units
Army Reserve Demographics

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Ethnicity (in percent):
    Caucasian..............................................        58.9
    Black..................................................        21.8
    Hispanic...............................................        12.8
    Asian..................................................         3.7
    Pacific Isl............................................         1.0
    Native Amer............................................         0.7
    Other..................................................         1.1
Average Age................................................        32.1
    Officers...............................................        40.7
    Enlisted...............................................        30.3
    Warrant................................................        43.1
Married (in percent).......................................        45.3
    Officers...............................................        66.9
    Enlisted...............................................        40.8
    Warrant................................................        72.2
Gender (in percent):
    Male:..................................................        76.6
    Female.................................................        23.4
------------------------------------------------------------------------

Army Reserve Budget Figures

------------------------------------------------------------------------
                                        Total fiscal      Total fiscal
                                          year 2011         year 2012
                                       budgeted: $8.1   programmed: $8.8
                                           billion           billion
------------------------------------------------------------------------
Operations and maintenance..........      $3.2 billion     $3.1 billiion
Military Personnel..................       4.7 billion       5.3 billion
Military Construction...............       318 million   318,175 million
------------------------------------------------------------------------

Army Reserve Installations
    Fort Buchanan, Puerto Rico
    Fort McCoy, Wisconsin
    Devens, Massachusetts
    Fort Hunter Ligget, California
    Fort Dix, New Jersey
    Camp Parks, California

    Chairman Inouye. Admiral Debbink.
STATEMENT OF VICE ADMIRAL DIRK DEBBINK, CHIEF, NAVY 
            RESERVE
    Admiral Debbink. Chairman Inouye, Vice Chairman Cochran, 
thank you for the opportunity to appear before you today.
    I have the great appreciation for your support of our 
64,426 sailors and their families of our Navy Reserve. I would 
like to make a special mention of one of those sailors today, 
and that is our senior enlisted adviser, Force Master Chief, 
Ronney Wright, who is with me today. He will be retiring next 
month after 31 years in our Navy and 3 years as my senior 
enlisted adviser.
    I wanted to publicly wish both he and his wife, Donna, all 
the best in the future. Stand up?
    As I testify today, Navy Reserve sailors are operating 
globally. Approximately 30 percent of the Navy Reserve is 
providing support to Department of Defense operations, 
including more than 5,500 selected Reserve sailors either 
mobilized in support of overseas contingency operations or in 
training for their upcoming mobilization.
    While fully engaged in these operations, your Navy Reserve 
has answered the call to assist with major global crisis events 
during the last several months, including Operations Odyssey 
Dawn and Tomodachi. As our motto and our sailors proudly claim, 
the Navy Reserve, indeed, is ready now--anytime, anywhere.
    We have the ability and the flexibility to meet emergent 
mission requirements such as these, due in large part to this 
subcommittee's continued support. The $70 million in National 
Guard and Reserve equipment appropriations this subcommittee 
provided in fiscal year 2011 will be put to very good and 
timely use by the Navy Reserve.
    I also thank you for your demonstrated support of our Navy 
Reserve fleet, logistic aircraft, including the additional C-
40A aircraft in the fiscal year 20l1 budget.
    Our 2012 budget request will enable your Navy Reserve to 
continue supporting current operations, while optimizing the 
strategic value of the Navy Reserve as a relevant force, valued 
for its readiness, its innovation, its agility, and its 
accessibility.
    Along with the other Guard and Reserve components, we 
played a critical role in the discussion and outcome of the 
recent comprehensive review of the future roles of the Reserve 
components by OSD. One of the products of this review was a 
legislative proposal before this Congress that allows for 
future routine deployments of the Reserve components as a 
resource to meet overseas requirements.
    This proposal signifies a fundamental shift in the use of 
the Reserves, recognizing both the high level of expertise, as 
General Stultz talked about in these forces, as well as a 
desire of today's Reserve sailors to continue performing real 
and meaningful work within the Navy's total force.
    Our Navy Reserve budget request also addresses the health 
and well-being of our sailors and their families. As written in 
the President's report, entitled ``Strengthening Our Military 
Families,'' stronger military families strengthen the fabric of 
America. Our budget request includes funding for vital programs 
in support of the physical, psychological, and financial well-
being of Navy Reserve sailors and their families.
    It is a privilege to serve during this important and 
meaningful time in our Nation's defense, especially as a Navy 
Reserve sailor. I thank you for your continued support and 
demonstrated commitment to both the Navy and the Navy Reserve, 
and I look forward to your questions.
    Thank you, sir.
    Chairman Inouye. I thank you very much, Admiral.
    [The statement follows:]
           Prepared Statement of Vice Admiral Dirk J. Debbink
                              introduction
    Chairman Inouye, Senator Cochran, and distinguished members of the 
Senate Defense Appropriations Subcommittee, as I enter my third year as 
the Chief of Navy Reserve, I thank you for the opportunity to speak 
with you today about the capabilities, capacity, and readiness of the 
64,568 dedicated men and women who serve in our Navy's Reserve 
Component. I offer my heartfelt thanks for all of the support you have 
provided these great Sailors.
    The U.S. Navy is globally deployed, persistently forward, and 
actively engaged. America's Navy, year after year, in peace and war, 
carries out the core capabilities of forward presence, deterrence, sea 
control, power projection, maritime security, and humanitarian 
assistance and disaster response articulated in our maritime strategy A 
Cooperative Strategy for 21st Century Seapower (CS-21). This Nation's 
Navy derives its strength from the active and reserve Sailors and Navy 
civilians who comprise our Total Force. The Navy's Total Force is not 
just a concept; it is an operational and organizational reality. 
Operational Navy missions are executed by the Active Component (AC), 
the Reserve Component (RC), or a combination of both. AC and RC Sailors 
also provide strategic depth for maritime missions to ensure your Navy 
is always ready to respond globally to crisis situations while 
maintaining fiscal efficiency across the spectrum of operations.
    Our maritime strategy establishes naval power as an enduring 
concept and recognizes the Navy must constantly evolve and innovate to 
face emerging and future challenges. These two concepts--the enduring 
mission of our Navy and the reliance we place upon both components of 
Navy's Total Force to accomplish our objectives--inform our efforts as 
we review where we have been and consider our future.
    The Navy Reserve Strategic Plan charts our continued progress 
toward providing valued capabilities as part of Navy's Total Force. On 
October 1, 2010, we released the fiscal year 2011 update to Ready Now: 
The Navy Reserve Strategic Plan. Launched in early 2009, this Strategic 
Plan defines our mission, articulates our vision, and establishes 
strategic focus areas to organize our change efforts. In its third year 
of execution, this plan serves as the blueprint for shaping the Navy 
Reserve so it can effectively and efficiently carry out those Navy 
missions for which the Navy Reserve is well-suited. This year's update 
identifies 12 new initiatives focused on a wide range of improvements 
which include: making it more efficient for our Sailors to attain 
training and medical readiness; improving customer service; and 
determining the proper force mix of active and reserve contributions 
for current and future Navy capabilities across the mission spectrum.
    The foundation of all of our initiatives is to provide the 
necessary support to our Sailors and their families as one of my top 
priorities. This country owes a great debt to the men and women who 
have gone in harm's way to support contingency operations globally. It 
is our obligation to provide our Sailors every opportunity to succeed 
at home station and while deployed, and to provide the means to 
reintegrate once they return from overseas.
    Our Navy Total Force Vision for the 21st Century (NTF 21) clearly 
articulates Navy's vision for a Total Force and emphasizes our active 
Sailors, reserve Sailors, and Navy civilians as Navy's most important 
resource and a critical component to meeting the demands of CS-21. NTF 
21 guides our Navy's personnel policy and strategy and articulates our 
Total Force mission to attract, recruit, develop, assign, and retain a 
highly skilled workforce for the Navy. I discuss our various personnel 
policies in greater detail in Section III below.
                 2010: fully engaged--from peace to war
    Operationally, the Navy Reserve is fully engaged across the 
spectrum of Navy, Marine Corps, and joint operations, from peace to 
war. Right now, approximately 5,800 mobilized or deployed Navy Reserve 
Sailors are providing around half of the Navy's ground forces serving 
in the U.S. Central Command Area of Operations and in other critical 
roles worldwide.
    While executing these mobilizations, we are also providing valued 
capabilities for urgent requirements and ongoing operational support 
missions. In the immediate aftermath of the devastating earthquake in 
Haiti, the Navy Reserve was an important part of ``Operation Unified 
Response'' and Joint Task Force Haiti. Within hours, Navy Reserve Fleet 
Logistics Support Wing (VR) aircraft provided on-demand airlift, 
delivering urgently needed food, water, and medical supplies to the 
Haitian population. Navy Reserve doctors, nurses, and hospital corpsmen 
left their homes and families to serve ashore and on the hospital ship 
USNS Comfort. From medical professionals and Seabees to ground crews, 
logisticians and communicators, providing ``on-demand expertise'' is 
what makes the Navy Reserve a highly valued partner in Navy's Total 
Force.
    More recently, a VR C-40A Clipper was tasked to support the 
Department of State's (DOS) and Department of Defense's (DOD) Egypt 
contingency. The crew launched from Bahrain at 0400L and transported 33 
Marines from the theater's Fleet Anti-terrorism Security Team (FAST) 
and 7 Country Surveillance Assessment Team (CSAT) members from the 
Combined Forces Special Operations Component Command (CFSOCC) to Cairo 
International Airport. The FAST and CSAT members were tasked by DOS and 
DOD leadership to execute the Non-Combatant Evacuation Operation (NEO) 
for American citizens from the U.S. Embassy.
    Also, Navy Reserve assets played a critical role in Operation 
Tomodachi, the Department of Defense's assistance operation to Japan 
providing disaster relief following the 2011 Tohoku earthquake and 
tsunami. Over 5,000 man-days were used by Reserve Sailors participating 
in the relief effort. Such vital expertise as a 30-member Nuclear 
Emergency Response Team (from Norfolk, Virginia) and a 18-member 
Radiological Control Team (from Pearl Harbor) were transported to Japan 
on VR aircraft. These two teams were the primary teams to mitigate the 
contamination of U.S. aircrew and aircraft prior to returning to USS 
Ronald Reagan and other U.S. Navy ships on station.
    Every day Navy Reserve Sailors provide important operational 
support to this Nation with approximately one-quarter of our Sailors on 
full-time active duty, while many others provide their expertise on a 
``part time'' basis. Some examples include the skilled engineers and 
technicians executing shipyard projects in the Naval Sea Systems 
Command's Surge Maintenance program; Full-Time Support (FTS) and 
Selected Reserve (SELRES) aviators serving as instructors for 20 
percent of the training sorties flown in Navy's aviation training 
pipeline; and our Intelligence community providing key global 
intelligence support. Ideally suited to take on periodic and 
predictable work, our ready and accessible force of skilled Sailors 
provides valued capabilities on an ongoing basis. In the case of SELRES 
Sailors, when their work is completed they leave Navy's payroll and 
return to their civilian employers.
    Navy Reserve Sailors are highly skilled professionals. More than 70 
percent of our Force are Navy Veterans--Sailors who still use the 
skills they were taught during their service in the AC. RC Sailors may 
also have industry-honed civilian skills that they bring to the Navy 
during periods of active service. These Sailors bring a wealth of 
experience, including expertise in high-end technology fields, 
knowledge of world-class business practices and an entrepreneurial 
mindset. This diverse work experience brings a unique and valued 
contribution to the Total Force.
    Navy Reserve Sailors are not only highly skilled; they are an 
efficient and effective workforce. In fiscal year 2010, the Navy 
Reserve provided 17 percent of the total Navy Uniform end strength, 
utilizing 7 percent of total Navy personnel costs, while accounting for 
more than 913,000 days of support. Your Navy Reserve is fully engaged 
and prepared to do the work of our Nation--from peace to war.
                           personnel policies
    The success of the Navy Reserve Force is due first and foremost to 
the professionalism of the Sailors who volunteer to serve in a wide 
array of environments. Since the start of the military engagements in 
Afghanistan and Iraq, every member of today's Reserve has enlisted or 
re-enlisted, and I am continually awestruck at the patriotism of these 
young Sailors. Navy Reserve leadership continually reviews policies and 
laws, ensuring our Sailors are afforded the greatest opportunity to 
participate in Navy's Total Force and ensure each Sailor's family and 
employer are appropriately recognized for their sacrifices on behalf of 
the service member. The fiscal year 2012 budget request of $2.005 
billion (including Overseas Contingency Operations (OCO) funding) for 
Reserve Personnel, Navy (RPN) will continue to support the Manpower 
needs and policies of the Navy Reserve.
    One of the Navy Reserve's strategic focus areas is to enable the 
Continuum of Service (CoS). CoS is not just a Reserve imperative, but a 
strategic imperative for the Department of Defense (DOD) and the 
Department of the Navy (DoN). CoS initiatives provide for seamless 
movement between the AC, RC, and civilian service, while delivering 
operational flexibility and strategic depth at the best value for the 
Navy. Enabling the CoS philosophy by fully incorporating opportunities 
unique to the reserve, we recruit Sailors once and retain them for life 
through variable and flexible service options that provide a career 
continuum of meaningful and valued work.
    Building on our CoS efforts is one of my top priorities for fiscal 
year 2011. In the upcoming year, we will investigate a variable service 
option, in which volunteer members in the Individual Ready Reserve 
active status pool with desired critical skill sets (e.g., medical 
professions, SEALs, field Corpsmen, etc.) are identified and ready to 
fill contingency operations requirements if they desire. We will also 
seek to implement a Career Intermission Program with a SELRES Option 
that allows program participants to continue community training and 
qualifications during an intermission from active duty. This initiative 
provides AC Sailors an alternative to permanent separation as they 
pursue personal or professional goals such as caring for an elderly 
family member, continuing education, or starting a family. This 
exciting new lane change option builds on a successful Career 
Intermission Pilot Program initiated in 2009. Further, we are currently 
implementing a process to establish an Intermediate Stop (I-Stop) in 
support of a Sailor's transition from AC to their gaining Navy 
Operational Support Center (NOSC). This initiative will allow Sailors 
to receive orders to their NOSC where the Sailors AC separation and RC 
gain transactions are completed.
    All Sailors returning from overseas mobilizations are encouraged to 
attend a Returning Warrior Workshop (RWW), Navy's ``signature event'' 
within the DOD's Yellow Ribbon Reintegration Program (YRRP). The RWW is 
a dedicated weekend designed to facilitate reintegration of Sailors 
returning from combat zones with their spouses, significant others, 
employment, and communities. Staged at a high-quality location at no 
cost to the participants, the RWW employs trained facilitators to lead 
warriors and their families/guests through a series of presentations 
and tailored break-out group discussions to address post-combat stress 
and the challenges of transitioning back to civilian life. As of 
December 31, 2010, a total of 66 RWWs have been completed, attended by 
4,630 military personnel and 3,687 guests/family members. The fiscal 
year 2011-2012 budget supports 44 events, including four for the Marine 
Corps Reserve. Pioneered by the Navy Reserve, these workshops are 
available for all Navy Individual Augmentees. RWWs are a true success 
story in honoring our Sailors and their families. It is important to 
ensure this program continues to have both the full support of Navy 
leadership and the widest possible participation by all returning 
Sailors.
    RWWs serve as a key component of the Navy Reserve Psychological 
Health Outreach Program (PHOP). The PHOP employs dedicated teams of 
mental health professionals to provide psychological health 
assessments, outreach, and education, including Operational Stress 
Control (OSC) and Suicide Prevention training for the Navy and Marine 
Corps Reserve Communities. Regularly scheduled encounters are used to 
screen service members prior to and after deployment. The program is 
designed to identify potential stress disorders, facilitate early 
intervention, and provide access to psychological health support 
resources. The availability, quality, and effectiveness of 
psychological services utilized by Navy/Marine Corps Reservists and 
their families is closely monitored. In fiscal year 2010, PHOP teams 
conducted mental health assessments for more than 1,600 Reservists, 
provided outreach calls to more than 2,400 returning Reserve Sailors, 
followed up on more than 1,100 cases referred from Reserve commands or 
family members, and provided 300 visits to NOSCs conducting OSC briefs 
to more than 23,000 Sailors. In fiscal year 2011, the PHOP will deploy 
a user-friendly website providing both Sailors and their family members 
an easy-to-access database of PHOP work products and points of contact.
    The policies focused on enhancing the quality of life for Navy 
Reserve Sailors have paid dividends with regards to the end strength of 
the Force. Fiscal year 2010 marked a third consecutive year of notable 
Navy Reserve enlisted and officer recruiting achievements. Reserve 
enlisted recruiting met goal, and the measured educational achievement 
of our recruits was at the highest level ever. Since the active and 
reserve recruiting commands consolidated in 2004, more reserve officers 
were accessed in 2010 than in any year. Overall SELRES retention 
numbers were strong; however, increased pressure on members to prove 
their value to civilian employers, combined with a higher operational 
tempo, has resulted in higher attrition levels for members with 
critical skills sought both in and out of the military. Successful 
recruiting and retention strategies continue to play a critical role in 
attracting the right skill sets and talent to support the Fleet and 
Combatant Commands. Numerous initiatives are underway to get SELRES 
officer communities ``healthy'' by 2014, including targeted officer 
affiliation and future retention bonuses, the increase of accession 
goals, refinements in the Career Transition Office (CTO) process, and 
development of retention measurements and benchmarks. Incentives that 
target high-demand communities are essential in retaining members 
critical to mission accomplishment, and your support toward these 
efforts is very much appreciated.
    As we enter fiscal year 2011, the Navy Reserve expects high 
retention and low attrition rates to continue (similar to active duty 
trends), due to our ``Stay Navy'' campaign, the ability to provide real 
and meaningful work, as well as the effects of the current economy. Our 
close management of planned accessions and losses, coupled with current 
force-shaping and personnel policies, will ensure we retain the most 
qualified/capable Sailors while working toward the fiscal year 2012 
budgeted end-strength of 66,200 SELRES.
    Navy is actively preparing for repeal of ``Don't Ask, Don't Tell.'' 
Sailors and leaders at all levels of the Total Force, including all 
Navy Reserve Sailors, are completing the required training in a face-
to-face environment whenever possible. The central message of this 
training emphasizes the principles of leadership, professionalism, 
discipline, and respect.
    Our fiscal year 2012 budget request supports an emphasis on sexual 
assault prevention while continuing compassionate support for victims. 
This prevention emphasis includes 12 SAPR workshops in fleet 
concentration areas worldwide, execution of a pilot prevention program 
focusing on young Sailors, our most at-risk demographic, and most 
importantly, a clear and consistent message from leadership at all 
levels that sexual assault will not be tolerated in the United States 
Navy.
    There is no question the success of our Navy Reserve is due to the 
dedication, sacrifices and service of our Sailors, and the support they 
receive from their families and employers. I believe our policies 
reflect that same level of commitment, and I thank you for your support 
of our many programs, several of which have been described herein.
                          defining our future
    Numerous formal and informal studies examining the future role of 
the Reserve Components and the National Guard are in various stages of 
completion within and outside DOD. These studies are designed to assess 
the projected security environment of the world after the conclusion of 
the current Overseas Contingency Operations, as well as provide 
guidance on the capabilities that will be needed for our Nation's 
future security and continued prosperity. We are an active participant 
in these studies where appropriate. At the same time, we remain focused 
on the primary driving force defining our future: our integral role as 
an important component of Navy's Total Force.
    Navy's maritime strategy is founded upon the truth that the United 
States of America is a maritime nation. Some facts will not change: 70 
percent of the globe is covered by water; 80 percent of our population 
lives on or near the coast; and 90 percent of our commerce travels via 
the oceans. The oil that provides the energy for our modern world flows 
in tankers via a few strategic sea routes--routes that must be kept 
open. Our digital planet is linked by submerged fiber optic lines that 
transmit money and ideas across the planet 24/7. The enduring mission 
of our Navy to protect the global commons and maintain the stability 
necessary for prosperity will remain whether we are at peace or war.
    Bottom line: Demand for Navy capabilities will remain the same or 
increase in the future. The Navy Reserve will play a vital role in 
Navy's Total Force that will deliver these capabilities. As stated in 
the 2010 Quadrennial Defense Review (QDR) Report, ``prevailing in 
today's wars requires a Reserve Component that can serve in an 
operational capacity--available, trained, and equipped for predictable 
routine deployment. Preventing and deterring conflict will likely 
necessitate the continued use of some elements of the RC--especially 
those that possess high-demand skill sets--in an operational capacity 
well into the future.'' We thank Congress for their demonstrated 
interest in ensuring DOD has appropriate authority to access the RC in 
order to provide a more complete Total Force response to the 
requirements of the future.
    Today's Navy Reserve provides both strategic depth and operational 
capabilities. Depending on the mission, we mirror or complement the AC. 
We mirror the AC and provide rotational forces for those missions where 
it makes operational and fiscal sense. We complement the AC by 
providing unique capabilities in other areas, such as in the Intra-
Theater Fleet Logistics Support, Counter-Narcotics Surveillance, and 
Navy Special Warfare Helicopter Support missions. The correct AC/RC mix 
varies with each of Navy's wide variety of missions and required 
capabilities. As new missions emerge and current missions evolve, AC/RC 
mix solutions are carefully and continually examined. As stated in the 
QDR, ``as the operational environment allows, DOD will seek ways to 
rebalance its reliance on the RC to ensure the long-term viability of a 
force that has both strategic and operational capabilities.'' The Navy 
Reserve's fiscal year 2012 Operations and Maintenance budget request of 
$1.397 billion (including OCO funding) will continue to provide the 
Joint Force with readiness, innovation, and the agility to respond to 
any situation.
    While we have become more operational, we have also become a 
smaller and more cost-effective force. Throughout the post-9/11 era, 
the Navy Reserve has pursued efficiencies while increasing our 
capabilities. We have eliminated staff and organizational redundancies 
wherever possible, leveraging the Navy's schools, bases, organizations 
and information technology infrastructure. We have honed our staff 
overhead to approximately 3,000 Sailors who serve and enable the 
remaining 62,000 Sailors of our Navy Reserve to contribute directly to 
active Navy commands.
    The Navy's RC is a force for innovation across all spectrums, but 
it is especially evident in the realm of Information Technology (IT). 
IT is critical to everything we do as a Navy, and the Navy Reserve is 
in the forefront on several IT initiatives, such as retiring our legacy 
networks and contributing to Navy Cyber Forces. The Navy Reserve is the 
only Navy echelon to have completely retired all legacy networks and 
operate exclusively within Navy Marine Corps Intranet (NMCI). As we 
progress from the NMCI contract to the Next Generation Enterprise 
Network, Navy Reserve is leading the effort to move to thin client 
computing and other efficiencies to provide our Sailors with the most 
secure, robust access available anytime, anywhere.
    In 2011, we are exploring new network access methodologies with 
further testing of the Secure Remote Access Pilot designed to empower 
the workforce to quickly and securely access their digital resources 
from any location, using any asset, at any time. The Navy Reserve will 
also deploy Wi-Fi access to all Navy Reserve facilities, generating 
cost savings and improving Sailor satisfaction. Also, by the end of 
fiscal year 2011, all Reserve travel arrangements and reimbursement 
claims will be handled through the Defense Travel System (DTS). Navy 
Reserve is the lead reserve and guard activity to migrate to DTS. This 
migration will eliminate the manual processing of 125,000 travel claims 
per year, freeing manpower for other customer service requirements and 
speeding pay to the reserve traveler from an average of 45 days to an 
average of 5 days.
    Navy is developing a data system--tentatively called the Integrated 
Pay and Personnel System--Navy (IPPS-N)--which will improve pay and 
service record support to both AC and RC Sailors. Historically, Reserve 
Readiness Commands, Personnel Support Detachments, and NOSCs have been 
unable to attain an accurate picture of manpower and personnel data 
despite exhaustive efforts to reconcile the information found in 
multiple ``authoritative'' sources and Reserve Headquarters Support 
databases. IPPS-N would allow for real-time service record 
documentation, end strength reporting, and pay-accounting across both 
the AC and RC. This is not just the design and building of an IT system 
but rather a complete review of all business processes. The 
Authoritative Data Environment, a key piece of the IPPS-N that the Navy 
Reserve is promoting, will be the single source for Sailor manpower and 
personnel records and provide the base for the complete solution. The 
end-state of this initiative is improved personnel management across 
the CoS and better support for service members and leadership.
    Ensuring our Reserve Force has the proper equipment to bring our 
military acumen to bear is one of my ongoing priorities. I thank 
Congress for the support they provide the Navy Reserve in the many 
appropriations for the Force. In particular, the Navy and the Joint 
Forces benefit greatly from Congress' support for recapitalizing Fleet 
Logistics aircraft by procuring C-40A airframes. The C-40A ``Clipper'' 
is a Navy Unique Fleet Essential Airlift (NUFEA) aircraft that provides 
flexible, time-critical inter- and intra-theater air logistics support 
to Navy Fleet and Component Commanders as well as providing logistical 
support for the Navy Fleet Response Plan. The C-40A is a medium lift 
cargo aircraft, equipped with a cargo door and capable of transporting 
up to 36,000 pounds of cargo, 121 passengers, or a combination of each. 
The C-40A is the designated replacement for the Navy Reserve's legacy 
C-9B and C-20G aircraft. Aircraft recapitalization of the C-9B and C-
20G is necessary due to increasing operating and depot costs, 
decreasing availability, inability to meet future avionics/engine 
mandates required to operate worldwide, and continued long-term use of 
the C-20G in the harsh desert environment. The C-40A has significantly 
increased range, payload, and days of availability compared to the C-9B 
and C-20G, and has the unique capability of carrying hazardous cargo 
and passengers simultaneously. Navy C-40A detachments are forward-
deployed 12 months per year to provide around-the-clock support to the 
U.S. Pacific Command, U.S. Central Command, and U.S. European Command 
Areas of Responsibility. Additionally, these cargo airplanes are an 
integral first-responder in emerging Humanitarian Assistance/Disaster 
Relief core mission sets. Currently, 11 C-40A cargo aircraft are 
operational and one is on contract for an early fiscal year 2012 
delivery. Five aircraft are required to complete the minimum, risk-
adjusted C-40A procurement plan of 17 aircraft which will complete the 
divestiture of the C-9Bs and C-20Gs. Congressional support for the Navy 
Reserve C-40A program has placed the VR fleet closer to realizing a 
more capable and cost-efficient NUFEA capability.
    Also, the National Guard and Reserve Equipment Appropriation 
(NGREA) funds equipment for the Navy Reserve. NGREA has allowed us to 
purchase expeditionary warfighting equipment for the Naval 
Expeditionary Combat Enterprise in support of operations in Iraq and 
Afghanistan, and essential training upgrades to the adversary mission. 
In the past, NGREA Funding has also allowed for the procurement of C-
40A cargo aircraft to replace an aging fleet of C-9s, C-12s, and C-20s. 
The Navy Reserve has a solid record of executing NGREA funding, 
demonstrating our stewardship of these important taxpayer dollars. I 
thank you for all the support you have provided to the Navy Reserve 
through this appropriation in the past.
                               conclusion
    As stated in the 2010 QDR, ``the challenges facing the United 
States today and in the future will require us to employ the National 
Guard and Reserve force as an operational reserve to fulfill 
requirements for which they are well suited.'' Our Navy Reserve Vision 
calls for us to be valued for three very important hallmarks of our 
Force: our ``readiness, innovation, and agility to respond to any 
situation.'' This applies operationally and strategically as Navy 
continuously evaluates and adjusts the AC/RC mix in any given naval 
capability. Through Navy's adaptable, dynamic, and requirements-driven 
process, the Navy Reserve has proven it has much to offer ``America's 
Navy--A Global Force for Good.''
    On a more personal level, as Chief of Navy Reserve I take to heart 
each Sailor has sworn to support and defend the Constitution of the 
United States. My covenant to them is to make each day in the Navy 
Reserve a day filled with real and meaningful work. My obligation to 
the Navy and our Nation is to ensure that your Navy Reserve has the 
right force structure today and in the future. Using our strategic plan 
as our blueprint for the future, we intend to live up to the promise of 
our Force Motto: Ready Now. Anytime, Anywhere.
    On behalf of the Sailors, civilians, and contract personnel of our 
Navy Reserve, we thank you for the continued support within Congress 
and your commitment to the Navy Reserve and Navy's Total Force.

    Chairman Inouye. General Moore.
STATEMENT OF MAJOR GENERAL DARRELL L. MOORE, ACTING 
            COMMANDER, MARINE FORCES RESERVE, UNITED 
            STATES MARINE CORPS
    General Moore. Good morning, sir. Thank you very much for 
this opportunity to be here.
    It was a real pleasure for me last week to meet the 
chairman and vice chairman in their offices, and I enjoyed that 
time with you.
    This morning, sir, thousands of Marine Reserves are on the 
ground in Afghanistan, serving side-by-side in combat 
operations along with active component marine units. Our 
Reserve units are being incorporated into the active deployment 
rotation cycle for the foreseeable future.
    Your Reserve marines work hard to stay ready, and we train 
vigorously for this fight during our annual training. We truly 
do serve in every clime and place. For example, besides this 
summer engaging in training operations in the Pacific and here 
in the United States at Twenty-Nine Palms and the Mountain 
Warfare Training Center, I will have marines engaged in theater 
security cooperation exercises in Morocco, Surinam, Ukraine, 
Georgia, South Africa, Uganda, Burundi, Senegal, Mauritania, 
and Belize.
    Marine Forces Reserve stands ready to deploy anywhere in 
the world as we are needed. We are an essential partner to 
keeping the United States Marine Corps as the Nation's force in 
readiness.
    I look forward to this opportunity to address any questions 
you or Senator Cochran may have.
    Thank you.
    Chairman Inouye. Thank you very much, General.
    [The statement follows:]
          Prepared Statement of Major General Darrell L. Moore
                              introduction
    Chairman Inouye, Ranking Member Cochran, and distinguished Members 
of the Subcommittee, it is my honor to report to you on the state of 
the Nation's Marine Corps Reserve and our Marine Reservists, who truly 
epitomize the Marine Corps' values of honor, courage and commitment. I 
would also like to take this opportunity to discuss what the 
operational Reserve means for the defense of our Nation, support to its 
combatant commanders and commitment to our international partners.
    First and foremost, Marine Forces Reserve continues to be an 
integral element of the Total Force Marine Corps. We share the culture 
of deployment and expeditionary mindset that has dominated Marine Corps 
culture, ethos and thinking since our beginning more than two centuries 
ago. All Marines stand eternally ready to answer this Nation's call to 
arms. Accordingly, the U.S. Marine Corps Reserve is organized, equipped 
and trained in the same manner as the Active Component Marine Corps, 
and consequently, is interchangeable and forever leaning forward to 
deploy in any clime or place.
    Commandant of the Marine Corps Gen. James F. Amos recently stated 
in his planning guidance that ``the Marine Corps is America's 
Expeditionary Force in Readiness.'' General Amos' March 1, 2011, report 
to the House Armed Services Committee on the posture of the United 
States Marine Corps specifically addressed the Marine Corps Reserve's 
operational orientation within the Expeditionary Force in Readiness 
construct: ``The transition in utilization of the Marine Corps Reserve 
from a strategic to operational Reserve, as affirmed by the Marine 
Corps' recent force structure review, expands the Corps' ability to 
perform as America's Expeditionary Force in Readiness.
    The Marines themselves, most of whom came to our Nation's colors 
after 9/11 and have deployed deep into harms way, prefer this model and 
do not desire to assume lives as so called ``weekend warriors.'' This 
high level of flexibility, responsiveness and elan is only possible by 
the ever deepening bench of combat tested and uniquely qualified 
citizen ``Soldiers of the Sea.''
    I continue to be humbled on a daily basis in my interactions with 
these magnificent young Americans. Like their active-duty brothers and 
sisters, they sacrifice so much of their time--and so much of 
themselves--to protect and serve this great Nation. The way they 
balance their family responsibilities, civilian lives, and 
occupations--and still stay Marine--continues to amaze me. They do it 
with humility, without fanfare, and with a sense of pride and 
dedication that is consistent with the great sacrifices of Marines of 
every generation.
                         an operational reserve
    In the previous decade, this great Nation required its Marine Corps 
Reserve to be continuously engaged in combat operations in Iraq and 
Afghanistan as well as in regional security cooperation and crisis 
prevention activities in support of the various geographical combatant 
commanders. This operational tempo has built a momentum among our 
warfighters and a depth of experience throughout the ranks that is 
unprecedented in generations of Marine Corps Reservists.
    In addition to our service in and around combat zones, your Marine 
Corps Reserve's response to our Nation's needs echoes the February 2010 
Quadrennial Defense Review, which called for a Reserve Component that 
can serve in an operational capacity for predictable routine 
deployment. Accordingly, today's Marine Corps Reserve fully embodies 
the operational Reserve concept and has shaped itself to continue in 
this operational manner for the foreseeable future.
    Understanding that we are fighting a transnational enemy and that 
partner nations will continue to seek our training and mentoring 
capabilities, I expect our Marine Reservists to be in great demand 
during the coming years in a sustained manner. I am pleased to report 
that we are prepared to provide that persistent capacity. The nature of 
the fight in Afghanistan, for instance, is particularly suited to our 
Marine Reservists. It is a thinking man's fight that requires solutions 
at the grassroots level where our Marines operate best, which is among 
the population as evidenced by our combat prowess and ``Small Wars'' 
mindset. To be sure, our recent successes in Iraq were hastened by the 
types and quality of individuals we have in our ranks, who often 
utilized civilian skills in ways not necessarily anticipated, but 
ultimately proving pivotal to the success in Al Anbar Province. I 
expect no difference with our Marine Reservists in Afghanistan. That 
maturity, creativity and confidence is what an operational Reserve 
brings to the fight. In fact, your Marine Corps Reserve is more highly 
trained, capable, and battle-tested than at any time since the Korean 
War. Without reservation, your Marine Corps Reserve continues to be an 
integral part of the Total Force Marine Corps, and its strength lies in 
the fact that Marine Corps Reservists blend seamlessly into the gaining 
force regardless of whether they deploy as individual augments, members 
of detachments, or operational units.
    As of January 31, 2011, more than 58,000 Reserve Marines have 
mobilized in support of Overseas Contingency Operations, previously the 
Global War on Terrorism, since September 11, 2001. The vast majority of 
these Marines deployed to the U.S. Central Command's area of 
responsibility, which includes Iraq, Afghanistan, and previously, the 
Horn of Africa. One-hundred percent of Marine Corps Reserve units at 
the battalion and squadron level have either been activated in their 
entirety or activated task-organized detachments. Thousands of other 
Marine Reservists deployed in support of combatant commanders' Theater 
Security Cooperation initiatives to South America, Eastern Europe, 
Asia, Africa, Australia, and various Pacific island nations. This year 
will be no different as Marine Reservists are scheduled to support 
planned exercises in Norway, Peru, Belize, Uganda, Estonia and Morocco, 
and again in various nations in Asia and the Pacific islands.
    Our Force Generation Model is one of the important planning 
mechanisms for an operational Reserve. The Model, which was developed 
and implemented during October 2006, continues to provide long-term and 
essential predictability of future activations and deployments for our 
Reservists. The Model provides my Marines, their families, and their 
employers, the capability to plan their lives 5 or more years out. It 
empowers them to strike the critical balance between family, civilian 
career, and service to the Nation, while allowing employers the time to 
manage the temporary loss of valued employees. The Force Generation 
Model also assists Service and joint force planners in maintaining a 
consistent and predictable flow of fully capable Marine Corps Reserve 
units. Internal to the Marine Corps, this flow of fully trained and 
capable Reserve units has proven essential in enabling Active Component 
combat units to start realizing an approximate 1:2 deployment-to-dwell, 
which was established by the Secretary of Defense.
    The Force Generation Model is a relatively simple management tool 
based on 1-year activations, to 4-plus years in a non-activated status, 
which makes continued programmed utilization of the Marine Corps 
Reserve sustainable at 1:5 deployment-to-dwell over the long term. In 
fact, the Marine Corps Reserve can potentially source 3,000 Marines per 
rotation and 6,000 Marines annually at a 1:5 deployment-to-dwell as 
programmed in the Force Generation Model. Furthermore, projecting 
predictable activation dates, mission assignments and geographical 
destination years in advance enables my units to orient training on 
core mission requirements early in the dwell period, then transition 
the training focus to specific mission tasks as soon as the unit is 12-
18 months from activation.
    Marine Forces Reserve operations continued on a high operational 
tempo as we supported all of the geographical combatant commanders 
across the globe. Our Force units and major subordinate commands--the 
4th Marine Division, 4th Marine Aircraft Wing, and 4th Marine Logistics 
Group--were called upon to provide 1,920 Marines to support Operation 
Enduring Freedom and are in the final stages of preparing another 3,147 
Marines to deploy this fiscal year. Marine Forces Reserve also deployed 
Marines to a plethora of theater specific exercises and cooperative 
security efforts, which were designed to increase interoperability with 
our Partnership For Peace NATO allies as well as for developing Theater 
Security Cooperatives in countries such as Morocco, Mozambique, 
Romania, Georgia, the Black Sea region and partners throughout the 
Pacific Rim.
    Marine Forces Reserve's operational focus will continue to directly 
support the geographical combatant commanders this fiscal year in 
various roles that includes multiple bi-lateral exercises, such as 
Western Accord in Senegal, Sea Breeze in the Ukraine, African Lion in 
Morocco, and Agile Spirit, which is an ongoing effort with the Georgian 
Army in and around Tbilisi. The way ahead for Marine Forces Reserve 
includes building partner capacity in the Black Sea region on behalf of 
the geographical combatant commander by providing Marine Reservists to 
conduct operations of various sizes and complexities throughout the 
region to assure stability and sustainability in this high priority 
geopolitical region.
    For the third year in a row, Marine Forces Reserve will sponsor 
exercise Javelin Thrust stateside this July, which will focus on Marine 
Air-Ground Task Force core competency training. Javelin Thrust 2011 
will be conducted aboard installations throughout the Western United 
States with both virtual and real world aspects to the exercise. The 
scenario of this year's event is tailored to the current operating 
environment. A criterion for participating units was based on their 
future deployment schedule according to the Force Generation Model. 
Javelin Thrust will provide all elements of the Marine Air-Ground Task 
Force with the opportunity to complete some of the training necessary 
to expeditiously forward-deploy competently in any operational 
environment. Additionally, individuals serving on the exercise's Marine 
Air-Ground Task Force staffs will receive training that will enable 
them to competently perform as individual augments on a Marine Air-
Ground Task Force staff or joint staff overseas. In addition to 
involving all of Marine Forces Reserve's Force units and three major 
subordinate commands, this year's exercise will include an integrated 
Active Component and Reserve Component headquarters. This aspect of the 
exercise is aimed at validating the Total Force approach with an 
emphasis on interoperability of Active Component and Reserve Component 
Marine forces.
    In addition to operational requirements, Marine Forces Reserve 
personnel and units conduct community relations events nationwide. Due 
to the command's unique geographical dispersion, Marine Forces Reserve 
personnel and units are advantageously positioned to interact with the 
American public, telling the Marine Corps story to our fellow citizens 
who typically have little or no contact with the Marine Corps.
    During the previous year, Marine Forces Reserve supported more than 
10 significant community relations events, which included among others: 
Marine Week Boston, Armed Forces Bowl in the Dallas/Fort Worth area, 
New York City Fleet Week, Baltimore Fleet Week, Public Service 
Recognition Week and Joint Service Open House in the District of 
Columbia area, and the commissioning of the USS New York. Marine Forces 
Reserve also supported more than 50 community relations events of a 
lesser scale that included various air shows, memorials and assorted 
flyovers across the Nation. Additionally, more than 200 community 
events of a routine nature were supported across the Nation, such as 
color guard details, vehicle and weapon static displays, and guest 
speakers.
    The significant community relations events required a footprint of 
Marine Forces Reserve assets that mirrored an operational Marine Air-
Ground Task Force in structure. Of note is the Marine Week concept, 
which was held in Boston during fiscal year 2010. The Marine Week 
concept is a strategic communication initiative created to articulate 
to the American public what the U.S. Marine Corps stands for, what we 
do, who we are and what the Corps aspires to accomplish in the future. 
This successful week-long event encompassed a series of more than 60 
smaller events, which included formal ceremonies, various static 
displays of aircraft, vehicles and weapons, and other outreach events 
such as sports demonstrations and concerts. Marine Forces Reserve was 
the lead element for Marine Week Boston, with the 24th Marine Regiment 
sourcing the Marine Air-Ground Task Force command element and the 
subordinate units. Marine Forces Reserve will take the lead once again 
for Marine Week St. Louis this June and is likely to form the command 
element on behalf of the Marine Corps for all Marine Weeks hereafter 
due to our national footprint, deep connection with local communities, 
and integration of Active and Reserve Component personnel at our 
Reserve sites across this great Nation.
                               personnel
    Marine Forces Reserve consists of the Selected Marine Corps Reserve 
and the Individual Ready Reserve, which form the Ready Reserve. The 
Selected Marine Corps Reserve is comprised of Marines in Reserve units, 
those in the Active Reserve program, Individual Mobilization 
Augmentees, and those in initial training. These categories of Marines 
form the inventory of the Selected Marine Corps Reserve's authorized 
end strength of 39,600.
    We continue to enjoy strong accessions and an increase in retention 
over the historical norm, which greatly enhanced our ability to improve 
our end strength during fiscal year 2010. Our bonus and incentive 
programs for Reserves were essential tools in achieving more than 99 
percent of our authorized end strength. Continued use of these programs 
will remain critical to both meeting our overall end strength this 
fiscal year and to continue shaping our Force. Our authorized end 
strength of 39,600 is appropriate for providing us with the Marines we 
require to support the Total Force while achieving the Commandant's 
goal of a 1:5 deployment-to-dwell for Selected Marine Corps Reserve 
units.
    I am pleased to report that the Marine Corps/Navy Reserve Team is 
as strong as ever. In the past year the Navy made sure that Marine 
Forces Reserve units were fully manned and supported with Program 9--
U.S. Navy personnel in support of Marine Forces--and Health Service 
Augmentation Program personnel during all deployment phases. Five 
hundred thirty-six U.S. Navy personnel were sourced to staff Marine 
Forces Reserve units that deployed to Iraq and Afghanistan, as well as 
numerous joint and/or combined exercises. These individuals focused 
almost entirely on providing medical, dental and religious services. 
The Navy Mobilization Office works with my headquarters, as well as 
with my major subordinate commands, to source 100 percent of all 
requirements.
    Manning to authorized end strength requires an institutional 
approach. The Marine Corps is unique in that all recruiting efforts 
fall under the direction of the commanding general, Marine Corps 
Recruiting Command. This approach provides tremendous flexibility and 
unity of command in annually achieving Total Force recruiting 
objectives. Like the Active Component Marine Corps, Marine Corps 
Reserve units rely primarily upon a first-term enlisted force. Marine 
Corps Recruiting Command achieved 100 percent of its recruiting goal 
for non-prior service recruiting (5,868) and prior service recruiting 
(4,209) for fiscal year 2010. As of February 28, 2011, 2,576 non-prior 
service and 1,340 enlisted prior service Marines have been accessed, 
reflecting 45.86 percent of the annual enlisted recruiting mission for 
the Selected Marine Corps Reserve. We fully expect to meet our Selected 
Marine Corps Reserve recruiting goals again this year.
    Officer recruiting remains our most challenging area. Historically, 
the Active Component Marine Corps has been the exclusive source of 
senior lieutenants and captains for the Marine Corps Reserve, and it 
remains a source of strength in meeting our company grade requirements. 
Through our transition assistance and educational outreach programs, we 
continue to ensure that each transitioning Active Component Marine is 
educated on continued service opportunities in the Marine Corps 
Reserve. To compliment the Active-to-Reserve Component company grade 
accessions, we continue to offer three recently implemented Reserve 
commissioning initiatives that focus exclusively on the most crucial 
challenge of manning the Marine Corps Reserve with quality company 
grade officers. These Reserve commissioning initiatives are the Reserve 
Enlisted Commissioning Program (RECP), which was expanded to qualified 
active duty enlisted Marines in addition to qualified Reserve enlisted 
Marines; Meritorious Commissioning Program--Reserve (MCP-R), which is 
open to individuals of the Active and Reserve Components who have 
earned an Associate's Degree or equivalent in semester hours; and 
Officer Candidate Course--Reserve (OCC-R). Since 2004, these three 
programs have produced a total of 330 lieutenants for the Marine Corps 
Reserve. The OCC-R program has been the most successful of the three 
Reserve commissioning initiatives, producing 296 officers. It focuses 
on ground billets with an emphasis on ground combat and combat service 
support within specific Reserve units that are scheduled for 
mobilization. The priority to man units with these officers is once 
again tied to the Force Generation Model. All together, these programs, 
combined with our prior service recruiting efforts, are projected to 
provide at least 90 percent manning of critical combat arms and 
engineer company grade officer billets by September 30, 2015.
    Regarding retention, all commanders and senior enlisted leaders 
across Marine Forces Reserve are tasked to retain quality Marines 
through example, mentoring, and information and retention programs. 
This takes place across the Marine experience, not just in the final 
days of a Marine's contract. Those approaching the end of their current 
contracts--Active or Reserve Component--receive more focused counseling 
on the tangible and intangible aspects of remaining associated with, or 
joining, the Selected Marine Corps Reserve.
    Your continued support regarding enlistment, affiliation, and re-
enlistment bonuses along with other initiatives greatly influences my 
ability to gain and retain the very best. I greatly appreciate the 
continuance of all of the many programs that help us recruit and retain 
the best young men and women this nation produces.
                               equipment
    Established by the Commandant in his planning guidance, the Marine 
Corps' number one focus is to provide the best trained and best 
equipped Marine units to Afghanistan. Accordingly, Marine Forces 
Reserve has two primary equipping priorities--equipping individuals who 
are preparing to deploy and sufficiently equipping units to conduct 
home station training. I directed my staff to dedicate its efforts to 
ensure that every member of Marine Forces Reserve deploys fully 
equipped with the most current authorized Individual Combat Equipment 
and Personal Protective Equipment. Accordingly, we continue to equip 
individuals and units during their dwell periods with the best 
available equipment tailored specifically to their next mission in 
accordance with the Force Generation Model.
    Whereas individuals receive 100 percent of the necessary 
warfighting equipment, Marine Forces Reserve units are equipped to a 
level identified as a Training Allowance. The Training Allowance is the 
amount of equipment required by each unit to most effectively conduct 
home station training. My guidance to my commanders is to establish 
their Training Allowance to enable them to maintain the highest 
training readiness as defined by their mission requirements. As a 
contributing component of the Total Force Marine Corps, Marine Corps 
Reserve units are equipped with the same equipment that is utilized by 
the Active Component Marine Corps, but in quantities tailored to fit 
Reserve Training Center capabilities. To be sure, it is imperative that 
our units train with the same equipment they will utilize while 
deployed. I am pleased to report that as a whole, we are adequately 
equipped to effectively conduct home station and Force-level training.
    Although we have been engaged in combat operations for almost a 
decade, our equipment readiness rates remain above 97 percent. To 
maintain this level of readiness, we have relied heavily on 
supplemental funding in the Overseas Contingency Operational funding. 
Your continued support in this category has been critical in 
maintaining our current level of equipment readiness for combat 
operations and resultant contribution to Marine Corps combat 
capability.
    Several resources and programs combine to form the basis to the 
Marine Corps Reserve approach to maintenance. Routine preventive and 
corrective maintenance are performed locally by operator and organic 
maintenance personnel. This traditional approach to ground equipment 
maintenance was expanded to include an increasing reliance on highly 
effective contracted services and depot-level capabilities, which were 
provided by the Marine Corps Logistics Command. Over the past year, we 
experienced significant success with the Marine Corps Logistics 
Command's ``Mobile Maintenance Teams'' that have provided preventive 
and corrective maintenance support to all 183 Marine Corps Reserve 
sites across the United States. This maintenance augmentation effort 
has directly improved our equipment readiness as well as provided 
valuable ``hands on'' training to our organic equipment maintainers. 
Additionally, the Marine Corps Logistics Command's ``Enterprise 
Lifecycle Maintenance Program'' provides for the rebuilding and 
modifying of an array of principal end items, such as the Light Armored 
Vehicle, the Amphibious Assault Vehicle and our entire motor transport 
fleet. Finally, we continue to reap significant benefits from the 
Marine Corps Corrosion Prevention and Control Program. Dollar for 
dollar, this program has proven highly effective in the abatement and 
prevention of corrosion throughout the Force. Collectively, these 
initiatives and the hard work and dedication of our Marines and 
civilian Marines across Marine Forces Reserve sustain our ground 
equipment readiness rates at or above 97 percent.
    National Guard and Reserve Equipment Appropriations have been an 
important element of the Total Force Marine Corps ability to modernize 
the Reserve Component and have ensured that there is maximum 
compatibility between the Reserve and Active Components. During fiscal 
years 2008, 2009 and 2010, Marine Forces Reserve received $45 million, 
$65 million, and $45 million respectively through National Guard and 
Reserve Equipment Appropriations. We used these funds to augment 
regular procurement dollars and accelerate the fielding of various 
programs that touch every element of the Marine Air-Ground Task Force.
    With the fiscal year 2008 National Guard and Reserve Equipment 
Appropriation, we applied funding toward upgrades of aircraft which 
included the KC-130T, the F/A-18 and the UH-1. These upgrades enabled 
us to maintain compatibility with airframes being employed by the 
Active Component Marine Corps. We also purchased an operation support 
airlift UC-12 aircraft for our VMR Detachment at Naval Air Station 
Joint Reserve Base New Orleans. Funds were also used for Tactical 
Remote Sensor Suites and the Rover III Forward Air Control 
communications capability. Both of the previous items added to our 
ability to enhance command and control. Last, we invested in four 
modeling and simulation programs that increased the effectiveness of 
our Reserve training while reducing our training costs. These included 
two mobile HMMWV Egress Assistance Trainers, seven Medium Tactical 
Vehicle Replacement Operator Trainers, one Virtual Combat Convoy 
Training System, and 135 Digital-Virtual Training Environment suites.
    During fiscal year 2009, the Congress initially appropriated $40 
million in National Guard and Reserve Equipment Appropriations. An 
additional $25 million was subsequently provided in that year's 
supplemental. These funds provided Marine Forces Reserve with 
additional aircraft upgrades for the UH-1 and improved survivability of 
our UC-35 aircraft, additional command and control items with purchases 
of additional Tactical Remote Sensor Suites, Digital Terrain Analysis 
Mapping Systems, a Counter Intelligent/Human Intelligence Equipment 
Package, and various tactical laptop computers; supporting arms 
upgrades for our Digital-Virtual Training Environment program; 43 
Logistics Vehicle System Replacements; and 22 upgraded Light Armored 
Vehicles, which are a critical component to the Marine Air-Ground Task 
Force's combat power and mobility.
    With the $45 million in fiscal year 2010 National Guard and Reserve 
Equipment Appropriation, we increased our investment in Light Armored 
Vehicle purchases by ordering nine additional 25 mm canon variants and 
five command and control variants. We also purchased an Air Traffic 
Control simulation package, which will greatly improve the training 
capability for our Air Traffic Control Marines.
    In our fiscal year 2012 National Guard and Reserve Equipment Report 
published in February, we identified four modernization priorities that 
could be funded with the fiscal year 2011 National Guard and Reserve 
Equipment Appropriations you have already provided. The first priority 
is to procure the remaining Light Armored Vehicles for our 4th Light 
Armored Reconnaissance Battalion. At the time the report was published, 
we had 42 vehicles which still needed to be procured at a total cost of 
$109 million. Since that report was published, the Marine Corps has 
taken advantage of its repair depots' ability to convert recently 
returned A1 variant Light Armored Vehicles into A2 variants. This 
reduces our anticipated gap to 27 vehicles at an estimated cost of $68 
million. Using a portion of the $70 million provided in the 2011 
Department of Defense and Full-Year and Continuing Appropriations Act, 
we intend to procure 10 additional Light Armored Vehicle Logistics 
variants, which will further close out our Light Armored Vehicles gap.
    In the fiscal year 2012 National Guard and Reserve Equipment 
Report, we also discussed our priority to accelerate fielding of our 
KC-130J fleet. The KC-130J has already been fielded to the Active 
Component Marine Corps while the KC-130T will remain in service in the 
Reserve Component from now until beyond the year 2020. The first 
Reserve Component KC-130J is not scheduled for delivery until 2014. 
These two aircraft are very different airframes, each requiring 
completely different logistical, maintenance, and aircrew requirements. 
The longer we maintain both airframes, the longer we have to invest in 
twice the logistics, twice the maintenance training, and twice the 
aircrew training. The total cost to purchase all 28 Reserve Component 
KC130J aircraft is more than $2 billion. Currently, only 9 of the 28 
airframes are funded within the Future Years Defense Plan.
    The third priority outlined in the fiscal year 2012 National Guard 
and Reserve Equipment Report is the procurement of a KC-130J Weapons 
System Trainer for the Reserve Component at a cost of approximately $25 
million. As we transition models, there will be a need for this 
simulator in order to maintain combat qualifications. Without one in 
the Reserve Component, our aircrews will be competing for time in 
active component simulators, which are already over-scheduled.
    The fourth priority outlined in the fiscal year 2012 National Guard 
and Reserve Equipment Report is the modernization of our aging 
Logistics Vehicle System fleet. In addition to the 43 Logistics Vehicle 
System replacements purchased with the fiscal year 2009 National Guard 
and Reserve Equipment Appropriation, we requested to purchase an 
additional 108 vehicles using a significant portion of the $70 million 
provided in this year's appropriation Act. This not only provides for 
an additional 58 cargo variants, but also provides 37 tractor variants 
and 13 wrecker variants. The tractor and wrecker variants are just 
reaching full rate production and this investment continues to enhance 
our compatibility with the Active Component.
                                training
    Language and culture training is available to all Marine Reservists 
and is delivered via a variety of techniques, from live instruction to 
portable media to web-based tutorials and applications. Our Afghanistan 
culture training leverages academia, utilizes Afghan-American 
expertise, and includes web-host detailed and tailored courses of 
instruction. These courses can be accessed by any computer and have the 
added functionality of being iPod-compatible to download for 
transportability and accessibility by our Marines. We are also beta-
testing our first Pashtu language course for our next infantry 
battalion deploying to South Asia. This is an 18-week course that is a 
webinar-linked program, which allows geographically separated Marines 
and instructors to ``meet'' in a virtual classroom that consists of 
using course-provided computing systems. It's synonymous with the 
program Special Operations Command has been running for a number of 
years. This course is directed to provide Pashtu language capability 
down to the squad level with participants at the rank of lieutenant, 
sergeant, corporal and below. Additionally, my Marines also participate 
in introductory Pashtu immersion training, which is conducted in 5-week 
blocks of instruction and is supported by the Partner Language Training 
Center Europe (PLTCE) Garmisch, Germany. Last, given that our Marines 
deploy throughout the globe, we access a variety of other sources of 
language and cultural training such as the Marine Corps' Center for 
Advanced Operational Culture and Language, the Defense Language 
Institute and Regional Language Centers. Your continued support for 
these enhanced language and culture learning opportunities is crucial 
to our competence in the current fight in Afghanistan.
    One of the most exciting areas where we continue to transform the 
depth and scope of our training remains the cutting-edge arena of 
Training Simulation. Marine Forces Reserve continues to field several 
immersive complex digital video-based training systems, complete with 
the sights, sounds and chaos of today's battlefield environments. These 
systems are particularly important, considering the limited training 
time and facilities available to our commanders. Last year, we 
completed the fielding and upgrading of the Indoor Simulated 
Marksmanship Trainer-XP. These simulators make it possible for the 
Marines to ``employ'' a variety of infantry weapons--pistol through 
heavy machinegun--in rifle squad scenarios.
    Another simulator, the Virtual Combat Convoy Trainer-Reconfigurable 
Vehicle System, provides invaluable pre-deployment training for the 
drivers of all makes and models of tactical vehicles. This trainer 
provides various conditions of terrain, road, weather, visibility and 
vehicle condition as well as various combat scenarios, which includes 
routine movement, ambush, and IED, among others. The Virtual Combat 
Convoy Trainer-Reconfigurable Vehicle System is a mobile, trailer-
configured platform that utilizes a HMMWV mock-up, small arms, crew-
served weapons, 360-degree visual display with after-action review/
instant replay capability. We are now preparing to accept the fourth 
generation of this system and have doubled student throughput.
    Another training simulation technology that has been fielded is the 
Deployable Virtual Training Environment, which provides small-unit 
echelons with the opportunity to continuously review and rehearse 
command and control procedures and battlefield concepts in a virtual 
environment. The Deployable Virtual Training Environment provides 
individual, fire team, squad and platoon-level training associated with 
patrolling, ambushes and convoy operations. Additional features of the 
Deployable Virtual Training Environment include supporting arms 
upgrades for virtual combined arms indirect fire and forward air 
control training, combat engineer training, small-unit tactics 
training, tactical foreign language training and event-driven, ethics-
based, decisionmaking training.
    Finally, The HMMWV Egress Assistance Trainer and the Mine-Resistant 
Armor Protected (MRAP) Egress Trainer are mechanical simulation 
trainers that familiarize Marines with the techniques and procedures to 
egress a HMMWV or a MRAP vehicle that has overturned. Both Trainers are 
training tools that provide Marines with the opportunity to experience 
vehicle roll-over conditions to enable them to rehearse actions and 
physically execute the steps necessary to survive a vehicle rollover. 
These systems support the U.S. Central Command requirement for all 
Marines to complete vehicle roll-over training prior to deploying to 
designated combat zones.
    It is important to recognize the key role Congress has played in 
the fielding of these advanced training systems, all of which have been 
rapidly acquired and fielded with supplemental and National Guard and 
Reserve Equipment Appropriations funding.
                               facilities
    Marine Forces Reserve is comprised of 183 sites in 48 States, the 
District of Columbia, and Puerto Rico. These facilities consist of 32 
owned sites, 151 tenant locations, three family housing sites, and a 
Marine barracks. Most of our Reserve sites are openly located within 
civilian communities, which require close partnering with State and 
local entities nationwide. Additionally, the condition and appearance 
of our facilities informs the American people's perception of the 
Marine Corps as well as the Armed Forces.
    Department of Defense policy and the use of standardized models for 
Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) dollars have greatly improved funding profiles for 
our Reserve facilities over the last several years. We are experiencing 
some of the best levels of facility readiness due to increased funding 
in the last 3 years, which was complemented by an additional $39.9 
million in stimulus dollars from the American Recovery and Reinvestment 
Act (ARRA) of 2009. The ARRA funding was applied to 25 projects 
currently underway across 11 States that are providing much needed 
repairs, renovations or enhancing energy efficiency. Other projects 
funded by ARRA dollars include upgrades to meet antiterrorism force 
protection standards and compliance with American with Disability Act 
access.
    The Base Realignment and Closure 2005 and our normal Military 
Construction Naval Reserve (MCNR) Program enabled us to repair and 
upgrade sites across the country with projects continuing to completion 
in 2011, including replacement of more than 28 of our 183 Reserve 
centers in the next 2 years. This represents the largest movement and 
upgrade in memory for the Marine Corps Reserve.
    Marine Forces Reserve's research and investment for the last 2 
years in energy efficiency, sustainability, and renewable energy is 
coming to fruition this fiscal year. Every new FSRM renovation project 
or Military construction (Milcon) is targeted for energy efficiency and 
sustainability aspects in accordance with policy and Leadership in 
Energy and Environmental Design (LEED) guidelines. We recently 
commissioned our first LEED Silver building at Camp Lejeune--the first 
in the Marine Corps--and are anticipating award this year of our first 
LEED Silver rehabilitation project in Baltimore, Maryland, which is a 
potential first for the Marine Corps as well. All of our MCNR projects 
since fiscal year 2009 are on track to comply with directives to 
achieve LEED silver or higher as funding profiles permit.
    We are presently conducting energy assessments of all our 32-owned 
sites along with preparation of smart metering technology for each to 
enhance conservation and management. The Marine Forces Reserve approach 
combines efficiency, conservation, and renewable aspects to achieve 
optimal return on investment. We completed six solar energy and 
lighting projects at Reserve centers in California and have one solar 
project slated for completion in Louisiana as well. Our six wind 
turbine projects continue to proceed with suitability and environmental 
evaluations. Initial findings indicate that some projects may come on 
line during fiscal year 2012 with an anticipated payback of as little 
as 8 years. Our investment and implementation of these technologies 
provides energy security, efficiency, and cost avoidance for our 
geographically dispersed sites.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer-term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Your continued support for both the MCNR program and a 
strong FSRM program are essential to addressing the aging 
infrastructure of the Marine Corps Reserve.
    The MCNR program for exclusive Marine Corps Reserve construction 
has been effectively prioritized by the Marine Corps within the FYDP to 
optimize our efforts in addressing the estimated $132 million in needed 
construction projects for our aging infrastructure. Increases in our 
baseline funding over the last 6 years have helped Marine Forces 
Reserve improve our overall facility readiness. More than 27 percent of 
the Reserve centers our Marines train in are more than 30 years old and 
of these, 55 percent are more than 50 years old. Past authorizations 
have improved the status of facilities in the 30 to 50 year range and 
continued investment will allow for further modernization. The $35 
million in additional MCNR funding in fiscal year 2010 enabled Marine 
Forces Reserve to commence several additional projects that further 
improved our readiness in both training and improvement of facilities 
infrastructure at greater rates than normal.
    The Base Realignment and Closure 2005 continues to move forward and 
the Marine Corps Reserve will relocate units to 10 consolidated Reserve 
centers this fiscal year. Marine Forces Reserve is executing 25 of the 
Marines Corps' 47 Base Realignment and Closure-directed actions. Of 
these 25 Base Realignment and Closure actions, 21 are linked to Army 
and Navy military construction projects. Our Base Realignment and 
Closure plans are tightly linked to those of other Services and 
government agencies as we develop cooperative agreements to share 
Reserve centers and coexist in emergent joint bases. All remaining 
Marine Corps Reserve Base Realignment and Closure closures are on track 
for successful completion within the directed timelines.
    Of special note is the movement of my Headquarters--Marine Forces 
Reserve--and consolidation of our major subordinate commands in New 
Orleans, Louisiana. This unique Base Realignment and Closure project, 
which integrated State, local and Federal efforts, is now well underway 
for the new headquarters compound and is tracking for an early 
completion. The State of Louisiana is providing construction dollars 
for the new headquarters facility, which saves the Federal Government 
more than $130 million. The Department of the Navy is providing the 
interior finishings, information technology, and security 
infrastructure in accordance with the lease agreement. This building 
will incorporate multiple energy and environmentally friendly processes 
to meet Leadership in Energy and Environmental Design certifiable 
standards. We were assisted by the Department of Energy's Federal 
Energy Management Program to identify future projects, which will 
further maximize the sustainability and energy efficiencies of the 
buildings and compound. Upon completion and certification, this 
building and its surrounding acreage will become the newest Marine 
Corps Installation: Marine Corps Support Facility, New Orleans.
                 health services and behavioral health
    Our Marines, Sailors and their families remain our highest 
priority. Therefore, we remain keenly attentive to their health and 
resiliency. Taking care of them is a sacred trust and a continuous 
process. During dwell, our health services priority is to attain and 
maintain the Department of Defense goal of 75 percent Fully Medically 
Ready. In fiscal year 2010, Marine Forces Reserve individual medical 
and dental readiness rates were 70 percent and 78 percent respectively. 
This reflects a continued improvement trend in overall individual 
medical readiness for the Force.
    Healthcare for the Reserve Component integrates many diverse 
programs across the spectrum of the deployment cycle--pre-mobilization, 
deployment and post-deployment--and is categorized into two areas: unit 
medical readiness and behavioral health. Unit medical readiness 
programs include the Reserve Health Readiness Program and TRICARE 
Reserve Select. Behavioral health programs include the Post Deployment 
Health Reassessment and the Psychological Health Outreach Program.
    The Reserve Health Readiness Program is the cornerstone for 
individual medical and dental readiness. This program funds contracted 
medical and dental specialists to provide healthcare services to units 
not supported by a military treatment facility. During fiscal year 
2010, the Reserve Health Readiness Program performed 10,947 Periodic 
Health Assessments; 2,803 Post-Deployment Health Reassessments; and 
7,821 Dental Procedures. TRICARE Reserve Select, a premium-based 
healthcare plan, is also available to our Marines, Sailors and their 
families.
    Behavioral health has increasingly become an integral part of 
medical readiness over the past few years. Navy medicine continues to 
address this complex issue through various independent contracted 
programs, such as the Post Deployment Health Reassessment and the 
Psychological Health Outreach Program. The Post Deployment Health 
Reassessment identifies health issues with specific emphasis on mental 
health concerns, which may have emerged since returning from 
deployment. The Psychological Health Outreach Program addresses post-
deployment behavioral health concerns through a referral and tracking 
process. The above programs have proven effective in the overall 
management of identifying those Marines needing behavioral health 
assistance and have provided an avenue to those Marines seeking 
behavioral health assistance.
    The Commandant has also directed that we more fully integrate 
behavioral health services to help reduce redundancies and ultimately 
improve the overall quality and access to care. The Marine Corps is 
taking action to develop an integrated service delivery that provides 
innovative, evidence-based practices to commanders, Marines, and their 
families. This service delivery will be woven into the larger support 
network of our command structures and health and human services across 
the Marine Corps to better build resilience and strengthen Marines and 
families. This efficiency initiative successfully integrates our Combat 
and Operational Stress Control, Suicide Prevention, Sexual Assault 
Prevention and response, Substance Abuse Prevention and Family Advocacy 
Programs and will be instrumental in synchronizing our prevention 
efforts.
    Combat and Operational Stress Control training for leaders is being 
incorporated throughout Marine Forces Reserve at all levels. All units 
deploying more than 90 days receive pre-deployment training for 
Marines, Sailors, leaders, and families.
    Currently, we are implementing the Operational Stress Control and 
Readiness (OSCAR) training. This training provides knowledge, skills, 
attitudes, and tools required to assist commanders to prevent, 
identify, and manage combat and operational stress problems as early as 
possible. Your continued support enables us to continue to take care of 
our Marines, Sailors and their families.
                            quality of life
    My commitment to our Marines and Sailors in harm's way extends to 
their families at home. As part of Marine Corps reforms to enhance 
family support, we continue to place full-time Family Readiness Officer 
(FROs), which will be staffed entirely by civilians, at the battalion/
squadron level and above to support the Commandant's family readiness 
mission. As you might imagine, an organization that is spread across 
the Nation and overseas has unique challenges, but communication 
technologies, improved procedures, and processes have effectively 
integrated our efforts to more effectively inform and empower family 
members--spouses, children and parents--who often have little routine 
contact with the Marine Corps and live far from large military support 
facilities. The installation of FROs at the battalions and squadrons 
bridges many gaps and overcomes many challenges that are unique to the 
Reserve Component. To be sure, the placement of Family Readiness 
Officers is a low cost solution that provides a significant return on 
investment.
    We fully recognize the strategic role our families have in personal 
and operational readiness, particularly with mobilization preparedness. 
We prepare our families for day-to-day military life and the deployment 
cycle by providing education at unit family days, pre-deployment 
briefs, return and reunion briefs, and post-deployment briefs. To 
better prepare our Marines and their families for activation, Marine 
Forces Reserve has fully implemented the Yellow Ribbon Reintegration 
Program, much of which we've had in place for quite some time. We are 
particularly supportive of Military OneSource, which provides our 
Reservists and their families with an around-the-clock information and 
referral service via toll-free telephone and Internet access on 
subjects such as parenting, childcare, education, finances, legal 
issues, deployment, crisis support, and relocation.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to service members, families, retirees, 
and civilian employees. More than 1,400 Marine Forces Reserve personnel 
(Active and Reserve) enjoyed the benefit of Tuition Assistance, 
utilizing more than $3.6 million that funded more than 4,600 courses 
during fiscal year 2010. The Marine Corps' partnership with the Boys 
and Girls Clubs of America and the National Association for Child Care 
Resources and Referral Agencies continues to provide a great resource 
for service members and their families in accessing affordable child 
care before, during, and after a deployment in support of overseas 
contingency operations. We also partnered with the Early Head Start 
National Resource Center Zero to Three to expand services for family 
members of our Reservists who reside in isolated and geographically 
separated areas.
    The Chaplain Corps--Active and Reserve Component chaplains--is 
fully engaged to support my commitment to ensure care is provided for 
our Marines, Sailors, and their families. Working alongside FROs, they 
conduct informational briefs and provide counsel during all phases of 
the deployment cycle. One Religious Ministries Team works with the FRO 
through video-teleconferencing to provide pre-deployment, deployment 
and post deployment briefs for the entire Individual Ready Reserve 
population. The chaplains have also worked directly with the Casualty 
Assistance Calls Officers, providing them with immediate support, 
counsel and assistance during the time of deep emotional crisis.
  supporting our wounded, ill, and injured marines and their families
    The non-medical needs of our wounded, ill, and injured (WII) 
Marines and their families can be extensive and vary in type and 
intensity during the phases of recovery. There is not an ``one size 
fits all'' approach to WII care. The Marine Corps' Wounded Warrior 
Regiment (WWR) makes a concerted effort to ensure that WII Marine 
Reservists receive exemplary support as they transition through the 
recovery process. The WWR holds high levels of subject matter expertise 
with regard to the unique challenges faced by Marine Reservists and has 
set up component of care accordingly. For example, the WWR has 
dedicated staff--the Reserve Medical Entitlements Determinations 
Section--to specifically maintain oversight of all cases of Reservists 
who require medical care beyond their contract period for service-
connected ailments. Additionally, the WWR has Reserve-specific recovery 
care Coordinators who provide one-on-one transition support and 
resource identification required to support WII Reservists and families 
who are often living in remote and isolated locations away from the 
support resident on bases and stations. Another significant support 
component of the WWR that makes a positive difference in the lives of 
our WII Reservists is the Sergeant Merlin German Wounded Warrior Call 
Center. This 24/7 Call Center provides support on numerous issues to 
include: referral for psychological health matters; pay and entitlement 
questions; financial assistance resources; awards; and information on 
benevolent organizations. The WWR also uses its Call Center to conduct 
important outreach calls to various populations to check on their well-
being and update them on changes in benefits and entitlements.
            casualty assistance and military funeral honors
    Casualty assistance remains a significant responsibility of Active 
Component Marines who are assigned to our Inspector--Instructor and 
Reserve Site Support staffs. Continued operational efforts in 
Afghanistan and Iraq have required that these Marines remain ready at 
all times to support the families of our fallen Marines in combat 
abroad, or in unforeseen circumstances at home. By virtue of our 
geographic dispersion, Marine Forces Reserve personnel are best 
positioned to accomplish the vast majority of all Marine Corps casualty 
assistance calls and are trained to provide assistance to the families. 
Historically, my personnel have been involved in approximately 76 
percent of all Marine Corps casualty notifications and follow-on 
assistance calls to the next of kin. There is no duty to our families 
that we treat with more importance, and the responsibilities of our 
Casualty Assistance Calls Officers continue well beyond notification. 
We ensure that our Casualty Assistance Calls Officers are adequately 
trained, equipped, and supported by all levels of command. Once a 
Casualty Assistance Calls Officer is designated, he or she assists the 
family members from planning the return of remains and the final rest 
of their Marine to advice and counsel regarding benefits and 
entitlements. In many cases, our Casualty Assistance Calls Officers 
provide a permanent bridge between the Marine Corps and the family 
while providing assistance during the grieving process. The Casualty 
Assistance Calls Officer is the family's central point of contact and 
support, and he or she serves as a representative or liaison to the 
funeral home, Government agencies, or any other agency that may become 
involved.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support for military funeral honors for our veterans. The 
active duty Reserve Site Support staff, with augmentation from their 
Reserve Marines, performed more than 14,550 military funeral honors 
during calendar year 2010, which was 90 percent of the Marine Corps 
total. We anticipate providing funeral honors to more than 17,500 
Marine veterans in calendar year 2011. Specific authorizations to fund 
Reserve Marines in the performance of military funeral honors have 
greatly assisted us at sites such as Bridgeton, Missouri, where more 
than 10 funerals are consistently supported each week. As with Casualty 
Assistance, we place enormous emphasis on providing timely and 
professionally executed military funeral honors support.
                               conclusion
    Your Marine Corps Reserve continues to be operational in mindset 
and action and is fully committed to train and execute the Commandant's 
vision for the Total Force Marine Corps. The momentum gained over the 
last decade in Iraq, Afghanistan, and in support of theater engagements 
around the globe, remains sustainable through coordinated focus, 
processes and planning. To be sure, this momentum bears witness to the 
operational nature of your Marine Corps Reserve.
    In everything we do, we remain focused on the individual Marine and 
Sailor in combat. Supporting that individual requires realistic 
training, proper equipment, the full range of support services and 
professional opportunities for education, advancement and retention. 
Your continued unwavering support of the Marine Corps Reserve and 
associated programs enables my Reservists to competently perform as an 
operational Reserve and is greatly appreciated. Semper Fidelis.

    Chairman Inouye. Now, may I call upon General Stenner.
STATEMENT OF LIEUTENANT GENERAL CHARLES E. STENNER, 
            JR., CHIEF, AIR FORCE RESERVE
    General Stenner. Thank you, Chairman Inouye and Vice 
Chairman Cochran.
    I appreciate the opportunity to be here today to discuss 
Reserve component funding priorities for fiscal year 2012 and 
the other important issues that are also affecting the 72,000-
plus citizen airmen making up our Air Force Reserve.
    But I would like to first take the opportunity to introduce 
Chief Master Sergeant Dwight Badgett. He is the command chief 
for the Air Force Reserve Command. And I will report he is not 
retiring, unless I don't know something.
    And he is going to assist me in the years to come managing 
this vital force called the enlisted members. It is the 
backbone of what we take. And Chief, if you would give a 
standup for a second? Thanks.

                      AIR FORCE RESERVE PRIORITIES

    My written testimony outlines our priorities. But briefly, 
I would like to mention the fact that our reservists continue 
to play an increasing role in ongoing global operations, no 
matter what service. They support our Nation's needs, providing 
operational capabilities around the world.
    As we speak, Air Force reservists are serving in every 
combatant command area of responsibility. There are 
approximately 4,300 Air Force reservists currently activated to 
support those missions. That number includes our force's 
contributions to the Japanese relief effort and direct support 
to coalition operations in Libya.
    Despite an increasing operations tempo, aging aircraft, and 
increases in depot scheduled downtime, we have improved fleet 
aircraft availability and mission-capable rates. The Air Force 
Reserve is postured to do its part to meet the operational and 
strategic demands of our Nation's defense, but that mandate is 
not without its share of challenges.
    Our continued ability to maintain a sustainable force with 
sufficient operational capability is predicated on having 
sufficient manpower and resources. And the work of this 
subcommittee is key to ensuring Reserve component readiness, 
and the National Guard and Reserve equipment account (NGREA) is 
our means for preserving that combat capability. That account 
guarantees that our equipment is relevant and allows for 
upgrades to be fielded in a timely manner.

                     NGREA AND SUPPLEMENTAL FUNDING

    Current levels of NGREA and supplemental funding have 
allowed the Air Force Reserve to make significant strides in 
meeting urgent warfighter requirements. Since 1997, the Air 
Force Reserve has obligated and executed 99.7 percent of our 
NGREA dollars, and we continue to work with the Air National 
Guard and regular Air Force communities to improve our process 
to obligate NGREA faster and in line with the OSD standards.
    Air Force NGREA funding of at least $100 million per year 
will provide parity and greatly enhance readiness, because, as 
we all know, our Nation relies on our capabilities, more today 
than ever before. Properly equipping the Reserve components 
will ensure the Nation continues to have a force in reserve to 
meet existing and future challenges.
    Equally as important as readiness is support to our airmen 
and their families. Our efforts in this area go toward 
resiliency training, suicide prevention, the Yellow Ribbon 
reintegration, and Employer Support of the Guard and Reserve 
(ESGR) and other programs that help support the all-important 
Reserve triad. That is the family, the reservists, and their 
employer, all a part of the fabric of this Nation's defense.
    In a time of constrained budgets and higher costs, in-depth 
analysis is required to effectively prioritize our service 
needs, for we must all appreciate the vital role the Reserve 
components play in supporting our Nation's defense and 
concentrate our resources in areas that will give us the most 
return on the investment.
    Thank you for asking me here today and discussing the 
important issues that are affecting us all. And I do look 
forward to your questions.
    [The statement follows:]
    Prepared Statement of Lieutenant General Charles E. Stenner, Jr.
                              introduction
    The 21st century security environment requires military services 
that are flexible--capable of surging, refocusing, and continuously 
engaging without exhausting their resources and people. The United 
States Air Force continues to present capabilities in support of joint 
operations, and the Reserve Component has evolved to the point that we 
are critical to those operations. In an increasingly limited fiscal 
environment, Reservists remain efficient and cost-effective solutions 
to our Nation's challenges.
    In this dynamic environment, the Air Force Reserve (AFR) excels. 
Reserve Airmen support our Nation's needs; providing operational 
capabilities around the globe. Today, Air Force Reservists are serving 
in every Area of Responsibility (AOR), and there are approximately 
4,300 Air Force Reservists activated to support operational missions. 
Despite increased operations tempo, aging aircraft and increases in 
depot-scheduled down time, we have improved fleet aircraft availability 
and mission capable rates. We have sustained our operational 
capabilities for nearly 20 years--at a high operations tempo for the 
past 10. We accomplish this while continuing to provide a cost-
effective and combat ready force available for strategic surge or 
ongoing operations.
    This year brings continued opportunities. Air Force Reserve Airmen 
are integrated into a wider variety of missions across the full 
spectrum of not only inherently Air Force operations, but joint 
operations as well. The Department of Defense (DOD) continues to seek 
innovative ways in which to gain greater access to, and leverage the 
unique experiences and skills of, Reservists. This effort recognizes 
our Citizen Airmen have talents that have been developed in the Air 
Force Reserve, but are strengthened in employment with civilian 
employers.
    While we remain focused on the Air Force's five priorities \1\, we 
are also guided by the following Reserve Component-unique focus areas 
that could be applied to the Total Force and will serve as the basis 
for this testimony: Force Readiness, Force Rebalance and Force Support.
---------------------------------------------------------------------------
    \1\ The Air Force Priorities are: (1) Continue to strengthen the 
nuclear enterprise; (2) Partner with the Joint and Coalition team to 
win today's fight; (3) Develop and care for our Airmen and their 
families; (4) Modernize our air, space, and cyberspace inventories, 
organizations, and training; and (5) Recapture acquisition excellence.
---------------------------------------------------------------------------
                                overview
    The Air Force Reserve is helping to lead the way in improving Air 
Force capability for fiscal year 2012 and beyond. The fiscal year 2012 
President's budget request would fund Air Force Reserve requirements of 
approximately $5 billion. It provides for the operation and training of 
34 wings, funds 117,769 flying hours, maintains 344 aircraft, and 
provides for the readiness of 71,400 Reservists and 4,157 civilian 
employees. Our budget request is about 4 percent of the total Air Force 
budget, and includes $2.27 billion for operations and maintenance for 
air operations, service support and civilian pay; $1.7 billion for 
military personnel; and $34 million for military construction.
    Not only does our fiscal year 2012 budget request ensure Air Force 
Reservists are trained and prepared to support Air Force and Combatant 
Command requirements, but it also demonstrates our commitment to the 
DOD's focus on efficiencies. Through better business practices, by 
leveraging new technology, and by streamlining our force management 
efforts, we identified $195 million in efficiencies for fiscal year 
2012 alone. With your continued support and assistance in the coming 
year, we will be focused on rebalancing our force, recapitalizing our 
equipment and infrastructure, and supporting our Reservists and the 
balance between their civilian and military lives.
                            force readiness
    Reservists continue to play an increasing role in ongoing global 
operations. This reliance can be seen during surges such as those in 
Iraq and Afghanistan. Properly equipping the Reserve Components will 
ensure the Nation continues to have a ``Force in Reserve'' to meet 
existing and future challenges.
Air Force Reserve Modernization
    A number of trends continue to influence dependence on Air Force 
Reserve forces to meet the operational and strategic demands of our 
Nation's defense: sustaining operations on five continents and the 
resulting wear and tear on our aging equipment; increasing competition 
for defense budget resources; and increasing integration of the three 
Air Force components. The Air Force leverages the value of its Reserve 
Components through association constructs in which units of the three 
components share equipment and facilities around a common mission. 
Increasing integration of all three Air Force components requires us to 
take holistic approach. To ensure our integrated units achieve maximum 
capability, the precision attack and defensive equipment the Air Force 
Reserve employs must be interoperable not only with the Guard and 
Active Component, but the Joint and Coalition force as well.
    The National Guard Reserve Equipment Account (NGREA) appropriation 
has resulted in an increase in readiness and combat capability for both 
the Reserve and the Guard. For example, using fiscal year 2009 NGREA, 
fiscal year 2009 OCO and fiscal year 2010 NGREA funds, the Air Force 
Reserve responded to a Combatant Commander Urgent Operation Need (UON) 
related to the capabilities of our A-10 and F-16 fleet. Through 
acquisition of the Helmet Mounted Integrated Targeting (HMIT) system we 
were able to enhance our pilots' capability to cue aircraft sensors and 
weapons well outside the Heads-Up Display (HUD) field of view of their 
aircraft. This commercial-off-the-shelf (COTS) system is a common 
solution for both the A-10 and F-16 aircraft. Additionally, HMIT 
incorporates color displays in its system and is compatible with 
current night vision goggle systems to enhance night time flying 
capabilities. These capabilities have the potential to increase the 
situational awareness of our A-10 and F-16 pilots by 400 percent and to 
decrease incidents of fratricide caused when pilots move their heads 
away from their controls to see targets on the ground. Actual purchases 
are expected to start at the end of fiscal year 2011 with delivery in 
fiscal year 2012.\2\
---------------------------------------------------------------------------
    \2\ In past years, the Air Force Reserve purchased HC-130 8.33 
radios to upgrade 5 AFR HC-130 aircraft. This upgrade allows these 
aircraft to comply with Certified Navigation System--Air Traffic 
Management (CNS-ATM), world-wide air traffic rules and requirements. 
The 8.33 radios also provided a situational awareness data link that 
allows crews to better identify ``friends'' versus ``foes'' and prevent 
``friendly fire'' incidents. Without this upgrade, the movements of 
AFRC's HC-130s were limited and in some cases prevented in certain 
restricted airspace around the globe.
---------------------------------------------------------------------------
    Since the start of combat operations in Afghanistan and Iraq, the 
majority of our equipment requirements have been aircraft upgrades. 
These upgrades provide our aircraft with better targeting, self 
protection and communication capabilities. As legacy aircraft are 
called upon to support operational missions, the equipment is stressed 
at a greater rate. As new equipment is identified that will satisfy our 
capability shortfalls, we begin procurement, normally buying enough 
assets with ``first year'' dollars to equip a single unit of aircraft. 
With subsequent year funding we continue purchasing until our 
requirements are met. This method of procurement allows the expedient 
fielding of capabilities to our deploying units, but equipment levels, 
especially in the first few years of a program's execution, are not at 
sufficient levels to meet our overall requirements.
    In fiscal year 2008, we modified our requirements process to align 
with the Air Force Reserve corporate process. This alignment provides 
total visibility and support for our modernization needs from 
identification of a requirement until it is fully mission capable. The 
process also incorporates input from our units received through Combat 
Planning Councils (CPCs). Our unfunded requirements, after being vetted 
through our corporate process, reside on our Modernization List. Each 
year we review the list to determine where the best use of the allotted 
amount of NGREA will make the most impact. Additional supplemental 
funding has helped in procuring our needed equipment.
    Historically, the Air Force Reserve has been a prudent steward of 
NGREA funding with an average obligation rate of 99.7 percent prior to 
funding expiration.\3\ We are currently involved in a cooperative 
effort with the Air National Guard and the Active Component's 
acquisition communities to review our obligation processes and develop 
improvements to bring our obligation rates more in line with the 
Department's standards of 80 percent and 90 percent in the first and 
second years of execution.
---------------------------------------------------------------------------
    \3\ From fiscal year 1997 to fiscal year 2008, Congress provided 
the Air Force Reserve the following amounts in NGREA funding 
(associated obligation rates): 1997--$39,552,000 (99.05 percent); 
1998--$49,168,000 (99.99 percent); 1999--$20,000,000 (100 percent); 
2000--$19,845,000 (99.75 percent); 2001--$4,954,000 (99.98 percent); 
2002--$75,224,000 (99.88 percent); 2003--$9,800,000 (99.84 percent); 
2004--$44,666,000 (99.96 percent); 2005--$39,815,000 (100 percent); 
2006--$29,597,000 (99.75 percent); 2007--$34,859,000 (98.67 percent); 
and 2008--$44,695,000 (99.60 percent).
---------------------------------------------------------------------------
Military Construction (Milcon) and Infrastructure Modernization
    Along with challenges in modernizing our equipment, we face 
challenges modernizing our infrastructure. During the fiscal year 2011 
budget formulation, both the Active Component and the Air Force Reserve 
continued to take risk in military construction and facilities 
maintenance in order to fund higher priorities. Over time, this 
assumption of additional risk has resulted in a backlog exceeding $1 
billion for the Air Force Reserve.
    The Air Force Reserve budget request of $34 million in fiscal year 
2012 Milcon funding will fund the construction of an airfield control 
tower at March Air Reserve Base, California, and a RED HORSE \4\ 
readiness and training facility at Charleston Air Force Base, South 
Carolina. As we continue to work within fiscal constraints, we will 
optimize space allocation with increased facility consolidation and 
demolition. We will continue to mitigate risk where possible to ensure 
our facilities are modernized and provide a safe and adequate working 
environment.
---------------------------------------------------------------------------
    \4\ Rapid Engineer Deployable Heavy Operational Repair Squadrons 
(RED HORSE) provide the Air Force with a highly mobile civil 
engineering response force to support contingency and special 
operations worldwide.
---------------------------------------------------------------------------
Air Force Reserve Manpower
    To meet the current needs of the Air Force, the Air Force Reserve 
will grow to programmed end strength of 71,200 this year. In the fiscal 
year 2012 President's budget, we have requested an end strength of 
71,400. These manpower increases are placing a premium on recruiting 
highly qualified and motivated Airmen and providing them with the 
necessary training. The Air Force Reserve recruiting goal for fiscal 
year 2011 is 10,480. While we exceeded our highest goal ever of 10,500 
new Airmen for fiscal year 2010, with tightening budgets and cuts in 
advertising, our forecast models indicate we may continue to face 
challenges in some aspects of the recruiting process.
    To provide a single point of entry for accessing Air Force Reserve 
forces, we recently established a Force Generation Center (FGC). This 
organization modernizes our force management practices to provide a 
unified picture of our combat capability, our total support to the Air 
Force and Combatant Commanders, and provides our customers with a 
single point of entry with a consistent set of business rules. We now 
have visibility and accountability of reserve forces in categories 
where we previously had limited or no real time information. 
Additionally, the Force Generation Center allows the Air Force Reserve 
to be more responsive to the needs of individual Reservists, providing 
them greater predictability while making participation levels more 
certain. This ultimately provides Combatant Commanders with more 
operational capability. Collectively, these actions will contribute to 
the overall health of the Air Force by improving the sustainability and 
operational capability of the Air Force Reserve required today and 
tomorrow.
    A recent survey highlighted the fact that one-in-three Air Force 
Reservists has volunteered to deploy. Since 9/11, more than 60,500 Air 
Force Reservists, which equates to 76 percent of our current force, 
have answered our Nation's call and deployed to combat or supported 
combat operations on active duty orders. We cannot take this high-level 
of commitment for granted, and must do our best to ensure their 
continued service is used appropriately and efficiently. Accordingly, 
these enterprise-wide actions will make Air Force Reservists more 
accessible and should provide Reservists with a greater sense of 
satisfaction about their service.
                            force rebalance
    Total Force Initiatives are not just a priority for the Air Force 
Reserve and Air National Guard, but the Air Force as a whole. All three 
components are committed to aggressively examining Air Force core 
functions for integration and force rebalancing opportunities. This is 
critical in an environment focused on efficiencies. As weapons systems 
become increasingly more capable but expensive, their numbers 
necessarily decrease. Aging platforms are being retired and are not 
replaced on a one-for-one basis. As a result, the Air Force is required 
to maintain the same combat capability with a smaller inventory. To 
this end, we are integrating wherever practical, exploring associations 
across the Total Force. We have established a wide variety of associate 
units throughout the Air Force, combining the assets and manpower of 
all three components to establish units that capitalize on the 
strengths of each component. There are currently more than 90 
Associations across all Air Force mission areas.
    The Air Force uses three types of associations to leverage the 
combined resources and experience levels of all three components: 
``Classic Associations,'' ``Active Associations,'' and ``Air Reserve 
Component Associations.'' Under the ``Classic'' model a Regular Air 
Force unit is the host unit and retains primary responsibility for the 
weapon system, while a Reserve or Guard unit is the tenant. This model 
has flourished in the strategic and tactical airlift communities for 
over 40 years. We are also using this model in the Combat Air Forces 
(CAF). Our first fighter aircraft ``Classic'' association at Hill Air 
Force Base, Utah, attained Initial Operational Capability in June 2008. 
This association combined the Regular Air Force's 388th Fighter Wing, 
the Air Force's largest F-16 fleet, with the Air Force Reserve's 419th 
Fighter Wing, becoming the benchmark and lens through which the Air 
Force will look at every new mission. The 477th Fighter Group, an F-22 
unit at Joint Base Elmendorf, Alaska, continues to mature as the first 
Air Force Reserve F-22A associate unit. This unit also achieved Initial 
Operating Capability in 2008 and will eventually grow into a two-
squadron association.
    Under the ``Active'' model, the Air Force Reserve or Guard unit is 
host and has primary responsibility for the weapon system while the 
Regular Air Force provides additional aircrews to the unit. The 932nd 
Airlift Wing is the first ever Operational Support Airlift Wing in the 
Air Force Reserve with 3 C-9Cs and 3 C-40s. To better utilize the fleet 
at the 932nd, the Air Force created an Active Association of the C-40s.
    Under the ``Air Reserve Component (ARC)'' model, now resident at 
Niagara Falls Air Reserve Station (ARS), New York, the Air Force 
Reserve has primary responsibility for the equipment, while the Air 
National Guard works side-by-side in the operation and maintenance of 
the aircraft. At Niagara, the Air National Guard transitioned from the 
KC-135 air refueling tanker to the C-130, associating with the 914th 
Airlift Wing. The 914th added four additional C-130s, resulting in 12 
C-130s. This ARC Association model provides a strategic and operational 
force and capitalizes on the strengths of the Air National Guard and 
Air Force Reserve. Additionally, it provides the State of New York with 
the needed capability to respond to State emergencies.
    Associations are not simply about sharing equipment; they enhance 
combat capability and increase force-wide efficiency by leveraging the 
resources and strengths of the Regular Air Force, Air National Guard, 
and Air Force Reserve. But, they accomplish this while respecting 
unique component cultures and requirements. Air Force Reserve and Air 
National Guard members train to the same standards and maintain the 
same currencies as their Active Component counterparts. These Airmen 
also provide the insurance policy the Air Force and the Nation need: a 
surge capability in times of national crisis. As we have seen with the 
increased requirements in Afghanistan, the Air Force Reserve continues 
to play a vital role by mobilizing our strategic airlift resources and 
expeditionary support to provide capabilities needed for the joint 
effort.\5\
---------------------------------------------------------------------------
    \5\ In fiscal year 2010, Air Force Reserve C-5 and C-17 associate 
flying units flew 31,913 hours of overseas contingency support 
worldwide.
---------------------------------------------------------------------------
    To better accommodate the Air Force-wide integration effort, the 
Air Force Reserve is examining its four decades of association 
experience. With Regular Air Force and Air National Guard assessment 
teams, we developed analytical tools to evaluate different mixes of 
Reserve, Guard, and Active Component forces in any given mission set. 
This process for rebalancing of forces will give the Air Force a solid 
business case analysis tool for evaluating future associations and may 
lead to force decisions that support Reserve Component growth.
    For the Operational Reserve construct to remain viable, we must 
continue to use the long-term mobilization authorities that have been 
in continuous use for the past 10 years. If not, the Services will 
revert to volunteerism as the sole planning tool for force generation 
to meet Combatant Command requirements. The strategic nature of the 
Reserve Components historically made us vulnerable to reductions in 
resources and budgets. This often resulted in rebalancing resources 
among the components based on a strategy that favored near-term 
operational risk reduction over longer-term cost effectiveness and 
wartime surge capability. This was a logical approach to allocating 
risk at the time because Reserve Component daily operational 
capabilities depended almost exclusively on volunteerism, which was 
difficult for planners to quantify with a desired degree of assurance. 
That legacy model is now the exception rather than the rule, since risk 
associated with the Reserve Components can be both measured and 
controlled through management and integration of volunteerism with 
sustainable mobilization plans based on the force generation model 
construct. This allows the Services to make force rebalancing decisions 
today based on business case analysis rather than focusing exclusively 
on near-term risk avoidance.
    The traditional approach to rebalancing during a budget reduction 
has been to reduce Reserve Component force structure to preserve Active 
Component operational capabilities, or to reduce all components through 
some proportional or fair-share model to spread risk across the force. 
It is now possible to quantify and plan for a predictable level of 
access to operational support from the Reserve Components in critical 
capability areas, the traditional approach is no longer valid. Because 
access to operational support capability is quantifiable, it is 
possible to do reliable cost/capability tradeoff analysis to quantify 
both cost and risk for options placing greater military capability in 
the Reserve Components. This does not mean that Reserve Component 
growth will always be the prudent choice, but it does mean that the 
choice can be made based on measurable outcomes of cost, capability, 
and risk, rather than using arbitrary rules of thumb or notional 
ratios.
    A new approach to rebalancing allows for a force that is agile and 
responsive to uncertainty and rapid changes in national priorities, and 
mitigates the loss of surge capability and the high cost associated 
with the traditional approach to adjusting force mix. Any approach 
should acknowledge the Reserve Components have become and will remain a 
responsive operational force. Such a force necessarily allows the 
Services to respond quickly and efficiently to funding reductions 
without decreasing warfighting capability or incurring large Active 
Component recruiting and training costs.
                             force support
    While the Air Force meets the needs of new and emerging missions, 
we face some recruiting challenges. Not only will the Air Force Reserve 
have access to fewer prior-service Airmen, we will be competing with 
other services for non-prior service recruits \6\. In the past year, 
the Air Force Reserve has experienced the most accessions in 16 years 
and the highest amount of non-prior service recruits in over 20 years. 
To improve our chances of success, we have increased the number of 
recruiters working in the field to attract quality candidates. While we 
focus on recruiting, we must remain mindful of the experienced force we 
need to retain. Air Force Reserve retention continues to show positive 
gains in all categories. In fiscal year 2010, both officer and enlisted 
retention rates increased, with career Airmen retention at its highest 
level since 2004 and officer retention recovering to fiscal year 2007 
levels.
---------------------------------------------------------------------------
    \6\ According to the Office of the Secretary of Defense, Personnel 
and Readiness, only about 26 percent of today's youth are qualified to 
serve without obtaining a waiver. Shrinking numbers of qualified youth, 
coupled with AFR's increased reliance on Non-Prior Service members, and 
a highly competitive recruiting atmosphere will continue to challenge 
our recruiting force.
---------------------------------------------------------------------------
    With congressional support, we have implemented a number of 
successful programs to increase and maintain high recruiting and 
retention rates. For example, we implemented a ``Seasoning Training 
Program''. This program allows recent graduates of initial and 
intermediate level specialty training to voluntarily remain on active 
duty to complete upgrade training. Since its implementation, nearly 
13,000 Reservists have become trained and available at an accelerated 
rate. With the increased number of non-prior service recruits coming 
into the Air Force Reserve, seasoning training has become a force 
multiplier and ensures the Air Force Reserve maintains its reputation 
for providing combat-ready Airmen for today's joint fight.
    The Bonus program has also been pivotal to recruiting and retaining 
the right people with the right skills to meet our requirements. The 
Bonus program enhances our ability to meet the demand for ``Critical 
Skills''--those skills deemed vital to mission capability. Ordinarily, 
critical skills development requires extensive training over long 
periods of time, and members who have these skills are in high demand 
within the private sector. Your continued support, allows us to offer 
the appropriate combination of bonuses for enlistment, reenlistment, 
and affiliation. The Bonus Program is effective; 2,676 Reservists 
signed agreements in fiscal year 2010. This figure is up 31 percent 
from fiscal year 2009.
Preserving the Viability of the Reserve Triad
    Reservists balance relationships with their families, civilian 
employers, and the military--what we like to call ``The Reserve 
Triad.'' To ensure continued sustainability, our policies and actions 
must support these relationships. Open communication about 
expectations, requirements, and opportunities, will provide needed 
predictability and clearer expectations among sometimes competing 
commitments.
    The Air Force Reserve is proud of the close ties we have with our 
local communities. According to recent statistics provided by the 
Employer Support of the Guard and Reserve (ESGR), civilian employers 
continue to support and value the military service of their 
employees.\7\ Maintaining employer support and stability is critical to 
retaining the necessary experience at the unit level.
---------------------------------------------------------------------------
    \7\ ESGR USERRA case resolution statistics.
---------------------------------------------------------------------------
    The President has made supporting military families a top national 
security priority.\8\ Military families support and sustain troops, 
care for wounded warriors and bear the loss of our fallen heroes. The 
well-being of military families is a clear indicator on the well-being 
of the overall force. Less than 1 percent of the American population 
serves in uniform today. While the impact on war has had little direct 
impact on the general population, re-integration challenges faced by 
military families can have far reaching effects on local communities. 
We are committed to supporting our military families. Strong families 
positively impact military readiness and preserve the foundation of the 
``Reserve Triad.''
---------------------------------------------------------------------------
    \8\ The President of the United States released the final report on 
Presidential Study Directive-9 (PSD-9) on January 24, 11. The report 
identified the administration's priorities to addressing challenges 
facing military families.
---------------------------------------------------------------------------
    We have placed added emphasis on suicide prevention and resiliency. 
Airmen in high-stressed career fields undergo a 2-day decompression 
program at the Deployment Transition Center. Additionally, at each home 
station installation, we implemented a tiered system of suicide 
prevention to address mental health concerns. The well-being of our 
force is a priority and we will continue to give it our undivided 
attention.
    Thanks to congressional initiatives, our Yellow Ribbon 
Reintegration Office is up and running and fully implementing 
Department of Defense directives. Our program strives to provide 
guidance and support to military members and their families at a time 
when they need it the most, to ease the stress and strain of 
deployments and reintegration back into normal family life. Since the 
standup of the program in August 2008, we have hosted 125 events across 
39 Wings and Groups. Nearly 21,000 Reservists and 15,000 family members 
have attended these events. From Yellow Ribbon event exit surveys and 
through both formal and informal feedback, we know attendees feel 
better prepared and more confident about the deployment cycle. The Air 
Force Reserve is leaning forward in meeting pre-, during and post-
deployment needs of our members and their families.
                               conclusion
    We take pride in the fact that when our Nation calls on the Air 
Force Reserve, we are trained and ready for the fight. As an 
operational force over 70,000 strong, we are mission-ready and serving 
operationally throughout the world every day.
    In a time of constrained budgets and higher costs, in-depth 
analysis is required to effectively prioritize our needs. We must 
understand the vital role we play in supporting our Nation's defense 
and concentrate our resources in areas that will give us the most 
return on our investment. Optimizing the capabilities we present is a 
top priority, but we must simultaneously support our Airmen, giving 
them the opportunity to have a predictable service schedule that meets 
the needs of Reservists, their families and their employers.
    The Air Force Reserve must also remain flexible, capable of 
surging, refocusing, and continuously engaging without exhausting 
resources and people. Approaching fiscal year 2012 and beyond, it is 
imperative that we preserve the health of our strategic reserve and 
improve our ability to sustain our operational capability. Going 
forward, we need to continuously balance capabilities and capacity 
against both near-term and long-term requirements. The actions we 
initiated in 2010 and those we advance in 2011 will preserve the health 
of our force.

    Chairman Inouye. Thank you very much.
    Over the last several years, Reserve components have 
transitioned from strategic to operational, but annual budget 
requests have not been adequately addressed for additional 
equipment. Now, what remaining equipment shortfalls concern 
you, and how does this shortfall affect your ability to train 
and deploy?

                 EQUIPMENT SHORTFALLS AND MODERNIZATION

    General Stultz. Sir, on the part of the Army Reserve, as 
General Carpenter stated earlier with the Army Guard, one, 
thanks for the support we have received in the past years 
because we have gotten unprecedented levels of dollars to get 
new equipment. Unfortunately, we are still not there.
    If you look at the Army Reserve today, the good news is I 
can report about 90 percent of the equipment on hand that I am 
authorized. However, only about 65 percent of that equipment is 
modernized. And so, we still have a lot of legacy equipment. 
And in some areas, it is very severe because it is an aging 
fleet, and it is not a fleet that is deployable.
    An example I would use is if you look at my dump trucks in 
my engineer battalions, on paper it says I have 100 percent of 
the dump trucks that I am authorized. But only 26 percent of 
them are modernized. So almost three-quarters are the old 
legacy fleet. If you look at the MTVs--medium tactical 
vehicles--on paper it says I am at 92 percent authorized. But I 
am 25 percent modernized. So it is a legacy fleet.

                    TRAINING ON MODERNIZED EQUIPMENT

    And I could go on and on with that, the point being--to 
your point--if we are going to employ this force on the modern 
battlefield, we are going to have to employ it with the 
equipment that is used on the modern battlefield. If we are 
going to train the force back home, we are going to have to 
train them on the equipment they are going to operate on the 
battlefield.
    And that is where I am really concerned, is making sure 
that, just as you said earlier, every soldier we send into 
battle goes properly trained, properly equipped. We know they 
are going to be falling in on the latest and greatest equipment 
when they get to Afghanistan. The key is am I going to be able 
to train them back here on that same level of equipment so that 
when they get there, there is no training required. They can go 
immediately to mission.
    And just as importantly, for those Army Reserve soldiers 
who are coming back from their deployment--and oftentimes, 
their second and third deployment--can I keep them engaged back 
here during those off-years if they don't have the modern 
equipment that they have been operating? And they come back and 
say, ``Why am I wasting my time training on this obsolete 
equipment? I just was in Afghanistan, and I know what the 
modern equipment looks like.''
    So we have got a bill out there of something like $3.4 
billion just in shortages. But more importantly, I have got a 
bill of about $9 billion to get modernized where I need to be.

                       SUICIDE PREVENTION EFFORTS

    Chairman Inouye. Well, I would like to talk about the 
suicide rate. It has gone up 42 percent in 2010 with 50 
reservists taking their lives. I note that most of the suicides 
occurred while they were in the civilian status. What have you 
done to respond to this?
    Admiral Debbink. Mr. Chairman, I will offer a couple of 
programs that we have in the Navy Reserve that I think are 
particularly effective. And one of those is the Psychological 
Health Outreach Program.
    And with that program, we have a total of 25 psychological 
health outreach counselors stationed throughout the country, 5 
in each region, who are very proactive in reaching out to each 
of our sailors as they return from their mobilization, as well 
as being available as a constant resource to our Navy 
operational support centers throughout the country, should they 
identify a sailor in need.
    The other thing I would offer is that we have a very close 
relationship with the active Navy and the fleet and family 
service centers. That has improved greatly over the past 
several years. And we believe that is an engagement, one sailor 
at a time, that will have the greatest impact on reducing the 
suicide rate, which every single one is a tragedy.
    Chairman Inouye. Have you noted that the rate is coming 
down, or is it still the same?
    Admiral Debbink. We have been very fortunate, Mr. Chairman, 
in the Navy Reserve at least, maintaining approximately four 
suicides per year for the last several years, down from six 3 
years ago. As I said, though, every suicide is tragic, sir.

                         AIR FORCE WINGMAN DAY

    General Stenner. Senator, if I could add to that just a 
touch? I think that in the Air Force Reserve we have kind of 
flat-lined. Of course, zero is the place we want to be, but we 
have flat-lined on what we are, in fact, seeing happen. And a 
lot of that I attribute to leadership involvement.
    We have what we call a Wingman Day. And on Wingman Day, we 
take the time off to sit down with each other in the small 
groups that we have and discuss the kinds of things that go 
into de-stigmatizing any kind of thoughts that folks have, 
either if they have ideations--suicidal ideations--and/or if 
somebody sees something, they should not feel too hard over 
talking to that person. There is no stigma on either side of 
that.
    But along with the leadership intent comes some results. 
What I have seen and I have documented are six ``saves,'' if 
you will, in the last several months that could have turned 
into something tragic that was averted because we do have that 
leadership involvement. We have taken the time out of our 
schedules to do a Wingman Day.
    We are looking at resiliency training coming out of the 
theater, taking 2 days to go through a resiliency training 
center in Germany and getting those kinds of things talked 
about before they return to the States and then reintegrate 
with the families and the jobs.
    Leadership is a big deal, along with the rest of the ideas 
that are coming from leadership and coming with the programs 
that you have funded us with.
    Thank you.
    Chairman Inouye. General.
    General Moore. Yes, sir. As Admiral Debbink indicated, we 
are drawing very heavily on the regional siting of the mental 
health professionals. And I think that is paying real dividends 
and certainly a program that has earned its keep.
    We also, as General Stenner just mentioned, we do spend 
quite a bit of time on what I would call resiliency, hardening, 
with our combat operational stress programs, both pre- and 
post-mobilization. And then, finally, as we have for 235 years, 
we rely on small unit leadership, in particular our NCOs and 
staff NCOs. They know their marines.
    And when a marine is at risk because of stressors, both as 
a result of service and then also in his or her life outside of 
the Marine Corps, we rely on those NCOs and staff NCOs, in 
particular, to minister, if you will, to their marines.
    So the numbers are trending positively. I mean, one is too 
many. But nonetheless, this year is looking pretty good, 
compared to the last.
    Thank you.
    Chairman Inouye. You have had a pretty hefty deployment 
record. Let us see--60,000 reservists, and 20,000 have been 
deployed more than once. You keep track of all of those after 
they get back?
    General Moore. Well, we certainly try, sir.
    As you know, if a marine chose to drop from the active 
drilling Marine Corps Reserve to the Individual Ready Reserve 
after he or she returns from a deployment, they aren't seen 
quite as frequently if they are in the Individual Ready 
Reserve. But we do track as closely as we can and continue to 
be engaged with marines that have multiple deployments.
    I was with 1st Battalion, 25th Marines at Fort Devens 1 
week ago when we activated that battalion for its final workup 
and then deployment to Afghanistan. The sergeant major of that 
battalion, this will be his fifth combat deployment. He went 
twice as a gunnery sergeant, twice as a first sergeant, and 
then now going forward as a sergeant major.
    Chairman Inouye. Is the sergeant major here?
    General Moore. He is not with me today, sir. He is at Camp 
Pendleton with his battalion as they begin their final workup 
before they deploy in July.
    Chairman Inouye. General Stenner, the Air Force Reserve has 
had a very active time. I think you have had over 60,000 
reservists called into active service. To facilitate this high 
operational tempo, what are you doing?

                   AIR FORCE RESERVE OPERATIONS TEMPO

    General Stenner. Senator, that is a great question, and I 
am very proud that we have had 60,000 of our reservists, 75 
percent of our force, has raised their hand at least once to do 
what this Nation has called them to do and what they have 
volunteered to do.
    I have got to tell you, they are doing a great job around 
the world with a three-component Air Force that is seamlessly 
integrated, trained to the same standards. And that, to me, is 
a big part of what we are doing to facilitate keeping that 
force strong and keeping that force in a ready state, but not 
overusing the force and monitoring the dwell that we have that 
is facilitated by the structures that we have called 
associations, where we put active, Reserve together or Guard 
and Reserve together and have a package of capability that can 
flex and surge as required by this Nation, which allows us to 
monitor and manage that all-important dwell, that time back 
home, back to their employers, back to their families.
    And more of that will have to happen as we rebalance this 
force to maintain that ready force, rebalance it, and thereby 
support it, with the help of this subcommittee and the 
appropriations that come. Make it ready, keep it ready, 
rebalance it where the mission sets require it, and we will be 
that operational force that is leveraged from a strategic 
reserve, integrated seamlessly with our active and Guard 
partners.
    Chairman Inouye. I have several other questions I would 
like to submit to all of you, and if you would give me a 
response, I would appreciate it very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I know that each chief has 
indicated they would like to have their service to be involved 
in Federal call-up, not only active duty military-type 
operations, but also in case of natural disasters.
    And I asked a question of an earlier panel about the 
capability of responding and what we could do to be helpful. 
And I wonder, in this situation, there is no certainty about 
what is going to happen with these emergency call-ups. Do you 
think you are organized to respond?
    And I will ask each of you that question. When, under the 
law, the President calls up Reserve units for active duty, is 
there anything we need to do in terms of appropriating for a 
special account to set aside for such operations, or can you 
manage that within your ability to borrow and then get 
reimbursed later from other accounts? What is your reaction to 
that?
    General Stenner.

            AIR FORCE RESERVE RESPONSE TO NATURAL DISASTERS

    General Stenner. Sir, I will start the conga line here with 
the responses. But are we organized to respond? As an Air Force 
Reserve and as a three-component Air Force, I do believe we 
have the ability to respond. And we will respond when there is 
life or limb at risk, and we will worry about how to get paid 
later.
    That happens, I think, on a more frequent basis than we 
might know because there are things going on across this 
country that need that kind of timely response.
    We are working today with our combatant command partners 
and the joint staff to figure out if there is, in fact, a more 
efficient way to do that. If there was some kind of a 
guaranteed funding stream, I am certain that that would be very 
much of an enticement to say, ``No worries, we will just keep 
on going.''
    But I will tell you that we haven't used that ``can we get 
reimbursed or not'' as the key to ``will we respond?'' We will 
respond, and we are working hard to make sure that we can send 
a unit, we can send a piece of a unit, or we can send an 
individual as required.
    Senator Cochran. Admiral.

                        RESERVE CALLUP RESPONSE

    Admiral Debbink. Senator Cochran, I am very pleased with 
the way the Navy and Navy Reserve is organized to respond to 
situations like Operation Tomodachi and Operation Odyssey Dawn, 
just most recently.
    Literally, in less than 24 hours, we had Navy Reserve 
sailors flowing to both of those, based upon the usage of our 
Navy Reserve order writing system and other electronic systems 
we had to notify people of the opportunities. So that is 
working well.
    With regard to the funding issue, my belief is that each of 
the services--in my case, the Navy--should be able to handle 
that within our MPN account. Because the opportunity to utilize 
these sailors will be such that it should be able to flow right 
in there side by side with the active duty. So I don't believe 
we need any additional funding.
    However, as I mentioned in my opening statement, the 
authority to deploy these sailors is important in a security 
force assistance environment in the future. And I believe that 
proposal is before you during this Congress.
    Senator Cochran. Thank you.
    General Stultz.

               ORGANIZED TO RESPOND TO EMERGENCY CALLUPS

    General Stultz. Yes, sir. First, are we organized? Yes, 
sir, exactly. We, in the Army Reserve, are organized with 
functional command and control structure across the United 
States. So, for instance, between the Army Reserve and the 
National Guard, we have 75 percent of the engineer capability 
of the Army in our ranks.
    Now, within the Army Reserve, I have two engineer commands, 
two two-star commands, who command the engineer brigades and 
the engineer battalions within the Army Reserve. So they can 
call, they can direct, they can command and control those 
formations across the country.
    One of those two-star commands is the 412th Engineer 
Command in Vicksburg, Mississippi. And so, the commander of the 
412th Engineer Command has one-half of the Army Reserve's 
engineer capability at his behest because he commands them. He 
has authority over them.

                TITLE X AUTHORITY FOR EMERGENCY CALLUPS

    So we are organized to respond with command and control, 
with capability, wherever needed. Do we have the authority? No. 
Currently, for the homeland, as you well know, for use of the 
title X reserve on an involuntary basis is limited to weapons 
of mass destruction instances.
    And we have proposed that that really is not fully utilized 
in the resources and the assets that we have available. The 
National Guard is going to always be the first military 
responder because the Governor has the capability in 
Mississippi to activate his National Guard, and they come forth 
and do a wonderful job.
    It is only when that State goes and says, ``We need more 
help beyond our capability, and we need Federal help,'' that we 
go to the Federal forces. But today, most likely, you will get 
the 82d Airborne coming from Fort Bragg, North Carolina, when, 
within the State of Mississippi, all of us sitting here 
probably have resources that are available, that are willing, 
and that are citizens of that State.
    So they have a vested interest in responding to those 
floods or whatever, if needed. And the other taxpayers within 
that State look and say, ``Why aren't they being utilized? We 
paid our tax dollars to buy that equipment for that engineer 
unit or for that medical unit or for that Medevac unit, or 
whatever. Why aren't they being utilized to help us when we 
need them?''
    And so, that is one area where we say we just need the 
authorities looked at to say we don't want to be the National 
Guard. We want to be the Federal, but let us be the Federal 
first response versus the active component, when we are 
available and we have the capabilities.

           ACCESS TO ARMY RESERVE FOR NON-EMERGENCY MISSIONS

    The second area, as Admiral Debbink has indicated, is for 
the overseas-type mission sets, the security cooperation 
theater engagement, those types, same thing.
    Give us the authority for the Secretary of Defense or the 
Secretary of the Services to utilize us when it is not a named 
contingency like New Dawn or Iraqi Freedom or Enduring Freedom, 
when it is just a need, and we need a Reserve unit to come in 
for 60, 90 days to help us out, provide medical support, 
whatever it is, to this Nation.
    Give us the authorities there. I think if we get the 
authorities, the funding streams will be worked out because the 
combatant commands have those types of funds for theater 
engagement. And as we have seen back home with FEMA and the 
other streams there, there are funds to respond for natural 
disasters. We will work that out once we get the authorities.
    Senator Cochran. Yes. Thank you, General Stultz.
    General Moore.

                      RESERVES AS FIRST RESPONDERS

    General Moore. Sir, we are organized to respond. Our 
capabilities are scalable and flexible. So I can answer ``rog'' 
on that one, or yes.
    As each of the other flag officers have indicated, it is 
the authorities piece that currently needs some attention. I 
think there are two legislative proposals up here, both for, 
let us call it OCONUS use, not named contingency operations, 
and we have all had an opportunity to participate in the making 
of that piece of sausage as it got out of the building and came 
over this way.
    And then, second, as you have put your finger on, the use 
of title X forces inside the continental United States for 
something other than for weapons of mass destruction. And 
again, I believe there is a legislative proposal over here that 
you will see certainly either as part of the NDAA 12 or 
attached to some other piece of legislation.
    So if the authorities are in place, our abilities, our 
capabilities are there. And I think, as each of the generals 
have said, if tasked through the global force management 
process, then we certainly would respond, and we are ready to 
do so.
    Senator Cochran. Thank you very much.
    General Moore. Yes, sir.
    Senator Cochran. Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. General Stultz, Admiral Debbink, General 
Moore, and General Stenner, the subcommittee thanks you for 
your testimony and for your service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to General Craig R. McKinley
            Questions Submitted by Chairman Daniel K. Inouye
                     army and air guard--equipment
    Question. General McKinley, the equipment levels of the Army and 
Air Guard have improved significantly in the last 4 years, in large 
part due to additional equipment funding provided by the Congress. The 
Army Guard now has 77 percent of its equipment requirements, up from 40 
percent in fiscal year 2006. How have these increases improved 
readiness, and what additional equipment challenges remain?
    Answer. A recently completed review of Army National Guard (ARNG) 
Equipment On-Hand (EOH) indicates that the ARNG units have an average 
of 88 percent of their authorized equipment. Since the end of 2006, the 
number of ARNG units that met minimum readiness standards for equipment 
on hand increased from 31 percent to 49 percent. Despite the overall 
improvement in the ARNG's equipping posture, critical shortfalls 
remain. Current equipment shortages, which constrain readiness, include 
medium tactical trucks and trailers (many are programmed for delivery), 
Warfighter Information Network-Tactical equipment (provides mobile 
satellite communication and ground-based network capabilities) and its 
associated command and control systems, Firefinder Radars, and the 
newer generation of engineer equipment.
    Question. General McKinley, what remaining equipment shortfalls are 
you most concerned about?
    Answer. The Army continues to improve the EOH and modernization 
levels for the ARNG. The ARNG's most critical equipment shortfalls are 
provided below:
  --General Engineering Equipment.--Horizontal/vertical construction, 
        diving, and firefighting equipment for Homeland Defense 
        Response missions.
  --Family of Medium Tactical Vehicles.--Replacement vehicles for 
        existing, nondeployable M35 series, and 800/900 series 2.5- and 
        5-ton trucks in the ARNG fleet.
  --Shadow Tactical Unmanned Aircraft System.--Equipment sets and 
        associated Shadow Crew Trainers are high-value intelligence, 
        surveillance, and reconnaissance assets for support of war-
        fighting missions across the full spectrum, as well as for 
        homeland emergency support to civil authorities.
  --Command Posts (Tactical Operations Center and Standardized 
        Integrated Command Post System).--Integrated command posts with 
        Force XXI Battle Command, Brigade and Below.
  --Chemical/Biological Protective Shelter.--Chemical, Biological, 
        Radiological, Nuclear, and Explosives (CBRNE) collective 
        protective systems for Consequence Management Response Force 
        (CCMRF) missions.
    The Air National Guard (ANG) is most concerned with the following 
equipment needs:
  --Upgrades to the fleet of 11 RC-26Bs to include flight deck 
        avionics, Electro-optical/Infrared Full Motion Video sensor 
        suite, Main Sensor Operator station, and communications suite. 
        The upgrades would align the fleet with the current capability 
        provided by the MC-12.
  --The ANG vehicle fleet which represents 15 percent of the vehicles 
        operated by the Air Force. Approximately 2,300 of more than 
        14,000 are replacement eligible/legacy vehicles. Each fiscal 
        year, between 200 and 600 vehicles become replacement eligible.
  --F-16 and A-10 recapitalization and modernization and reducing 
        current delays which are significantly impacting the aging 
        fleets.
               family support and yellow ribbon programs
    Question. Gentlemen, this subcommittee recognizes the contributions 
made by reservists over the past 10 years of war and wants to ensure 
that they and their families receive the support services they need. 
Outreach efforts such as the Yellow Ribbon Reintegration Program are 
particularly important for guardsmen and their families who are 
geographically dispersed across the country. Please update the 
subcommittee on your service's Yellow Ribbon efforts and their 
effectiveness.
    Answer. The National Guard Yellow Ribbon Reintegration Program 
supports servicemembers and their families with events and activities 
that focus on their physical, mental, social, spiritual, and financial 
wellbeing throughout the deployment cycle.
    In fiscal year 2009, the National Guard held 958 events in 353 
locations nationwide. A total of 63,775 service members attended these 
events, along with 31,674 family members. Each event, on average, drew 
100 attendees. In fiscal year 2010, the National Guard held 1,657 
events in 498 locations nationwide. A total of 127,844 servicemembers 
attended these events, along with 125,255 family members. Each event, 
on average, drew 153 attendees. For fiscal year 2011, as of March 31, 
2011, the National Guard has held 964 events in 352 locations 
nationwide. A total of 53,871 servicemembers attended these events, 
along with 50,011 family members. Average attendance at these events 
has been 153 attendees.
    The National Guard utilizes After Action Reports to determine the 
effectiveness of individual events. Participants are asked to complete 
surveys to provide feedback on the information they received regarding 
resources available to them and their families throughout the 
deployment. Participants are also asked to provide feedback on 
information received about the benefits they have earned as a result of 
being deployed, and how to access these benefits. In an effort to 
expand the support and services that are provided, the National Guard 
is focusing on collaboration, communication, and training in order to 
reinforce a seamless, comprehensive network of support services. This 
initiative will allow the National Guard to reach a wide range of 
stakeholders by providing training on best practices using a variety of 
tools (i.e. classroom, e-learning and virtual workshops), while 
ensuring services provided recognize the unique, State-oriented needs 
of the National Guard, and are also applicable to all Reserve 
Components.
    Question. Are family support programs fully funded in the fiscal 
year 2012 budget request? Are there programs, from your perspective, 
that could be improved?
    Answer. Family Assistance Centers are funded at $26 million in the 
base. Overall, $71 million exists in validated requirements. Family 
Readiness Support Assistants are funded at $15.6 million in the base, 
while $17.5 million exists in validated requirements. Child and youth 
programs are funded at $28 million in the base while there is $68.3 
million in validated requirements.
    We are continually improving our family support through improved 
training, expansion of our volunteer network and coordination with 
other support networks including other military programs, Federal and 
local government, and the private sector. We are very excited about the 
work being done through the Chairman of the Joint Chiefs of Staff 
Family Support meeting to revitalize Inter-Service Family Assistance 
Committees in support of all military members, their families and 
veterans. Inter-Service Family Assistance Committees are voluntary 
military/community coalitions that facilitate support through a series 
of networks. Through these networks, we will continue to work toward 
increased collaboration, cooperation, and communication.
          national guard and reserve equipment account (ngrea)
    Question. Gentlemen, this subcommittee recognizes the importance of 
providing the Guard funding for necessary new equipment and 
modernization of aging equipment and have consistently done so through 
the National Guard and Reserve Equipment Appropriation (NGREA). Please 
describe the importance of this additional funding to providing 
Critical Dual-Use (CDU) equipment for the Guard.
    Answer. The Army continues to address shortfalls in the ARNG while 
striving to modernize ARNG capabilities. The ARNG estimates it needs 
$3-$4 billion in annual programmed funding to maintain interoperability 
with Army units, sustain current EOH levels, and continue modernizing 
our equipment. The additional funding the ARNG receives from the 
Congress through the NGREA enables the ARNG to enhance the Army's 
already robust procurement plans, by focusing complementary funding on 
CDU equipment.
    The Family of Medium Tactical Vehicles (FMTV) is one of the 
mainstays of CDU equipment and continues to play an integral part in 
most ARNG missions. As such, the ARNG has invested large portions of 
the NGREA funding in modernizing its Medium Tactical Vehicle (MTV) 
fleet. Funding from fiscal years 2008-2010 the NGREA allocated for FMTV 
will result in the modernization of 12 percent of the ARNG's MTV fleet.
    The ARNG has also invested the NGREA funds in Tactical Battle 
Command Systems to enhance interoperability with Army units. 
Specifically, the ARNG invested the NGREA funds in CDU systems, such as 
the Tactical Operation Combat System, Standard Integration Command Post 
System (SICPS), and Warfighter Information Network-Tactical. These 
systems provide standardized communication infrastructure for 
commanders and staff to digitally plan, prepare, and execute operations 
related to their missions. With the NGREA funding, the ARNG was able to 
purchase SICPS and Command Post Platform systems for more than 47 
brigade/battalion level units.
    The ARNG continues to posture itself toward the Army's full-
spectrum, ARFORGEN-based Equipping Strategy, by focusing on 
modernizing, improving equipment interoperability, and emphasizing CDU 
equipment. As a result of significant Army investment in ARNG equipment 
and the generous support from the Congress, the ARNG equipment on-hand 
percentage has risen to 88 percent, and the ARNG has 89 percent of its 
CDU EOH, as of March 2011.
    The NGREA is the life blood of the ANG modernization efforts. The 
Active Component's emphasis is on long-term recapitalization as 
Department of Defense budgets flatten, which increases the importance 
of the NGREA for modernizing legacy ANG aircraft. In addition, the 
Active Component has not yet recognized the unique requirements driven 
by the ANG's domestic mission--the NGREA is the primary means to 
fulfill these current domestic capability shortfalls.
    Question. Historically, the Department has had some trouble in 
obligating the NGREA funds in a timely manner. Please provide an update 
on current obligation rates.
    Answer. The ARNG obligation rates for the NGREA have significantly 
improved in the past 12 months, through the implementation of better 
business practices and communication with Department of the Army and 
Program Manager Offices. The ARNG NGREA obligation rates for fiscal 
year 2009 and fiscal year 2010 exceed both congressional and Office of 
the Secretary of Defense obligation standards. The ARNG NGREA 
obligation rates as of June 2011 are as follows: fiscal year 2009--98 
percent; fiscal year 2010--88 percent.
    The ANG changed the NGREA planning and execution process to meet 
the Office of the Secretary of Defense (OSD) goal of obligating 80 
percent of procurement funds in the first fiscal year of the 
appropriation. The Air Force is also providing assistance by issuing 
policy letters that will drive process changes to speed obligations. 
The ANG NGREA obligation rates are now within OSD standards, and as of 
June 2011 are as follows: fiscal year 2009--93.5 percent; fiscal year 
2010--83.5 percent.
                       hawaii army national guard
    Question. General McKinley, the National Guard Bureau (NGB) plans 
to relocate a Battalion Headquarters 29th Infantry Brigade from the 
Hawaii Army National Guard to the California Army National Guard upon 
conversion from the Brigade Special Troops Battalion (BSTB) to a 
Brigade Engineering Battalion (BEB). I am concerned that moving the 
headquarters to California would adversely affect Hawaii's homeland 
response capability, since this unit is currently dual-missioned as the 
command and control element of Hawaii's Chemical, Biological, 
Radiological and Nuclear Response Force Package (CERFP). Please provide 
an update on the decision to relocate the headquarters.
    Answer. The BEB Force Design Update (FDU) is pending approval by 
the Army Chief of Staff. It is one of several initiatives under 
consideration in the Total Army Analysis (TAA) 14-18. Until TAA 14-18 
resourcing requirements are clear--we anticipate this will be in 1st 
quarter fiscal year 2012--the ARNG will not make the BEB-related 
stationing decisions. Additionally, we will review the Hawaii National 
Guard's total force structure to ensure they have the necessary 
capabilities for homeland response.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                       marijuana on public lands
    Question. In the President's fiscal year 2012 budget, $179.7 
million is requested to support States' programs, again including 
eradication of marijuana on public lands.
    How effective can the National Guard be in fiscal year 2012 in 
eradicating marijuana on public lands without the kind of additive 
funding that was provided in fiscal year 2011? What would our 
operations look like without an additional $50 million?
    Answer. There is a direct correlation between funding and manning 
and results. By providing additional funding to State National 
Counterdrug Programs, they are able to resource more personnel to 
priority law enforcement counternarcotics missions and significantly 
impact there operations in a positive way. Marijuana eradication on 
public lands has historically benefited from additive funding. Without 
additive funding, all programs will be forced to curtail support 
operations to include priority missions aimed at specific threats. The 
second and third order of effects of no additive funding will sharply 
impact remaining priorities; thus, potentially allowing the always 
adapting threat to thrive in areas not fully resourced to meet 
requirements. Marijuana eradication is a deliberate 6-9 month operation 
for many States. Additive funding, if provided, is required early in 
the planning process to adequately meet customer requirements and also 
permit State programs to efficiently execute the additional resourcing.
    Without an additional $50 million, operations would be reduced from 
the fiscal year 2010 in the following manner: aviation reconnaissance 
would be reduced anywhere between 25-40 percent; high-priorities States 
could be impacted even more, potentially up to 50-60 percent of their 
historical support operations; and finally eradication efforts would 
not be in place to removed anywhere between 600,000 and 900,000 plants 
for fiscal year 2012.
    Question. How much of the National Guard's counterdrug funding is 
used for the eradication of marijuana on public lands? What other areas 
is it used for?
    Answer. For fiscal year 2010, 13 percent of the State Plans budget 
was used for aviation reconnaissance. Approximately 90 percent of 
aviation reconnaissance is used for marijuana spotting on public lands. 
This equates to a dollar value of $26.7 million for fiscal year 2010.
    For fiscal year 2011, 16 percent of the State Plans budget was used 
for aviation reconnaissance. Approximately 88 percent was used for 
marijuana spotting on public lands. This equates to a dollar value of 
$33.1 million for fiscal year 2011.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
   s. 325, embedded mental health providers for reserves act of 2011
    Question. General McKinley, I am very concerned about the 
increasing rise in Guardsmen suicides. I know it can be challenging to 
reach out to servicemembers are they return to their communities, but I 
feel more can be done. The California National Guard has embedded part-
time providers at some of their armories and they have noticed a 
dynamic increase in self-referrals over time.
    Do you think programs such as Embedded Mental Health Providers will 
increase the trust between Guardsmen and mental health providers; 
ultimately reducing some of the stigma associated with seeking mental 
health care?
    Answer. We do. One of our most interesting initiatives is a 
California National Guard (NGCA)-TRIWEST sponsored embedded counselor 
pilot program that started in 2006 and continues today. The program 
data elements collected so far indicates trust has been established.
    In 2006, only 36.28 percent of contacts by Guard members to 
embedded counselors were ``self-referred''; a Guard member initiated 
contact. To date, more than 50 percent of our Guard members are 
choosing to ``self-refer'' to an embedded counselor. In 2006, more than 
10 percent of Guard members were referred to an embedded counselor by a 
commander. To date, less than 3 percent are being referred by 
commanders. In 2006, 2.64 percent of the referrals were made by peers. 
To date, there have been no referrals suggested by a peer. Increased 
self referral rates, decreased command requested referrals, and a 
decrease in peer suggested referrals, most likely indicate either a 
reduction in stigma or an increase in trust associated with those 
seeking counseling services.
    In addition, most of the embedded counselors have remained with the 
units of original assignment. All have recently elected to continue 
contracting with TRIWEST in the embedded counselor program. Retention 
rates are indicators of positive job satisfaction; and clearly the 
embedded counselors must believe their efforts are making a difference.
    The design of the embedded counselor program places providers in 
high-risk units, at armories and wings well before deployment allowing 
``relationships'' to become well established. While Guard members are 
deployed, families and Guard members who have not deployed, have a 
familiar and reliable resource available to them.
    It is well known that cohesiveness is an important factor within 
military units and trust is critical. We believe the embedded counselor 
program has forged a bond between our embedded counselors and our Guard 
members beyond initial expectations.
    Question. Post-deployment, where do National Guard members and 
their family members turn for support when the member is not on Active 
Duty status?
    Answer. Many National Guard servicemembers are remotely located 
(isolated) in terms of support systems when released from Active Duty.
    Because of the existing relationship with the embedded counselor in 
a specific unit, the opportunity for critical intervention is greatly 
enhanced. Access to mental health care has been a continued challenge 
for the members of the National Guard. The majority of clinical 
referrals are made to local and county mental health departments.
    One of our most interesting initiatives is a NGCA-TRIWEST sponsored 
embedded counselor pilot program that started in 2006 and continues 
today.
    During the past 16 months, the NGCA has met and briefed nearly all 
of the 58 California county directors and staff members on the embedded 
counselor program and feedback has been enthusiastic and supportive. 
Through these discussions, a need for ``military culture'' training was 
identified, developed and currently more than 20 counties and 1,000 
civilian providers have received this important orientation, which is 
critical to understanding the nuances associated with deployment and 
combat stress. In addition, the NGCA has initiated a behavioral health 
outreach effort to enhance the embedded counselor program with ``strike 
team'' capability to respond to critical incidents.
    Most recently, in order to provide empirical data to the embedded 
counselor model, the Walter Reed Army Research Institute has initiated 
a research study involving 12 units scheduled to deploy in 2011. The 
results of this study may provide conclusive data as to the efficacy 
and cost effectiveness of the embedded counselor program model.
                  national guard military construction
    Question. General McKinley, 40 percent of Army National Guard 
Readiness Centers are more than 50 years old, including some in my 
State of Washington. I am very concerned that after serving with their 
Active-Duty counterparts in state-of-the-art facilities on deployment, 
our servicemembers return home to insufficient facilities.
    Has the National Guard reviewed the condition of all of their 
facilities as a whole?
    Answer. Yes, each quarter the Army National Guard (ARNG) captures 
the condition of all federally supported facilities, and updates the 
Army Installation Status Report (ISR) database. Each State, Territory, 
and the District of Columbia captures information on a variety of 
condition factors for each facility and provides analysis of the 
overall facility condition.
    In addition, Senate Report 111-201 (Senate Armed Services 
Committee) directed the Secretary of the Army to conduct an independent 
study of all Army National Guard Readiness Centers. This study--
considering several criteria, including size and condition--is in the 
pilot stage and defining the standards and methodology for conducting 
the study.
    Also, each year the Air National Guard (ANG) base leaders conduct 
facility assessments, prioritize requirements through a facility board 
process composed of senior leaders at the installation, and forward the 
prioritized requirements to the Installations and Mission Support 
Directorate at the National Guard Bureas (NGB) for inclusion in 
upcoming Sustainment, Restoration, and Modernization or Military 
Construction (MILCON) programs. While the ANG does have facility 
modernization needs, the sufficiency of our facilities continue to meet 
our airmen's needs.
    Question. How will the decrease in the MILCON funds in future years 
affect the ability to modernize and improve the quality of the 
facilities used by Guardsmen nationwide?
    Answer. The ARNG and its facilities will be adversely affected if 
the MILCON funds decrease in future years, as of today, 40 percent of 
the ARNG's 26,000 facilities are more than 50 years old in the States, 
Territories, and District of Columbia. Assuming current projected 
MILCON funding levels, the ARNG will replace less than 1 percent of 
these aging facilities each year. The result is an ARNG force supported 
by rapidly aging and outdated facilities that are inadequate to support 
operation readiness, and, because these facilities are not energy 
efficient, the structures are far more expensive to maintain.
    Decreased MILCON funding in future years will also adversely affect 
the ANG's ability to modernize and improve the quality of facilities 
used by Guardsmen. The ANG MILCON requirements are considered by the 
Air Force based on mission requirements and the merits of each project, 
and then ranked in priority with all Air Force and Air Force Reserve 
submissions. Each year the Air Force develops a total-force (ANG, 
Active Duty, and Air Force Reserve) prioritized list of new mission 
bed-down project requirements to address the needs for missions being 
changed, and a prioritized list of current mission recapitalization 
project requirements to address needs of existing missions with aging 
or degraded facilities.
    If future conditions fiscally constrain the Air Force MILCON 
program, fewer projects can be funded. A constrained MILCON program may 
only allow the Air Force to fund ``must do'' projects to bring new 
weapons systems on line, which may force difficult choices to defer 
current mission requirements. Should this lead to further constraints 
on the ANG MILCON funding, the ANG will continue to apply available 
sustainment, restoration, and modernization funds to existing 
facilities in order to keep the ANG missions viable as long as 
possible.
    Question. Is there a backlog of MILCON projects that need to be 
addressed? How large is it in cost?
    Answer. Yes, the Army ISR reflects a $28.2 billion backlog in 
MILCON. Today, 40 percent of the ARNG's 26,000 facilities are more than 
50 years old. Many of these older ANG facilities meet neither current 
anti-terrorism/force protection requirements, nor demographic shifts in 
population, and current square footage deficits have a direct effect on 
ANG mission readiness.
    The ANG submitted a fiscal year 2013-2016 Future Years Defense 
Program (FYDP) with requirements for major construction, unspecified 
minor military construction, and planning and design totaling more than 
$538 million. In addition, subject to the provisions of title 10, 
Section 10-543, the ANG submitted to Congress a prioritized list of 
more than $163 million in requirements that could be included in the 
FYDP, should additional capacity be provided through congressional 
action. These two prioritized lists of requirements, when combined, 
would exceed $700 million; thus, the ANG MILCON backlog of requirements 
is at least this large.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                      army national guard director
    Question. General McKinley, which is more important to the National 
Guard Bureau (NGB) and the effective operation of the Army Guard: 
getting a Director of the Army Guard nominated and confirmed, or 
getting a three star Vice Chief position for the Bureau?
    Answer. The most immediate need is for a Director of the Army 
National Guard (ARNG) to be confirmed as soon as possible. The position 
has been encumbered by an Acting Director (two-star) for more than 2 
years, and a permanent three-star is needed in order for ARNG equities 
to be appropriately represented at the highest levels of the Army. At 
the same time, converting and upgrading the current Director, NGB Joint 
Staff billet to a three-star Vice Chief, the NGB is imperative. The 
establishment of the NGB as a Joint Activity of DOD and elevation of 
the Chief, the NGB to a four-star in November 2008 added significant 
new roles and responsibilities. The commensurate increased requirements 
within Joint decisionmaking forums, all requiring three- or four-star 
level participants, drive the re-establishment of the Vice Chief, NGB 
position.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. What impact have National Guard counter-drug operations 
had on drug production? Why had this funding not been previously 
included in the National Guard's budget request? What steps does the 
National Guard Bureau (NGB) intend to take to keep these operations 
going in the future?
    Answer. In fiscal year 2010, the National Guard Counterdrug Program 
(NG CDP) assisted law enforcement in eradicating more than 10.1 million 
marijuana plants across the Nation. Of those, more than 7.6 million (or 
75 percent) marijuana plants were eradicated in the marijuana seven 
States (Hawaii, Washington, Oregon, California, West Virginia, 
Tennessee, and Kentucky).
    Each year, funding for the NG CDP is included in the President's 
budget request. Funding has been requested in the Program Objective 
Memorandum process to include additional unfunded requirements 
throughout the Future Years Defense Program (FYDP).
    Question. I am told that the National Guard will allocate proposed 
fiscal year 2012 counterdrug funding to States through a ``threat-based 
model'' formula. What facts and criteria were crafted for this model to 
be based on? Given that Kentucky consistently ranks as one of the top 
three States for marijuana production, where does Kentucky rank, 
according to this formula, in terms of States with serious drug 
threats? What will be the percent increase or decrease in funding for 
Kentucky compared to the fiscal year 2011 funding level? What rationale 
does the NGB have for this change in funding for Kentucky?
    Answer. The NG CDP is employing a new Threat Based Reduction Model 
(TBRM). This model uses an objective, threat based resourcing model 
that provides the Governors funding commensurate with their threat 
level yet flexible enough from year to year to adjust resourcing to 
meet emerging threats and the needs of our stakeholders and customers 
(States, law enforcement agencies, and community-based organizations)
    To properly identify the threat for each State, six separate 
vulnerability categories, or clusters, were identified that quantified 
the theat. These clusters align with the established National Drug 
Intelligence Center and NG CDP State Plan identification of threat 
criteria. These areas are: production, distribution, transportation, 
abuse, illicit finance and a catch-all cluster called related data. 
These areas are defined below:
  --Production.--Production vulnerabilities include producing crack 
        cocaine from powder, growing marijuana both indoor and outdoor, 
        and methamphetamine laboratories. These identify production 
        trends associated with drug-trafficking organization (DTO) or 
        criminal gangs.
  --Distribution.--Distribution vulnerabilities include a specific DTO 
        or criminal gang and methods of distribution such as an illicit 
        Internet pharmacy.
  --Transportation.--Transportation vulnerabilities include major 
        highways, ports, airports, points of entry, borders, offshore 
        locations, corridors passing from one State to another State, 
        or a High Intensity Drug Task Area.
  --Abuse.--Drug abuse vulnerabilities include sociological impact and 
        consumption amounts by demographics.
  --Illicit Finance.--Illicit finance includes common money laundering 
        techniques such as the use of digital currency over the 
        Internet, use of foreign banks or wire transmitters.
  --Related Data.--Those variables that do not fit into the above 
        categories yet still have impact and require inclusion. These 
        include interdiction, population and other contributing factors 
        that are not accounted for in the State plan process.

------------------------------------------------------------------------
                                     Distribution       Illicit finance
          Abuse cluster                 cluster             cluster
------------------------------------------------------------------------
Substance abuse treatment         Number of cities    Number of currency
 admissions (Ages  12-17).         reporting a         seizure incidents
                                   Mexican DTO         at ports of entry
                                   Presence.           or on internal
                                                       highways
Illicit drug use rates in the     Gang members per    Number of SARS
 past month.                       capita.             money laundering
                                                       cases
Illicit drug dependence in the    ..................  Amount of currency
 past year.                                            seized at land
                                                       ports of entry or
                                                       on internal
                                                       highways
Substance abuse treatment
 admissions (not including
 alcohol) (all ages).
Drug abuse violations...........
Rates of abuse for cocaine,
 heroin, marijuana, and
 methamphetamine.
Prescription drug abuse.........
------------------------------------------------------------------------

    The threat input from State counterdrug coordinators and 
Interagency partners is ongoing. The results of the model will not be 
known until mid-June at that time determinations for individual States 
will be made.
    The rationale comes from both Office of National Drug Control 
Policy (ONDCP) and the Deputy Assistant Secretary of Defense of 
Counternarcotics (DASD/CN) As of May 1, 2007, the ONDCP directed ``all 
national drug control programs to have a performance reporting program 
as an integral part of the agency's budget and management process.''
    The NG CDP's TBRM is the culmination of a 3-year effort to 
implement a more objective, threat-based methodology for determining 
overall threat levels within the States to better apportion individual 
State program appropriations. The ultimate objective is to allocate 
resources against the threat for the purpose of achieving clear 
outcomes under the National Security Strategy, National Drug Control 
Strategy and the Department of Defense Counternarcotics & Global 
Threats Strategy.
    If Kentucky's funding is reduced, it will be threat based and be 
supported by the customer's that request support in Kentucky, as well 
as supporting objectives and goals outlined in DASD/CN&GT and ONDCP 
strategies.
                                 ______
                                 
      Questions Submitted to Lieutenant General Harry M. Wyatt III
            Questions Submitted by Senator Dianne Feinstein
                          firefighting support
    Question. As you may know Lieutenant General Wyatt, the U.S. Forest 
Service (USFS) currently only has access to 19 firefighting aircraft in 
addition to your 8 planes. These planes are old, and they are all 
nearing the end of their operational service life. In order to make up 
this shortfall, some have proposed expanding the Air National Guard's 
(ANG) involvement in the firefighting mission.
    What is the status of the effort to obtain joint-use C-130J's to 
supplement the Guard's needs as well as the aerial firefighting needs 
of the USFS?
    Answer. The ANG is currently working with the Department of 
Agriculture and the Department of the Interior to examine how this can 
be accomplished. The ANG continues to work with the DOD on completion 
of the report on the joint use of Federal forest firefighting assets 
and C-130 firefighting capability, as required by the Fiscal Year 2010 
Defense Appropriations Bill. In addition, the ANG is examining the use 
of a ninth Modular Airborne Fire Fighting System and the best location 
to use that equipment. The pending RAND Studying (commissioned by the 
USFS to look at the possible purchase of additional C-130J's) will also 
help define the future strategy.
    Question. If additional planes were acquired, would the arrangement 
allow them to respond to a wildfire at a moment's notice? Would there 
be restrictions on the use of the planes that prohibit them from being 
used to perform initial wildfire attack?
    Answer. Yes. If deliberate planning is used, proper scheduling is 
defined, and an appropriated budget in place. There is no impediment to 
having our crews perform initial attack. The crews simply need to be 
properly trained and certified by the USFS.
    Question. If additional planes were acquired, would the planes be 
available for the duration of the fire season--between June and 
November in California--or would there be other demands that would 
render the planes unavailable for extended periods of time?
    Answer. There will always need to be a balance between the war-time 
mission and our domestic operations responsibility. Through proper 
scheduling of aircraft, aircrew, and maintenance personnel, aircraft 
and crews would actually be more available than they are currently to 
the State of California and other States.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
    Question. Recently, the Air Force and National Guard Bureau (NGB) 
announced a decision to reduce the Primary Aircraft Authorization (PAA) 
at Truax Field in Madison, Wisconsin from 18 to 15 F-16 fighters. I 
understand that this was part of a larger reduction in the PAA for F-16 
fighters, which is being implemented over several years at many bases. 
According to General Schwartz, this decision was made early in 2006 as 
part of the President's budget for fiscal year 2008, and the Wisconsin 
Air National Guard was notified in December 2010 about this decision.
    When was the Air National Guard (ANG) notified of this decision? If 
the decision was made several years ago, why were the leaders in the 
Wisconsin ANG notified only recently?
    Answer. The decision to reduce the PAA at Truax Field was made 
early in 2006 in conjunction with the ANG as part of the fiscal year 
2008 President's budget. Due to the restrictions placed on release of 
information contained in the President's budget, the Air Force provides 
a force structure announcement in the fiscal year prior to 
implementation. The NGB provides a more specific announcement to the 
Adjutants General following the Air Force announcement. However, in 
this case the leadership of the Wisconsin ANG was informed of this 
action in December 2010 by the Director, the ANG, approximately 5 
months prior to the planned official force structure announcement.
    Question. Your testimony stressed the importance of maintaining the 
readiness of the ANG to be an operational partner of the Active Duty 
Air Force.
    Will the readiness of the fighter wing at Truax Field be impacted 
by the loss of flying hours from the reduction of three F-16 fighters 
in their primary aircraft authorization?
    Answer. Yes, the reduction of 3 PAA of Block 30 aircraft, resulting 
in 15 PAA incurs more risk by the Wisconsin ANG, due to the decrease in 
manpower and the loss of 720 flying hours. Due to the decrease of PAA, 
the unit will need to eliminate one full-time maintenance position and 
76 part-time maintenance positions. Furthermore, the 115th Fighter Wing 
is an Air Sovereignty Alert (ASA) unit with an Air Expeditionary Force 
(AEF) rotational requirement. When mobilized for their AEF rotation, 
they are required to keep no less than ten Active Guard/Reserve pilots 
at home station to cover the alert mission, which is not possible to 
accomplish while supporting the AEF. Reduction from 18-15 PAA also 
directly impacts ability to support AEF. Six jets must remain behind 
plus associated support equipment for ASA commitment, leaving only nine 
jets remaining for AEF support.
    Question. General Schwartz stated that the reduction of F-16 
fighters in the ANG's primary aircraft authorization ``was a deliberate 
decision to accept near term risk while bridging to a fifth generation 
fleet.''
    As the Air Force transitions to a fifth-generation fleet, does the 
ANG plan to deliver fifth generation fighters to Truax Field?
    Answer. Burlington, Vermont has been selected as the preferred 
alternative for the first ANG F-35 location. Future ANG F-35 bed down 
locations have not yet been determined. While the ANG realizes the 
importance of future F-35 basing in the ANG, including Truax Field, 
analysis and responsibility for F-35 basing decisions resides with the 
Air Force's Executive Steering Group for Strategic Basing (ESG-SB). The 
ESG-SB will recommend F-35 basing candidates, including ANG units, to 
the Secretary of the Air Force and Chief of Staff of the Air Force for 
final selection, pending environmental analysis.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski
            168th air refueling wing communications facility
    Question. The project is not in the administration's fiscal year 
2012 request. Is the Air Force aware of the urgently needed repairs to 
the 168th Air Refueling Wing's Communications Facility and, if so, when 
would we expect to see funds requested?
    Answer. The Air National Guard (ANG) is aware of the proposed 
project to add to and alter the communications building in the ANG area 
of Eielson Air Force Base. At the request of the leadership of the 
Alaska ANG, the project was submitted to the Congress with ANG's fiscal 
year 2010, fiscal year 2011, and fiscal year 2012 President's budget 
justification materials as a requirement in the Future Year Defense 
Program. Other requirements of higher priority have been placed in the 
President's budget ahead of this project, and the Congress has not 
accelerated the project from future years into a current budget. 
Considering the continuing requirement, senior leaders from the ANG 
Readiness Center visited the site, examined the facility, and proposed 
a way forward to accommodate significant portions of the mission within 
available resources. The ANG will propose an unspecified minor military 
construction project to satisfy facility size shortfalls, and fund a 
sustainment, restoration, and modernization companion renovation of the 
existing facility to provide a safe, capable communications facility 
for the Alaska ANG at Eielson AFB in fiscal year 2012.
                                 ______
                                 
       Questions Submitted to Major General Raymond W. Carpenter
            Questions Submitted by Chairman Daniel K. Inouye
                national guard southwest border mission
    Question. General Carpenter and General Wyatt, can you please 
update the subcommittee on the Guard's efforts on the Southwest Border? 
The original mission was scheduled to be completed by the end of June 
2011. Is this still on track?
    Answer. Since the National Guard reached full operating capability 
on October 1, 2010, National Guard forces have contributed to more than 
17,549 apprehensions and seizures of more than 52,000 pounds of 
marijuana on the Southwest Border. The National Guard's presence on the 
Southwest Border has made a measurable difference in curbing the 
thousands of weapons and $19 billion that are estimated to flow into 
Mexico annually. The National Guard has been actively coordinating with 
CBP and ICE and the 1,200 National Guardsmen from four States 
(California, Arizona, New Mexico, Texas) provided criminal 
investigative analysts and Entry Identification Teams in support of the 
Customs and Border Patrol along the Southwest Border. The Southwest 
Border mission will end on September 30, 2011.
    Question. Guardsmen were supposed to begin withdrawing from the 
border in May 2011. Has this drawdown begun as planned?
    Answer. The State drawdown plans have been adjusted so that the 
main drawdown will not being until after September 1, 2011, with a 
rapid drawdown instead of the gradual 4-month drawdown that was 
originally planned. The mission will end on September 30, 2011 per the 
request of the President.
                             suicide rates
    Question. General Carpenter, the Army Guard's suicide rate 
increased an additional 13 percent last year after a 75 percent jump in 
2009. To respond to the increasing rate of suicides, the Army has added 
mental health professionals and launched a suicide prevention education 
program. Do you think these programs effectively target the Guard and 
address the wellness of Guard members beginning with recruitment and 
continuing throughout their entire service in the Guard?
    Answer. Note: the Army National Guard's (ARNG) suicide rate 
increased 81 percent last year, after a 3 percent jump in 2009.
    The additional, Army-contracted mental health professionals are 
extremely limited in what they may provide to ARNG soldiers. An ARNG 
soldier on title 10 Active Duty status is able to receive treatment at 
a military treatment facility, Veterans Administration (VA) facilities, 
and Military Medical Support Offices in remote areas. However, an ARNG 
soldier on title 32 status (participating in Inactive Duty for 
Training--traditional, once-a-month, ``drill status''--or Annual 
Training (AT)) may only receive prevention, crisis intervention, and 
referral services from Behavioral Health Officers (BHO). In addition, 
BHOs are typically only accessible during unit IDTs and ATs. If the 
ARNG Soldier neither qualifies for VA coverage, nor holds private 
health insurance, then the BHO may attempt to assist the ARNG soldier 
in finding pro-bono treatment. The BHOs cannot develop a treatment plan 
with or for the ARNG soldier.
    Much like the Active Army, services and treatment for behavioral 
health issues of geographically dispersed soldiers are critical to 
allaying the suicide rate, particularly for the many ARNG soldiers who 
lack traditional health insurance coverage.
    To alleviate the strain on the force, the ARNG recommends the 
following minimum actions:
  --Army provides emergency behavioral healthcare services to uninsured 
        and underinsured servicemembers, regardless of duty status;
  --The ARNG is authorized full-time, uniformed behavioral health 
        personnel; and
  --Add and embed behavioral health professionals to high-risk units, 
        units who have experienced suicides, soldiers killed in action, 
        or intense/prolonged combat.
    Question. General Wyatt, are you facing anything similar in the Air 
Guard with respect to suicide?
    Answer. After a low-suicide rate in 2008, we experienced a 65 
percent increase in 2009 and another 26 percent increase in 2010 for 
the highest rate we've had since tracking began. This year, we have 
lost nine members to suicide to date, compared to 9 of 19 at this time 
(June 15) last year. We have implemented a number of Air National Guard 
(ANG) initiatives and are continuing to build our Wingman Culture. Our 
primary fiscal year 2011 initiative is the embedding of Wing Directors 
of Psychological Health (WDPHs) in our 89 wings. These licensed mental 
health professionals provide consultation to wing commanders on wing 
psychological health issues and provide consultation, information, 
referral, and case management for airmen and their family members in 
need of assistance. Our Wingman Project provides training, awareness, 
and outreach to teach warfighters and their families how to identify 
symptoms of impending suicide and then intervene to save a life. The 
project provides customized marketing materials for each wing and 
provides tools accessible to airmen and their family members via a 
public website. We continue to train members how to assist fellow 
airmen in distress using the Ask, Care, Escort (ACE) suicide prevention 
model. We are having two Wingman Days this year, an opportunity for 
units to stand down and build resilience as a team, a key component in 
preventing suicide. The ANG suicide prevention booklets are being 
distributed to every airman. The Deployment Resiliency Assessment began 
April 1 and will aid in identifying and providing assistance to airmen 
at risk with an assessment prior to deployment and three follow up 
assessments. Our frontline supervisors in our high-risk-for-suicide 
career fields (security forces, communications, intelligence, and 
recommended for civil engineering) are being trained to identify and 
assist airmen in distress.
                    army guard equipment shortfalls
    Question. General Carpenter, in recent years the Army has made 
significant investments to more adequately resource the Guard and 
Reserve equipping requirements. The fiscal year 2012 budget request 
indicates that procurement funding for the Army Guard will decrease 
significantly from fiscal year 2012 onwards. Do you believe that the 
Army has adequately budgeted for Guard equipment requirements beyond 
fiscal year 2012?
    Answer. The Army continues to address shortfalls in the ARNG, while 
striving to modernize ARNG capabilities. The ARNG estimates it needs 
$3-$4 billion in annual programmed funding to maintain interoperability 
with Army units, sustain current Equipment On-Hand (EOH) levels, and 
continue modernizing ARNG equipment. Fiscal years 2012-2016 budgets 
average $2.4 billion per year for ARNG funding.
    Question. General Carpenter, what remaining equipment shortfalls 
are you most concerned about?
    Answer. The Army continues to improve the EOH and modernization 
levels for the ARNG. At this time, the ARNG's most critical equipment 
shortfalls are provided in the table below.

                        ARNG EQUIPMENT SHORTFALLS
------------------------------------------------------------------------
                  System                            Justification
------------------------------------------------------------------------
General Engineering Equipment.............  Horizontal/Vertical
                                             construction, diving, and
                                             firefighting equipment
                                             critically under filled.
                                             Required for Homeland
                                             Defense Response missions.
Family of Medium Tactical Vehicles (FMTV).  FMTV are replacement
                                             vehicles for existing,
                                             nondeployable M35 series,
                                             and 800/900 series 2.5- and
                                             5-ton trucks in the ARNG
                                             fleet.
Shadow Tactical Unmanned Aircraft System    TUAS equipment sets and
 (TUAS).                                     associated Shadow Crew
                                             Trainers are critically
                                             required high-value
                                             intelligence, surveillance,
                                             and reconnaissance assets
                                             for support of war-fighting
                                             missions across the full
                                             spectrum, as well as for
                                             homeland emergency support
                                             to civil authorities.
Command Posts (Tactical Operations Center   Integrated command posts
 & Standardized Integrated Command Post      with Force XXI Battle
 System).                                    Command, Brigade & Below
                                             continue to represent a
                                             critical shortfall for the
                                             ARNG.
Chemical/Biological Protective Shelter....  Chemical, Biological,
                                             Radiological, Nuclear, and
                                             Explosives (CBRNE)
                                             collective protective
                                             systems are required for
                                             Consequence Management
                                             Response Force (CCMRF)
                                             missions.
------------------------------------------------------------------------

                                 ______
                                 
              Questions Submitted by Senator Patty Murray
               national guard stryker brigade combat team
    Question. We in the State of Washington are very interested in 
adding a Stryker Brigade Combat Team (SBCT) to the ANG.
    How would an additional Stryker Brigade be beneficial to the ANG?
    Answer. The Army National Guard (ARNG) leadership validates the 
requirement for an additional Stryker Brigade in our Force Structure, 
based on a 2009 feasibility study. The ARNG study concluded that 
converting an existing Brigade Combat Team (BCT) to a Stryker Brigade 
would provide additional combat power, a more balanced mix of BCTs, and 
ensure relevancy within the Army Capstone Concept.
    A Stryker Brigade in the ARNG would be beneficial for many reasons:
  --The addition supports the Army Force Generation model;
  --A Stryker Brigade possesses necessary staff structure, facilities, 
        and communications to Command and Control, and facilitate joint 
        and inter-agency inter-operability; and
  --A Stryker Brigade provides additional capability for Homeland 
        Defense and Federal and State mission support, for example:
    --Consequence Management (CM).
    --Chemical, Biological, Radiological, Nuclear, and Explosives 
            (CBRNE) events and reconnaissance capability.
    --Domestic All-Hazards Response Team (DART) concept.
    --Engineer and wheeled vehicle capabilities for natural disasters.
    --Rapidly deployable, interstate navigable, and 100 percent mobile 
            command posts to establish or augment a local or regional 
            emergency operations centers.
    Requests for a force design update were submitted in November 2009 
from several States to Headquarters, Department of the Army (HQDA), and 
there are no plans to execute a conversion within the ARNG for any 
additional Stryker Brigades. Total Army Analysis 14-18 examines the 
feasibility, acceptability, and supportability of resourcing a second 
Stryker Brigade Combat Team via a holistic review of the Army's BCTs 
and enabler force requirements. Accordingly, the ARNG will work with 
HQDA to ensure the Army Operational Force is properly balanced.
    The stationing of a second SBCT will occur only after HQDA approval 
and is based on several factors: readiness for the least cost (to 
include geographic location, existing infrastructure, and level of 
modernization), available training areas and capacities, personnel 
strength, and demonstrated capacity to produce ready formations over 
time.
    Question. What are the prospects of adding a Stryker Brigade to the 
ARNG in Washington?
    Answer. The ARNG leadership validates the requirement for an 
additional Stryker Brigade in our Force Structure, based on a 2009 
feasibility study. The ARNG study concluded that converting an existing 
BCT to a Stryker Brigade would provide additional combat power, a more 
balanced mix of BCTs, and ensure relevancy within the Army Capstone 
Concept.
    Requests for a force design update were submitted in November 2009 
from several HQDA's, and there are no plans to execute a conversion 
within the ARNG for any additional Stryker Brigades. Total Army 
Analysis 14-18 examines the feasibility, acceptability, and 
supportability of resourcing a second SBCT via a holistic review of the 
Army's BCTs and enabler force requirements. Accordingly, the ARNG will 
work with HQDA to ensure the Army Operational Force is properly 
balanced.
    The stationing of a second SBCT will occur only after HQDA approval 
and is based on several factors: readiness for the least cost (to 
include geographic location, existing infrastructure, and level of 
modernization), available training areas and capacities, personnel 
strength, and demonstrated capacity to produce ready formations over 
time.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                     army guard permanent director
    Question. General Carpenter, as Acting Director of the Army 
National Guard (ARNG), part of your responsibility is to be a steward 
of the position until a permanent director is named. Are there 
decisions the Army Guard has delayed making due to your 2-year 
stewardship of the position?
    Answer. The twin challenges of having an acting Director and one 
not being at the three-star level have put the ARNG at a disadvantage 
from two aspects. First, it has hindered the ability of the 
organization to formulate and execute a long-term strategic plan and 
has delayed permanent manning of key positions on the team. The 
perceptions and realities generated by a Director in ``acting'' status 
for an extended period of time are counterproductive. Second, the ARNG 
has occasionally not had access to meetings and discussions that are 
limited to three- and four-star generals. This exclusion becomes even 
more critical as contentious budget deliberations occur in the months 
ahead.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson
    Question. With the increased reliance on the National Guard for 
operational mission support and the overwhelming need to improve 
facilities for training, are you receiving the appropriate support, 
despite eliminating earmarks, with getting construction projects onto 
the Future Years Defense Program (FYDP)?
    Answer. The Army National Guard (ARNG) and its facilities will be 
adversely affected if Military Construction (MILCON) funds decrease in 
future years, as of today, 40 percent of the ARNG's 26,000 facilities 
are more than 50 years old in the States, Territories, and District of 
Columbia. Assuming current projected MILCON funding levels, the ARNG 
will replace less than 1 percent of these aging facilities each year. 
Many of these older Army National Guard facilities meet neither current 
Anti-Terrorism/Force Protection requirements, nor demographic shifts in 
population, and current square footage deficits have a direct effect on 
the ARNG mission readiness. The result is an ARNG force supported by 
rapidly aging and outdated facilities that are inadequate to support 
operation readiness, and, because these facilities are not energy 
efficient, the structures are far more expensive to maintain.
    The Army Installation Status Report (ISR) currently reflects a 
$28.2 billion backlog in MILCON.
                                 ______
                                 
         Questions Submitted to Lieutenant General Jack Stultz
            Questions Submitted by Chairman Daniel K. Inouye
                   operational reserve's future role
    Question. General Stultz, the Army Reserve continues to transition 
from a strategic to an operational Reserve. What are the biggest 
challenges still remaining in making this transition, and what role do 
you see the operational Reserve playing in the near future as the wars 
in Iraq and Afghanistan wind down?
    General Stultz, do you believe the Army is adequately resourcing 
the Reserve to make this transition?
    Answer. Actually, the Army Reserve is now, and for the foreseeable 
future will continue to be, an operational force. Our soldiers and 
units are available to be mobilized worldwide in support of contingency 
operations and at home to respond to terrorism or threats of terrorism. 
We also have significant capabilities that can respond to natural and 
manmade disasters; however, our ability to do this readily is 
challenged by limited statutory call-up authority, which would like to 
see updated. We are planning on serving around the world with security 
cooperation and similar military engagement missions; however, here, 
too, updated statutory authority to access the Army Reserve and the 
other Reserve Component is needed.
    While the Army currently possesses an operational Reserve 
capability, we have yet to see an adequate investment of funding 
applied to our core manning and training base programs (which remain 
funded at the statutory minimum of approximately 39 days of training 
per year, throughout the force). All capabilities to train our 
operational force to a ``company level'' of proficiency have been 
realized through use of Overseas Contingency Operations (OCO) funding. 
Asthe OCO funding dwindles and eventually goes away, we are concerned 
that our operational capability will be lost when our primary source of 
funding is no longer available. The Army made a huge step toward 
formally recognizing this capability when the senior leadership 
recognized an increase to Army Reserve critical requirements in key 
manning and training base budget accounts; however, to this point the 
Army has elected to resource these additional requirements through OCO 
funding.
                       army reserve suicide rates
    Question. General Stultz, the Army Reserve's suicide rate increased 
42 percent in 2010 with 50 reservists taking their own lives. Most of 
these suicides occurred when the soldier was in civilian, rather than 
military, status. How is the Army Reserve responding to this trend and 
addressing the mental health of soldiers beginning with recruitment and 
continuing throughout their entire service in the Reserves?
    General Stultz, is the Army Reserve properly training recruiters to 
evaluate not only the physical but also the mental fitness of new 
recruits?
    Answer. Recruiters are not responsible for establishing an 
applicant's physical or mental qualification for military service and 
receive no training specific to evaluating mental suitability. 
Potential Army recruits are required to complete a ten page pre-
qualification questionnaire, which asks an individual about their 
personal, educational, moral, physical, military, financial, and 
employment history. Recruiters use the applicant's voluntarily 
disclosed information to conduct preliminary screening to determine 
whether the applicant meets minimum qualification standards for the 
Army. If minimum qualifications are met, the next phase of the process 
is to determine whether the applicant meets physical and mental health 
standards; this phase of the recruitment process is accomplished at a 
Military Entrance Processing Stations (MEPS).
    The MEPS plays a vital role in maintaining the Nation's All 
Volunteer Force by ensuring that each new member of the Armed Forces 
meets mental, moral and medical standards required by the Department of 
Defense (DOD) and the military services. In accordance with policies 
and regulations governed by the Military Entrance Processing Command 
(MEPCOM), medically trained personnel use a combination of tools 
including but not limited to the Report of Medical History (DOD form 
2807), Supplementary Health Questionnaire and one-on-one interface with 
medical professionals, to render a determination about an applicant's 
suitability for service. Based on the outcome of a series of 
evaluations conducted at MEPS, applicants may or may not be permitted 
to proceed with the recruitment process depending on the overall 
assessment of both the recruiter and the medical community.
    Numerous initiatives are underway to address strengthening the 
recruiting process both through the VCSA's Health Promotion/Risk 
Reduction/Suicide Prevention Task Force which has recommended to re-
scope Service entrance standards to evaluate candidates on their 
current/potential resiliency and maturity. An additional Assistant 
Secretary of the Army for Manpower & Reserve Affairs (ASA (M&RA)) work 
group is working with Accessions Command to develop tools to better 
identify candidates who may have pre-existing mental health problems. 
The United States Army Reserve has been involved and is supportive of 
these initiatives.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
Components have transitioned from a strategic to an operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. What 
remaining equipment shortfalls most concern you, and how do these 
shortfalls affect your ability to train and deploy?
    Gentlemen, how much additional funding would you need to fully 
equip your component?
    Answer. The Army Reserve equipment top equipment shortfalls are: 
Construction Equipment more specifically the Heavy Scraper; the Command 
Post Systems and Integration (SICPS); the Family of Medium Tactical 
Vehicles (FMTV), a replacement for the nonarmored HMMWV Ambulance and 
Simulators for training.
    The Army Reserve is able to train and deploy our units but is 
dependent on the use of the training sets and the availability of 
Theater Provide Equipment (TPE). However, the shortfall of this 
equipment limits our ability to support full spectrum operations.
    The Army Reserve estimates it would cost $8.9 billion to modernize 
100 percent of the current Army Reserve equipment requirements.
          national guard and reserve equipment account (ngrea)
    Question. Gentlemen, this Committee recognizes the importance of 
providing the Reserve Components funding for necessary new equipment 
and modernizations and has consistently done so through the the NGREA. 
Please describe the importance of this additional funding to providing 
critical equipment for the Reserves.
    Historically, the Department has had some trouble in obligating 
NGREA funds in a timely manner. Please provide an update on current 
obligation rates.
    Answer. NGREA is a valuable tool that enables the Army Reserve to 
procure un-resourced modernized equipment required to train and equip 
our soldiers and units in order to support Army Reserve missions for 
the Nation.
    The Army Reserve has obligate 100 percent of its NGREA within the 
3-year time period. The NGREA obligation rate for fiscal year 2008 was 
100 percent. As of May 11, the NGREA obligation rate for fiscal year 
2009 is 94 percent and for fiscal year 2010 is 93 percent. We do not 
anticipate any issues with obligating 100 percent by the end of the 
respective fiscal years. The Army Reserve has not received fiscal year 
2011 funds yet.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                                suicide
    Question. The Army Reserve experienced 50 suicides in the last 
year--an increase of 16 from the year before. I find this large 
increase to be disturbing and want to know more about what is being 
done upon the servicemember's return.
    Post-deployment, where do Army Reserves members and their family 
members turn for support when the member is not on Active Duty status?
    What programs do you feel will have the biggest impact and will be 
the most successful to mitigate future Army Reserve suicides?
    Answer. In addition to the support provided by unit commanders and 
their staff, Army Reserve Soldiers and their Families, not on Active 
Duty have several avenues they can turn to for post-deployment 
behavioral health support.
    The Army Reserve will continue to grow its Army Strong Community 
Centers (ASCCs). These centers were created to assist geographically 
dispersed soldiers and their families who may not have ready access to 
the services typically available on a military installation. The ASCC 
(currently operating as a Pilot Program at four locations), connects 
those Families with support resources in their own community. The ASCCs 
provide access, support and resources commensurate with what they would 
expect to find on a military installation.
    Soldiers and families members can also turn to their regional 
Directors of Psychological Health (DPH) who are located within one of 
four Army Reserve Regional Support Commands. In addition to supporting 
soldiers and families, these directorates were tasked to develop the 
networks within their communities that are essential in facilitating 
referrals to care providers, volunteer groups and support services that 
are critical components in delivering care, counseling and support to 
soldiers and families.
    On redeployment, soldiers and families attend the Army Reserve 
Yellow Ribbon Program (YRP) where information is provided to facilitate 
access to services and support agencies for their health and well-
being, and Families attend classes on suicide prevention. The Army 
Reserve YRP executes its mission by developing skills in each family 
member and soldier to assure they are prepared and able to cope with 
the difficulties of extended separation and deployment--helping 
families network together, connect with each other and their unit/
command leadership and family programs' staff.
    Military OneSource offers nonmedical counseling options to Active 
Duty, Guard, and Reserve members and their families. The counseling 
services are designed to provide help for soldiers and families with 
short-term issues such as adjustment to situational stressors, stress 
management, decisionmaking. Military OneSource also offers post-
deployment resource for soldiers and families is communication, grief, 
family issues, parenting-skills issues and short-term, solution-focused 
financial counseling. All of these services are offered at no cost to 
the soldiers and their family members.
    Currently the two programs that will have the biggest impact on 
reducing suicides in the Army Reserve are the Suicide Prevention 
Programs and the Comprehensive Soldier Fitness program.
    The Army Reserve's Suicide Prevention program is based around four 
pillars. These pillars involve educating the entire force; reducing the 
stigma associated with asking for help with behavioral/mental health 
issues; providing resources to geographically dispersed personnel; and 
involving Families in suicide prevention training. Examples of these 
efforts include the Ask, Care, and Escort (ACE) training for Soldiers 
and leaders; applied suicide intervention skills training (ASIST); 
battle buddy system with suicide prevention emphasis; and additional 
instructional material on suicide prevention at the Army Reserve's Pre-
Command Courses and Yellow Ribbon and Strong Bonds events.
    One program that will undoubtedly have a major impact on mitigating 
future Army Reserve Soldier suicides is the Comprehensive Soldier 
Fitness (CSF) Program. The CSF program initiative uses individual 
assessments, tailored virtual training, class room training and 
embedded experts to provide the critical resiliency skills our 
soldiers, family members and Army civilians need in today's Army. The 
program tools include the Global Assessment Tool (GAT); Training and 
distributing Master Resiliency Trainers (MRT) and leveraging its Human 
Capital Core Enterprise (HCCE) structure to support soldiers health and 
wellness needs. For example, the MRTs will deliver vital resiliency and 
coping skills which ultimately enhances soldiers' and their families' 
ability to manage/balance the daily challenges of family, social and 
professional obligations.
                                 ______
                                 
            Questions Submitted to Vice Admiral Dirk Debbink
            Questions Submitted by Chairman Daniel K. Inouye
                    navy reserve--officer recruiting
    Question. Vice Admiral Debbink, over the last several years the 
Navy Reserve has struggled with officer recruiting and is still facing 
a serious officer shortage due to years of low recruiting. In 2010, the 
Navy followed the lead of the other Services and began commissioning 
some Naval Reserve Officer Training Corps (NROTC) accessions directly 
into the Reserve Component.
    Do you think this policy change will be enough to reduce the 
officer shortage within the Reserves?
    Answer. The policy change, which will commission Navy Reserve 
Officer Training Corps accessions into the Individual Ready Reserve 
(IRR) will not address shortages in the Selected Reserve (SELRES), and 
was not intended to do so. These newly commissioned officers, who do 
not possess the requisite skills, experience or seniority required in 
SELRES communities experiencing shortfalls, will remain in the IRR in 
non-pay, non-drill status until their training commences, or the 
beginning of the next fiscal year.
    Question. What additional measures are being considered by the Navy 
Reserve to address remaining officer shortages?
    Answer. To address challenges in the Reserve officer mission, we 
have:
  --Established targeted bonuses and incentives to increase Reserve 
        affiliation and retention in specific officer communities based 
        on relative need, while an officer retention bonus is currently 
        being considered by OSD. In fiscal year 2011, an affiliation 
        bonus for prior service officers, an accession bonus for direct 
        commission officers, and health professional critical-skill 
        shortage incentives were offered to SELRES officers.
  --Implemented a mobilization deferment policy that stipulates that an 
        officer who affiliates within 6 months of release from Active 
        Duty is guaranteed a 2-year mobilization deferment, while an 
        officer who affiliates within 7-12 months receives a 1-year 
        deferment.
  --Increased the number of officers accessed through direct commission 
        (845 in fiscal year 2010 to 990 in fiscal year 2011) and the 
        number of officer communities that have a direct commission 
        officer program from 19 to 25.
  --Established a Career Transition Office (CTO) to increase Reserve 
        affiliation rates by educating members leaving Active Duty 
        about the benefits of continuing their Navy careers in the Navy 
        Reserve and to streamline the transition process. Since the CTO 
        was established in May 2009, we have increased, from 22 percent 
        to 47 percent, the percentage of officers affiliating in the 
        Reserve Component directly upon leaving Active Duty. 
        Affiliation rates in fiscal year 2011 to date have exceeded 50 
        percent, and we have increased from 25 percent to 99.8 percent 
        the percentage of officers leaving Active Duty who have been 
        educated about Reserve opportunities. The CTO has reduced 
        average AC to RC transition time from more than a month to 5 
        days, resulting in higher overall affiliation rates and fewer 
        pay problems.
  --Instituted targeted leadership development and Interactive Customer 
        Evaluation (ICE) at Reserve Forces Command to identify problem 
        areas and improve the Navy drilling Reserve experience to 
        increase retention.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
Components have transitioned from a strategic to an operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role.
    What remaining equipment shortfalls most concern you, and how do 
these shortfalls affect your ability to train and deploy?
    Answer. The Navy Reserve equipment shortfalls are published in 
Table 8 of the National Guard and Reserve Equipment Report. The Navy 
Reserve's top equipment priorities continue to be aircraft procurement 
and the outfitting of the Navy Expeditionary Combat Command.
    Question. How much additional funding would you need to fully equip 
your component?
    Answer. The budget as submitted by the President will allow the 
Navy Reserve to carry out its mission as part of Navy's Total Force.
          national guard and reserve equipment account (ngrea)
    Question. Gentlemen, this Committee recognizes the importance of 
providing the Reserve Components funding for necessary new equipment 
and modernizations and has consistently done so through the NGREA.
    Please describe the importance of this additional funding to 
providing critical equipment for the Reserves.
    Answer. The NGREA has been a high-impact critical capital infusion 
for the Navy Reserve since its inception in 1981, but has taken on 
added importance in recent years with our transition to providing even 
more operational capabilities to the Navy and Marine Corps team, and 
joint forces. The appropriation has been instrumental in resourcing the 
capabilities of the Navy Expeditionary Combat Command (NECC) and has 
bolstered the recapitalization of critical Reserve Component (RC) 
equipment in both Naval Aviation and the Surface Navy. In fiscal year 
2010, the Navy Reserve executed NGREA funding to equip the Maritime 
Expeditionary Security Force (MESF), Explosive Ordnance Disposal (EOD), 
Naval Construction Force (NCF), Navy Expeditionary Logistics Support 
Group (NAVELSG), Naval Aviation and Surface Warfare units with: 
tactical and armored vehicles, civil engineering equipment, 
communications equipment, table of allowance items, aviation 
modernization upgrades and rigid hull inflatable boats.
    Question. Historically, the Department has had some trouble in 
obligating NGREA funds in a timely manner. Please provide an update on 
current obligation rates.
    Answer. Below are the current obligation rates for the three active 
NGREA appropriation years:

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                              Final year        2nd year          1st year         Cong. Adds
----------------------------------------------------------------------------------------------------------------
Fiscal year 2009:
    Appropriated..........................           $51.9             $51.9             $51.9             $25
    Percent obligated.....................        \1\ 94.3              87.3              17.4          \2\ 89.4
Fiscal year 2010:
    Appropriated..........................  ..............             $55               $55    ................
    Percent obligated.....................  ..............          \3\ 65.5              37.1  ................
Fiscal year 2011:
    Appropriated..........................  ..............  ................             $70    ................
    Percent obligated.....................  ..............  ................         ( \4\ )    ................
----------------------------------------------------------------------------------------------------------------
\1\ The $3.2 million which is currently unobligated is for an F-5 Trainer upgrade and will be obligated before
  the end of the fiscal year.
\2\ The $2.6 million which is currently unobligated is for the C-130 Electronic Prop Control System and will be
  obligated before the end of the fiscal year.
\3\ The $19 million which is currently unobligated is for a C-130 Simulator upgrade and for some NCF equipment.
  Navy is on track to have all $55 obligated by the end of the 3rd year.
\4\ The $70 million has not yet been received by OSD.

                   operational reserve's future role
    Question. Gentlemen, the Reserve Components continue to transition 
from a strategic to an operational Reserve.
    What are the biggest challenges still remaining in making this 
transition, and what role do you see the operational Reserve playing in 
the near future as the wars in Iraq and Afghanistan wind down?
    Answer. The greatest challenge will be to communicate a common 
understanding of the transition to ensure we do not inadvertently 
overburden our Guard and Reserve Components. The Navy Reserve provides 
strategic depth and delivers operational capability. For the sake of 
the Nation and to ensure our long-term viability, the Reserve Force 
needs to be able to perform both these missions. If we 
``operationalize'' the entire Navy Reserve, it becomes unsustainable 
from a manpower and fiscal perspective. At any given time, 
approximately two-thirds of our Navy Reserve is providing strategic 
depth, while approximately one-third is in a more operational posture. 
To be able to deliver operational capabilities in the future, the other 
challenge in this period of transition is to provide timely access to 
Reserve Force personnel during periods of relative geopolitical 
stability. In an era in which emerging global contingencies, which do 
not warrant a congressional or Presidential declaration of war or 
national emergency, the Department of Defense lacks the flexibility to 
access RC members to participate in total force solutions to meet 
rapidly evolving requirements. Section 513 of the President's National 
Defense Authorization Request for fiscal year 2012, includes a 
provision which, if enacted, would amend title 10, United States Code, 
section 12304 to:
  --Enhance Total Force capacity by allowing RC units and members to be 
        included in long-range planning processes;
  --Provide the opportunity to enhance dwell/ITEMPO to desired levels 
        through increased capacity provided by RC units and members;
  --Enhance the overall readiness of RC units with high-demand skill 
        sets, ensuring a more robust total force response capacity for 
        future contingency operations;
  --Provide predictability of future routine military obligations for 
        individual Reserve members, their families and their employers; 
        and
  --Provide a mechanism to access RC members for routine requirements 
        assured of the various protections currently granted for other 
        involuntary duty assignments.
    I urge Congress to enact this important provision, to facilitate 
transition to an operational Reserve, as the National Defense 
Authorization Act is taken up in the weeks ahead.
    Question. Do you believe the Department is adequately resourcing 
the Reserves to make this transition?
    Answer. The Department is adequately resourcing the Navy Reserve as 
we continue transitioning from a strategic to an operational Reserve.
                                 ______
                                 
         Questions Submitted to Major General Darrell L. Moore
            Questions Submitted by Chairman Daniel K. Inouye
               marine corps reserve--strain on the force
    Question. General Moore, the Marine Corps Reserve has maintained a 
high-operational tempo with nearly 60,000 marine reservists activated 
since 2001 and more than 20,000 marine reservists deployed more than 
once.
    While the operational tempo is beginning to slow, how has the 
Marine Corps Reserve been keeping track of the welfare and mental 
health of deactivated reservists who are returning from deployments?
    Answer. Our marines, sailors, and their families remain our highest 
priority. Accordingly, we are keenly attentive to their health and 
resiliency, especially for our reservists who are deactivated after 
returning home from theater security cooperation and overseas 
contingency operation deployments. There are three current initiatives 
that specifically support our returning warriors: medical intervention, 
the Psychological Health Outreach Program (PHOP), and incorporating 
Veterans Administration (VA) OIF/OEF Group support.
    First, returning marines who need prompt intervention are retained 
on medical hold (MedHold) or have Line of Duty (LOD) packages opened. 
These marines or sailors are then tracked until they are returned to 
full duty or have their cases referred to the Disability Evaluation 
System for final adjudication.
    The second initiative we implemented is the PHOP, which provides 
psychological health professionals at six regional Marine Forces 
Reserve sites to screen and refer Selected Marine Corps Reserve 
personnel for behavioral health services. Marines who self-refer or are 
referred to the program can be screened for behavioral health issues, 
appropriately referred, and provided a road to recovery. Outreach 
members follow each referred reservist through to the resolution of 
that member's case, whether it is return to Active Reserve status or 
resolution through the Disability Evaluation System.
    Our third initiative is the inclusion of VA OIF/OEF Groups at the 
local VA hospitals and clinics that support individual returning 
marines. These groups meet those returning marines at the Reserve-
Intermediate Location (R-ILOC), enroll them in the VA healthcare system 
and provide them a medical home at the VA. The goal is to encourage 
every returning marine to be seen by the OIF/OEF Group at his or her 
local VA for a comprehensive evaluation as soon as possible after 
returning home and to have a primary care manager assigned.
    Our strategy is for the Medical Department Representative at the 
Home Training Center, the Psychological Health Outreach Coordinator, 
the VA OIF/OEF primary care manager, and the Wounded Warrior Regiment 
to work as a team to ensure that every returning marine is provided the 
care he or she needs. Every returning marine with a problem will be 
tracked to completion while we ensure he or she has a medical home at 
the VA.
    Question. General Moore, do you think the Marine Corps should 
follow the Army's lead and begin tracking Reserve Component suicides 
separately from the Active Component?
    Answer. The Marine Corps tracks and reports suicides of Reserve 
Component marines who are in an Active status in accordance with 
Department of Defense (DOD) policy. In January 2009, the Marine Corps 
began tracking suicides of Selected Reserve Marines who are not in an 
Active status, which is also consistent with DOD policy.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
Components have transitioned from a strategic to an operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role.
    What remaining equipment shortfalls most concern you, and how do 
these shortfalls affect your ability to train and deploy?
    Answer. Current equipping priorities are focused on the 
modernization of existing capabilities. Since Marine Corps Reserve 
units deploy and fall in on equipment that is already in theater, it is 
essential that we continue to maintain our commitment to outfitting the 
Marine Corps Reserve with the same modernized equipment as the Active 
Component. This enables our Reserve Forces to be trained to the same 
standard on the same equipment that they will be using in combat. The 
top ten shortfalls listed in our fiscal year 2012 National Guard and 
Reserve Equipment Report fall into three main programs that continue to 
be our top priorities:
  --Light Armored Vehicles (LAV);
  --KC-130J refueler aircraft; and
  --Logistics Vehicle System Replacement (LVSR).
    The first priority is procurement of the few remaining A2-standard 
modernized LAVs. Through a combination of National Guard & Reserve 
Equipment Appropriation (NGREA) and baseline dollars, we have been able 
to close that gap to a shortfall of 18 vehicles. The estimated cost to 
procure those remaining vehicles is $50 million.
    The second priority is accelerating the transition from the KC-130T 
to the KC-130J aircraft. The Active Component has completely divested 
of legacy KC-130Ts and will complete KC-130J fielding in fiscal year 
2012. The Reserve KC-130J fielding schedule is programmed to begin in 
fiscal year 2015 and complete by fiscal year 2029. The additional cost 
to transition to a KC-130J-only fleet within this Future Years Defense 
Program (FYDP) is approximately $2.2B which equates to approximately 
$108 million per aircraft (total weapons system cost, which includes 
support equipment, tools, spares) for 20 aircraft plus $50 million for 
two KC-130J Weapons Systems Trainers.
  --The Marine Corps has eliminated all formal schooling and the Fleet 
        Replacement Squadron for the KC-130T pilots and reduced the 
        enlisted aircrew requirement from one enlisted crewmember in 
        each of four enlisted aircrew Military Occupational Specialties 
        (MOS) to two enlisted crewmen under one new enlisted aircrew 
        MOS. Additionally, MOS schools are no longer teaching all of 
        the KC-130T maintenance.
  --The elimination of all formal schooling and the Fleet Replacement 
        Squadron for the KC-130T pilots along with the reductions in 
        teaching KC-130T maintenance places an extensive on the job 
        training (OJT) burden with the Reserve Component for training 
        associated with the transition/conversion.
  --Because the Active Component and sister services have or are 
        currently completing the KC-130J transition, the RC KC-130T's 
        Full Mission Capability rate (FMC)--an individual aircraft's 
        ability to perform 100 percent of the possible missions--
        continues to decline. Prolonged transition to the KC-130J 
        increases risk for degraded operational capability due to 
        nonavailability of parts as manufacturers discontinue 
        production and civil Communication Navigation Surveillance and 
        Air Traffic Management (CNS/ATM) mandates. A recent KC-130 
        Program Office (PMA 207) Analysis of KC-130T FMC rates depicts 
        them dropping below acceptable levels before 2020.
    The third modernization priority is replacement of the legacy 
Logistics Vehicle System (LVS) with the LVSR. Using fiscal year 2011 
NGREA, we have closed this gap significantly and require about $8 
million to procure 22 vehicles and achieve 100 percent of the required 
training allowance.
    Question. How much additional funding would you need to fully equip 
your component?
    Answer. Excluding the cost to accelerate transition from the KC-
130T to the KC-130J, the Marine Corps Reserve's estimated wartime 
requirement shortfall is $776 million. Of that amount, $396 million 
represents today's best estimate of training allowance.
    In order to support and sustain combat operations, the Marine Corps 
has drawn equipment from many sources to include the Reserve Component. 
While the actual amount of equipment taken from the Reserve Component 
training allowance was very small, significant portions of ongoing 
procurements intended to be fielded to the Reserve Component were 
redirected to support combat operations that included both Active and 
Reserve units.
    Once the Marine Corps transitions from major combat operations and 
resets equipment, we expect that many of the current training allowance 
shortfalls will be filled. Additionally, as the Marine Corps works to 
define the right mix of ground equipment necessary to transition itself 
to a ``middleweight'' force, the character of the shortfall may change 
further. As this transition progresses, we will continue to focus 
resource advocacy toward the modernization programs listed above.
          national guard and reserve equipment account (ngrea)
    Question. Gentlemen, this subcommittee recognizes the importance of 
providing the Reserve Components funding for necessary new equipment 
and modernizations and has consistently done so through the National 
Guard and Reserve Equipment Appropriation (NGREA).
    Please describe the importance of this additional funding to 
providing critical equipment for the Reserves.
    Answer. For the last several years, the Marine Corps has relied on 
NGREA to accomplish three primary goals: availability of theater-
specific equipment; training improvement; and modernization.
    The first goal was to ensure that units and marines preparing for 
deployment had available to them for training the same theater-specific 
equipment represented in combat operations. We were able to accomplish 
this through NGREA purchases such as Rifle Combat Optics and M-4 
Carbines, various Counter Intelligence and Human Intelligence packages, 
and specialized communications and sensor packages.
    The second goal was to improve training efficiency, cost 
effectiveness, and throughput by investing in modeling and simulation 
programs that related directly to the tactics and equipment being used 
in theater. One of our most significant investments and most successful 
example of this is the Virtual Combat Convoy Training System.
    The third goal was to invest in modernization programs of record 
(POR) such as Light Armored Vehicles and aircraft upgrades such as 
Bright Star FLIR. We expect that in the future NGREA will continue to 
be used primarily in support of accelerating modernization efforts 
within the Marine Reserve.
    Question. Historically, the Department has had some trouble in 
obligating NGREA funds in a timely manner. Please provide an update on 
current obligation rates.
    Answer. Fiscal year 2009 NGREA ($62 million) is currently 91.9 
percent obligated. Cost variations and economies provided us with an 
opportunity to invest in more equipment than was originally planned. 
The Marine Corps recently received approval to do final NGREA program 
realignments and is in the process of applying those funds to program 
lines and contracts for execution. We expect to obtain a 100 percent 
obligation rate by year end.
    Fiscal year 2010 NGREA ($45 million) is currently 56.8 percent 
obligated. All but $300,000 of the total appropriated is being invested 
in the procurement of LAVs at the A2 standard. LAV procurement occurs 
in two phases: vehicle manufacture, then installation of Government 
Furnished Equipment (GFE) at a government site. Delay in funds 
obligation stems from waiting to order GFE until anticipated delivery 
of completed vehicles. This process of separating the purchase into two 
phases provides maximum contracting flexibility and potential order 
economies. The LAV Program office estimates that fiscal year 2010 NGREA 
will be 80 percent obligated by the end of this fiscal year and 
foresees no challenges in reaching 100 percent obligation by the end of 
fiscal year 2012.
    Fiscal year 2011 NGREA spending plan is $70 million. The Marine 
Corps is awaiting final plan approval from OSD in order to distribute 
funds. The portion of our plan that invests in additional LAVs ($19 
million) will be subject to the same contracting strategy as above. The 
portion of our plan that invests in LVSRs may be able to take advantage 
of a large scale contract currently being put in place. If the option 
remains available to us, we should be able to rapidly obligate that 
portion of the fiscal year 2011 funding.
                   operational reserve's future role
    Question. Gentlemen, the Reserve Components continue to transition 
from a strategic to an operational Reserve.
    What are the biggest challenges still remaining in making this 
transition, and what role do you see the operational Reserve playing in 
the near future as the wars in Iraq and Afghanistan wind down?
    Answer. One challenge is ensuring we are able to access our Reserve 
units for peacetime missions unrelated to overseas contingency 
operations. Our Reserves are well-suited to perform missions, such as 
theater security cooperation, which will continue after the wars in 
Iraq and Afghanistan are over. However, to be cost-effective, we need 
to be able to access cohesive units rather than cobble together groups 
of individual volunteers. For this reason, we consider the legislative 
proposal to revise 10 USC Sec. 12304 to be critical to the success of 
an operational Reserve.
    Question. Do you believe the Department is adequately resourcing 
the Reserves to make this transition?
    Answer. Post OEF, the Marine Corps is committed to retaining and 
employing an Operational Reserve as part of our Total Force. The exact 
size and scope has yet to be determined and is likely to fluctuate 
based on the National Security Strategy and operational tempo. The most 
significant cost of employing our Reserves as an operational force 
comes in the form of manpower funding necessary for pay, allowances, 
and entitlements for reservists when on Active Duty. The Marine Corps 
will need to prioritize funding for the Operational Reserve among the 
existing Total Force programs and capabilities within our baseline 
budget.
                                 ______
                                 
   Questions Submitted to Lieutenant General Charles E. Stenner, Jr.
            Questions Submitted by Chairman Daniel K. Inouye
               air force reserve--force generation center
    Question. General Stenner, since 2001, more than 60,500 Air Force 
Reservists have been called to Active Duty. In order to facilitate this 
high-operational tempo, the Air Force Reserve established the Force 
Generation Center (FGC) in 2010 to provide a standardized approach in 
preparing, processing, and deploying Reservists. What is the status of 
the FGC, and is it still on track to be fully operational by the end of 
2012?
    Answer. The FGC is up and running with 40 billets; about 25 moved 
from the Air Force Reserve Command Headquarters staff and 15 are new 
hires. The FGC is on track to be fully functional with 86 full time and 
27 part time reservists by August 2012.
    Question. How will the FGC benefit individual Air Force reservists?
    Answer. The establishment of the FGC provides the Air Force Reserve 
Command (AFRC) the ability to optimize force management and 
accountability of Air Force Reserve (AFR) forces by standardizing and 
streamlining coordination for the activation of Reserve Forces. The FGC 
does this by consolidating execution functions formerly fragmented 
across the AFRC HQ staff from the ``policy and guidance'' functions. 
The major commands and other users of Reserve Forces can now go to one 
center vice many sources to access AFR capability. The FGC also allows 
me to effectively track and validate from the AFR perspective where our 
folks are and how they are being used. This will increase visibility 
and accountability of Reserve Forces across all categories, some where 
we previously had limited or no real time information. As a result, the 
AFR can be more responsive to the needs of individual reservists, 
providing them greater predictability while making activation schedules 
more certain.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
Components have transitioned from a strategic to an operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. What 
remaining equipment shortfalls most concern you, and how do these 
shortfalls affect your ability to train and deploy?
    Answer. The most critical equipment shortfall for the Air Force 
Reserve (AFR) currently is the Large Aircraft Infrared Countermeasures 
System (LAIRCM) for our legacy mobility aircraft fleet. Our C-130 
fleet, with the help of National Guard and Reserve Equipment 
Appropriation (NGREA) funding, is well on its way to be completely 
modified. Air Mobility Command has a plan to modify our C-5's but 
currently is last in line to receive the upgrade. The KC-135 community 
has defined a cost-effective LAIRCM solution but is without funding. 
The Congress has been extremely generous to the AFR in the last few 
years with additive resources for modernizing our aircraft. The lack of 
these systems negatively affects our aircraft's ability to effectively 
operate and deploy in the combat environment. Non-LAIRCM equipped 
aircraft are easy prey for third- and fourth-generation man portable 
missiles being proliferated throughout the world.
    Question. Gentlemen, how much additional funding would you need to 
fully equip your component?
    Answer. The AFR currently has more than $957 million in unfunded 
equipment requirements. Of that, $70 million will be paid for with our 
fiscal year 2011 NGREA funding once our fiscal year 2011 Procurement 
Plan is approved through the Congress. We maintain the most efficient, 
experienced and operationally capable force, but operate some of the 
oldest aircraft in the Air Force fleet. The AFR is not programmed to 
recapitalize any of its legacy fleet through the current Future Years 
Defense Program (FYDP). Age of the fleet and more than 20 years of 
increased operations tempo will make replacement of our aircraft 
imperative in the years to come.
          national guard and reserve equipment account (ngrea)
    Question. Gentlemen, this Committee recognizes the importance of 
providing the Reserve Components funding for necessary new equipment 
and modernizations and has consistently done so through the NGREA. 
Please describe the importance of this additional funding to providing 
critical equipment for the Reserves.
    Answer. The NGREA is the cornerstone of the Air Force Reserve's 
(AFR) equipment modernization and replacement funding efforts. Congress 
has been extremely generous in providing the NGREA funding for the 
modernization and purchase of Air Reserve Component equipment. Without 
these funds, the modernization of AFR aircraft would have been almost 
nonexistent. The AFR does not usually rank high enough on Lead Major 
Command's modernization priority lists to receive Program Objective 
Memorandum funding. In today's constrained fiscal reality, that fact 
has even greater impact.
    Question. Historically, the Department has had some trouble in 
obligating NGREA funds in a timely manner. Please provide an update on 
current obligation rates.
    Answer. Full obligation and execution within the 3-year life of 
NGREA funds has never been an issue. In the last 12 years, the AFR has 
executed 99.7 percent of their allocated NGREA funds. The difficulty 
lies in our first year obligation rates and the reasons for those 
difficulties are many. We, in partnership with the Air National Guard, 
the Headquarters Air Force Acquisition Staff, Air Force Materiel 
Command, and the individual system program offices are currently 
working closely together to identify what the difficulties are and to 
implement new policies, procedures, and guidelines to ensure we meet 
the expectation of the Congress. As of our February 2011 NGREA 
Obligation Review, the obligation rates were: Fiscal year 2009 NGREA--
48.5 percent, fiscal year 2009 NGREA OCO--96.8 percent, and fiscal year 
2010 NGREA--10.9 percent. We have recently re-aligned fiscal year 2009 
and fiscal year 2010 funds away from nonperforming programs to 
performing ones which will improve our obligation rates.
                   operational reserve's future role
    Question. Gentlemen, the Reserve Components continue to transition 
from a strategic to an operational Reserve. What are the biggest 
challenges still remaining in making this transition, and what role do 
you see the operational Reserve playing in the near future as the wars 
in Iraq and Afghanistan wind down?
    Answer. The Citizen Airmen of the Air Force Reserve have been 
meeting continuous and recurring operational mission commitments since 
1990. Today's security environment has led to continued demand for the 
Reserve Component to augment Active Component steady-state operational 
missions. Despite a drawdown of operations in Iraq or Afghanistan, the 
Air Force Reserve maintains its operational role while providing 
strategic depth. Our operational involvement and strategic depth are 
institutionalized and sustained by new rules within the Department, new 
planning and execution processes within the Air Force and re-calibrated 
expectations by Reservists, their families, and their employers.
    As supplemental and Overseas Contingency Operations funding wanes, 
we are challenged to ensure adequate funding exists for Reserve 
Component operational use. Budgeting for the use of the Reserve 
Component within Service base budgets helps overcome this funding 
challenge. The Nation cannot afford to put the Reserve Component ``back 
on the shelf.'' Another challenge facing the Reserve Component is the 
potential reduction of prior-service members transitioning to the 
Reserve Component. With fewer eligible Active Component members, the 
Reserve Component is faced with increased recruiting and training costs 
normally absorbed when an Active member transitions. We must rely on 
adequate funding levels to offset potential increased costs.
    Question. Do you believe the Department is adequately resourcing 
the Reserves to make this transition?
    Answer. The Department as a whole is fiscally constrained. The 
Reserve Component has become a responsive operational force that allows 
the Air Force to respond quickly and efficiently to funding reductions 
without creating warfighting capacity gaps and recruiting and training 
bills associated with the traditional force planning models. That said, 
as supplemental and Overseas Contingency Operations funding is reduced 
and as military personnel appropriations funding decreases, the 
potential for inadequate resourcing exists unless provided for in the 
Services' base budget.
    Question. The Air Force Reserve's 932nd Air Wing located at Scott 
Air Force Base in Illinois is soon scheduled to retire their three C-9C 
aircraft. Although the plan is to retain their three currently 
authorized C-40 aircraft, the 932nd is only scheduled to gain one 
additional C-40, currently in production. How will the reduction in 
total aircraft assigned to the 932nd impact their ability to perform 
their mission? Will the reduction in total aircraft assigned to the 
unit result in a decrease in personnel assigned to the unit and if so 
by how many?
    Answer. The 932nd Airlift Wing operates and maintains three C-9C 
and three C-40C aircraft. The Air Force Reserve Command (AFRC) programs 
and manages the funding for the wing's facilities, flying hours, 
support equipment, personnel training, and maintenance requirements.
    The current program of record funds C-9C operations and force 
structure through fiscal year 2011. Beginning in fiscal year 2012, 
three C-9C aircraft will be retired. AFRC has projected a 45 percent 
loss in capability from fiscal year 2011 levels of support and a 
reduction of 252 Reserve personnel. An additional C-40C is programmed 
for delivery in early fiscal year 2012 and will increase aircraft 
availability for unit operations but the unit will remain a three 
primary aircraft authorization unit. The C-9C retirement will not 
impact the unit's ability to perform its mission, however, the 
capability to meet the current level of support will be reduced.
    Please know that current mission capability and future levels of 
support are of interest and as the C-40C has no official wartime 
mission, we will strive to execute an equivalent level of service that 
three primary aircraft authorization aircraft will provide.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This Defense Subcommittee will reconvene 
on Tuesday, May 17 at 10:30 a.m., at which time we will meet in 
closed session to receive a briefing on fiscal year 2012 
Northern Command and Southern Command programs and budgets.
    Thank you very much.
    The session is recessed.
    [Whereupon, at 11:49 a.m., Wednesday, May 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
